<html>
<title> - PROTECTING THE RIGHT TO VOTE: ELECTION DECEPTION AND IRREGULARITIES IN RECENT FEDERAL ELECTIONS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
PROTECTING THE RIGHT TO VOTE: ELECTION DECEPTION AND IRREGULARITIES IN 
                        RECENT FEDERAL ELECTIONS

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 7, 2007

                               __________

                            Serial No. 110-9

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov





                      U.S. GOVERNMENT PRINTING OFFICE
33-810 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 





                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      CHRIS CANNON, Utah
WILLIAM D. DELAHUNT, Massachusetts   RIC KELLER, Florida
ROBERT WEXLER, Florida               DARRELL ISSA, California
LINDA T. SANCHEZ, California         MIKE PENCE, Indiana
STEVE COHEN, Tennessee               J. RANDY FORBES, Virginia
HANK JOHNSON, Georgia                STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
ANTHONY D. WEINER, New York          LOUIE GOHMERT, Texas
ADAM B. SCHIFF, California           JIM JORDAN, Ohio
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota
[Vacant]

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel









                           C O N T E N T S

                              ----------                              

                             MARCH 7, 2007

                           OPENING STATEMENT

                                                                   Page
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     1
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Ranking Member, Committee on the Judiciary.     2

                               WITNESSES

The Honorable Barack Obama, a U.S. Senator from the State of 
  Illinois
  Oral Testimony.................................................     5
  Prepared Statement.............................................     6
The Honorable Benjamin Cardin, a U.S. Senator from the State of 
  Maryland
  Oral Testimony.................................................     8
  Prepared Statement.............................................     9
The Honorable Loretta Sanchez, a Representative in Congress from 
  the State of California
  Oral Testimony.................................................    16
  Prepared Statement.............................................    18
The Honorable Rahm Emanuel, a Representative in Congress from the 
  State of Illinois
  Oral Testimony.................................................    19
  Prepared Statement.............................................    20
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa
  Oral Testimony.................................................    26
  Prepared Statement.............................................    28
The Honorable Brian Bilbray, a Representative in Congress from 
  the State of California
  Oral Testimony.................................................    29
  Prepared Statement.............................................    31
Mr. Ralph G. Neas, President and CEO, People for the American Way
  Oral Testimony.................................................    39
  Prepared Statement.............................................    41
Ms. Donna L. Brazile, Chair, Democratic National Committee's 
  Voting Rights Institute, Adjunct Professor, Georgetown 
  University
  Oral Testimony.................................................    44
  Prepared Statement.............................................    47
Ms. Eve Sandberg, Associate Professor of Politics, Oberlin 
  College
  Oral Testimony.................................................    53
  Prepared Statement.............................................    55

                                APPENDIX
           Material Submitted for the Printed Hearing Record

Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................    86
Prepared Statement of John Fund, Columnist, The Wall Street 
  Journal........................................................    96
Response to Post-Hearing Questions from Ralph G. Neas, President 
  and CEO, People for the American Way...........................    99
Response to Post-Hearing Questions from Donna L. Brazile, Chair, 
  Democratic National Committee's Voting Rights Institute, 
  Adjunct Professor, Georgetown University.......................   102
Newspaper Articles, from The Washington Post and The Westside 
  Gazette, submitted by Donna L. Brazile, Chair, Democratic 
  National Committee's Voting Rights Institute, Adjunct 
  Professor, Georgetown University...............................   104
Prepared Statement of Hilary O. Shelton, Director, NAACP 
  Washington Bureau..............................................   115
Prepared Statement of Lillie Coney, Associate Director, 
  Electronic Privacy Information Center (EPIC), Coordinator 
  National Committee for Voting Integrity........................   117

                        OFFICIAL HEARING RECORD
                  Material Submitted but not Reprinted

Reports published by the People for the American Way, the NAACP 
  and the Lawyers' Committee for Civil Rights Under Law, 
  submitted by Ralph G. Neas, President and CEO, People for the 
  American Way, have been retained in the official Committee 
  hearing record. These reports may also be found at http://
  media.pfaw.org/PDF/Reports/TheNewFaceOfJimCrow.pdf and http://
  media.pfaw.org/PDF/ElectionReform/BarriersToVoting.pdf.
Submission entitled Report by the Center for Voting Rights & 
  Protection, submitted by Donna L. Brazile, Chair, Democratic 
  National Committee's Voting Rights Institute, Adjunct 
  Professor, Georgetown University, has been retained in the 
  official Committee hearing record. This report may also be 
  found at http://www.votelaw.com/blog/blogdocs/GOP_Ballot_
  Security_Programs.pdf.


PROTECTING THE RIGHT TO VOTE: ELECTION DECEPTION AND IRREGULARITIES IN 
                        RECENT FEDERAL ELECTIONS

                              ----------                              


                        WEDNESDAY, MARCH 7, 2007

                  House of Representatives,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:06 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable John 
Conyers, Jr. (Chairman of the Committee) presiding.
    Mr. Conyers. The Committee will come to order.
    Will everyone take their seats? The doors are closed but 
not locked.
    Ladies and gentlemen, there is no more important issue that 
comes before this Committee, this Congress or this Nation than 
protecting the right to vote. Our democracy is premised on the 
notion of one person, one vote. It is the keystone right of our 
Nation, and without it, all of the other rights and privileges 
of our people would quickly become meaningless.
    And that is why so many of us think that this is a very, 
very unusually important hearing for the Judiciary Committee, 
``Protecting the Right to Vote: Election Deception and 
Irregularities in Recent Federal Elections.''
    Protecting the precious right does not come easily or 
cheaply. In a very real sense, we fought a war of independence 
over our people's right to vote, and the most basic reform that 
grew out of the Civil War was the 15th amendment's protection 
of the right to vote. Even then, it was not until we passed the 
Voting Rights Act in 1965 and those continuations, including 
the one last year, that we began to give true meaning to that 
right.
    There is a constant ebb and flow in our democracy over this 
right. We have endured a lot of political abuses in our 
history: Tammany Hall, Pendergast, the Daley Machines, et 
cetera. We survived the debacle of the Florida election in 
2000. In each case, we, with the best of intentions, have 
enacted reforms.
    While the days of Bull Connor turning fire hoses on young 
voters may be over, those bent on voter suppression have only 
turned to more sophisticated devices. These modern-day tools 
include unfounded threats of arrest or loss of citizenship for 
failure to follow elaborate and fictitious procedural 
requirements, as well as deliberate disinformation with regard 
to correct polling locations, or even the actual date of 
election itself.
    Just ask the voters turned away from the polls in Florida 
in 2000 because they were illegally purged from the voting 
rolls. Or the voters who waited in pouring rain for hours in 
inner city Columbus while their counterparts in the suburbs 
went speedily through the lines. Or the African-American voters 
targeted in nearby Prince George's County, Maryland, with false 
and misleading flyers.
    While the notorious voter-suppression practices of the past 
have been outlawed, I believe it is time that we do the same 
with those notorious modern-day practices. In history, we 
responded to the challenges laid down by Susan Anthony, Martin 
Luther King, Jr., but today's modern-day prophets, like Bobby 
Kennedy, Jr., and Reverend Jesse Jackson, have clearly and 
eloquently spoken to the problems we face today.
    If we are serious, and I believe this Committee is, about 
protecting this most fundamental of rights, we have our work 
cut our for us. And so I am proud to have joined with 
introducing the very important legislation that will be 
discussed today.
    While this may be one step in our efforts to reform the 
election process, we not pretend it to be a complete solution. 
We also need to reduce our reliance on unverifiable electronic 
voting machines, so that American citizens can have the 
confidence in the results of our elections that they ought to 
have.
    In each of the last three election cycles, electronic 
voting machines have literally cost tens of thousands of votes, 
with no means of accountability for this most cherished 
constitutional right.
    We also need to better ensure fair allocation of voting 
machines in polling places. There is not a reason in the world 
we cannot give our citizens the benefit of an election-day 
holiday.
    And we need a fairer, more voter-friendly system for 
provisional ballots so that innocent confusion on Election Day 
does not prevent eligible voters from casting a ballot and 
having it counted in each and every instance. We have seen 
disturbing instances of State and local officials using hyper 
technicalities to subvert the intent of the Help America Vote 
Act.
    If we allow the infrastructure of our democracy to decay, 
our citizens will lose faith in our elections--and, for me, too 
many already have--and the very legitimacy of our democratic 
institutions is at risk.
    Forty years after the passage of the Voting Rights Act--and 
I sat in this body and was present in this Committee when it 
was enacted--voters across the country continue to be the 
targets of deceptive practices and intimidation aimed at 
preventing them from voting. It is long past time for Federal 
legislation to help prevent this from occurring.
    And I am 5 seconds over my 5 minutes, for which I will 
allow Lamar Smith as much time as he may need over the 5 
minutes. And I am happy to introduce now my Ranking Member on 
the House Judiciary Committee from Texas, with whom I have had 
a very effective and cordial relationship.
    Mr. Smith, you are recognized.
    Mr. Smith. Thank you, Mr. Chairman, both for the time and 
for those cordial comments.
    Mr. Chairman, elections are run by human beings, and human 
beings have flaws. So it is no surprise and voting fraud and 
other irregularities occur in each election. And each political 
party, of course, has their favorite examples. But voting fraud 
is deplorable, and we must do all we can to prevent it.
    What I want to focus on today is something the vast 
majority of the American people have shown that they are very 
concerned about, and that is the problem of illegal immigrants 
voting and the need for photo ID requirements.
    A recent Wall Street Journal-NBC News poll mirrors every 
other poll on this subject: Over 81 percent of those surveyed 
supported a requirement to show a photo ID before voting. This 
includes two-thirds majorities of African-Americans and 
Democrats and a majority of Hispanics.
    In the 1996 election, that one of our colleagues testifying 
here today, Representative Loretta Sanchez, a House 
Administrative Committee investigation found ``evidence of 748 
improper ballots, 624 by immigrants who were not citizens when 
they registered to vote.'' And I am sure Ms. Sanchez and all of 
us agree that, while we all want to earn as many votes as 
possible, we only want votes that are legally cast by American 
citizens.
    I am glad to see that the bills introduced by 
Representative Emanuel and Senator Obama to prevent voting 
fraud provide for stiff penalties, up to 5 years in jail, for 
illegal immigrants who vote illegally.
    Clearly, under the terms of H.R. 1281 and S. 453, a person 
who signed the voting registration form that states they are a 
citizen when they are not a citizen is a false statement. And 
when that person votes and negates the vote of legally voting 
citizens, then the illegal immigrant has denied the legal 
voters right to exercise their vote.
    Regarding the need for a photo ID requirement, one needs a 
photo ID to open a bank account or cash a check, drive a car or 
board a plane. Because a photo ID is so central to assimilation 
into American society, civil rights leader Andrew Young, the 
former U.N. ambassador and mayor of Atlanta, strongly supports 
a photo ID requirement.
    In Mexico, strict anti-fraud regulations and photo ID 
requirements in voting have actually increased voter turnout. 
That is because when people have greater confidence in the 
election process, there is greater voter participation.
    Unfortunately, State and local election administrators do 
not have a means of ensuring that only legal voters are voting. 
So what is the most practical solution?
    In 2005, a prominent group of bipartisan leaders and 
scholars, led by former President Jimmy Carter and Secretary of 
State James Baker III, issued a very influential report.
    One of the chief recommendations of the bipartisan Carter-
Baker Commission on Voting was as follows: ``Instead of 
creating a new card, the commission recommends that States use 
real ID cards for voting purposes. The Real ID Act, signed into 
law in May 2005, requires States to verify each individual's 
full legal name, date of birth, address, Social Security number 
and U.S. citizenship before the individual is issued a driver's 
license or personal ID card.
    ``A real ID is a logical vehicle, because the National 
Voter Registration Act established a connection between 
obtaining a driver's license and registering to vote. The real 
ID card adds two critical elements for voting: proof of 
citizenship and verification by using the full Social Security 
number. The ID Act does not require that the card indicate 
citizenship, but that would need to be done if the card is to 
be used for voting purposes.''
    That is the end of their statement.
    Mr. Chairman, requiring photo IDs is not costless, of 
course, but it is well worth it. As Homeland Security Secretary 
Chertoff recently stated, ``It is a reasonable amount of money 
that people should pay to prevent people from getting on 
airplanes or getting in buildings and killing Americans. I 
think most people would say that $20 per person well spent.''
    And as the Carter-Baker report concluded, ``Voters in 
nearly 100 democracies use a photo identification card without 
fear of infringement of their rights.'' If they can do it, so 
can we.
    Mr. Chairman, like you, I look forward to hearing from our 
witnesses today, and I yield back the balance of my time.
    Mr. Conyers. Thank you so much, Mr. Smith.
    All other opening statements will be included in the 
record, without objection.
    Our second panel that will come after our first will 
consist of Ralph Neas of the People for the American Way; Donna 
Brazile, adjunct professor at Georgetown University; Wall 
Street Journal Columnist John Fund; Ms. Eve Sandberg, associate 
professor of Politics of Oberlin College.
    Our first panel will consist of our distinguished junior 
Senator from Illinois, Barack Obama, who has worked in public 
service, started out as a community organizer, civil rights 
attorney, State senate leader.
    Our second is a former colleague, now Senator, Ben Cardin, 
a Member of the Senate Judiciary Committee, who has been a 
national leader on health care, retirement, security and many 
other issues. We are delighted that our two Members from the 
other body can join us.
    Then we have Loretta Sanchez of California, known for her 
work on education, public safety and crime reduction, a very 
articulate spokeswoman for the Hispanic-American community and 
in the Congress as well.
    Then we have Rahm Emanuel of Illinois, a former White House 
official, former Chair of the Democratic Congressional Campaign 
Committee and who currently serves as Chairman of the House 
Democratic Caucus.
    Next is our own colleague on the Judiciary Committee, Steve 
King, of Iowa. Thank you for joining us.
    And, finally, we have Brian Bilbray of California, whose 
Committee assignments include Oversight and the Government 
Reform Committee.
    Ladies and gentlemen, we welcome you all.
    And we would invite Senator Obama to begin our discussion. 
Welcome to the Judiciary Committee.

           TESTIMONY OF THE HONORABLE BARACK OBAMA, 
           A U.S. SENATOR FROM THE STATE OF ILLINOIS

    Mr. Obama. Thank you very much, Mr. Chairman, to Ranking 
Member Smith and all the Members of the Committee. Thank you 
for taking the time to study this issue, and thanks for giving 
me the opportunity to be here today.
    I was pleased to introduce the Deceptive Practices and 
Voter Intimidation Prevention Act in the Senate, along with my 
colleague, Senator Chuck Schumer, Senator Cardin, who is beside 
me today, and others, such as Senator Kennedy and Chairman of 
the Senate Judiciary Committee, Patrick Leahy.
    I am honored that my colleague here in the House include 
yourself, Mr. Chairman, Congressman Emanuel, Congressman 
Becerra, Honda and Ellison, as well as Sanchez, introducing the 
companion legislation last week.
    It is hard to imagine that we even need a bill like this. I 
think most Americans assume that voting is a sacred aspect of 
citizenship and people are going to meddle with it, that we are 
past that point. Unfortunately, there are people who will stop 
at nothing to try to defeat voters and keep them away from the 
polls. What is worse, these practices often exploit and target 
the most vulnerable populations: minorities, the disabled, 
seniors or the poor.
    We saw countless examples of this in the past election. 
Some of us remember the thousands of Latino voters in Orange 
County, California who received letters warning them in Spanish 
that, ``If you are an immigrant, voting in a Federal election 
is a crime that can result in incarceration.'' Or the voters in 
Maryland who received a ``Democratic sample ballot,'' featuring 
a Republican candidate for governor and a Republican candidate 
for U.S. Senator. Or the voters in Virginia who received calls 
from a so-called ``Virginia Elections Commission'' informing 
them falsely that they were ineligible to vote. Or the voters 
who were told that they couldn't vote if they had family 
members who had been convicted of a crime. The list goes on.
    Of course, these so-called warnings have no basis in fact 
and are made with only one goal in mind: to keep Americans away 
from the polls. We see these problems year after year and 
election after election, and my hope is that this bill will 
finally stop these practices in time for the next election.
    The Deceptive Practices and Voter Intimidation Prevention 
Act makes voter intimidation and deception punishable by law, 
and it contains strong penalties so that people who commit 
these crimes suffer more than just a slap on the wrist.
    The bill also seeks to address the real harm of these 
crimes, people who are prevented from voting by misinformation, 
by establishing a process for reaching out to those misinformed 
voters with accurate information so they can still cast their 
vote in time.
    There are some issues in this country that are inherently 
difficult and political. Making sure that every American who is 
eligible can cast a ballot should not be one of them. There is 
no place for politics in this debate, no room for those who 
feel that they can get a partisan advantage by keeping people 
away from the polls.
    And I think that it is fairly noted that this is not 
something that restricts itself to one party or another. I 
think both parties at different periods in our history have 
been guilty in different regions of preventing people from 
voting for a tactical advantage. We should be beyond that.
    As the New York Times stated in its January 31st editorial 
on this issue, ``The bill is an important step toward making 
elections more honest and fair. There is no reason it should 
not be passed by Congress, unanimously.'' I asked that this 
editorial be placed into the record.
    Mr. Conyers. Without objection, so ordered.
    Mr. Obama. It is time to get this done in a bipartisan 
fashion, and I believe this bill can make it happen.
    I look forward to working with you, Mr. Chairman, the 
Ranking Member, the other Members of this Committee, as well as 
many of the co-sponsors of this bill in both the House and the 
Senate to pass this legislation so that we can present it to 
the president for his signature, and I thank you very much for 
your time and attention.
    I apologize, I will probably have to leave before all the 
other witnesses have completed their testimony. If there were 
specific questions for me, I would be happy to field them at 
this time.
    [The prepared statement of Mr. Obama follows:]
           Prepared Statement of the Honorable Barack Obama, 
               a U.S. Senator from the State of Illinois
    Chairman Conyers, distinguished members of the Committee, thank you 
so much for the opportunity to be here today and discuss with you 
legislation that will help restore integrity to our electoral system.
    I was pleased to introduce the Deceptive Practices and Voter 
Intimidation Prevention Act in the Senate and I am honored that my 
colleagues in the House, including Chairman Conyers, Congressman 
Emanuel, Congressmen Becerra, Honda, and Ellison, introduced companion 
legislation last week.
    It's hard to imagine that we even need a bill like this. But, 
unfortunately, there are people who will stop at nothing to try to 
deceive voters and keep them away from the polls. What's worse, these 
practices often target and exploit vulnerable populations, such as 
minorities, the disabled, or the poor.
    We saw countless examples in this past election. Some of us 
remember the thousands of Latino voters in Orange County, California, 
who received letters warning them in Spanish that, ``if you are an 
immigrant, voting in a federal election is a crime that can result in 
incarceration.''
    Or the voters in Maryland who received a ``democratic sample 
ballot'' featuring a Republican candidate for Governor and a Republican 
candidate for U.S. Senator.
    Or the voters in Virginia who received calls from a so-called 
``Virginia Elections Commission'' informing them--falsely--that they 
were ineligible to vote.
    Or the voters who were told that they couldn't vote if they had 
family members who had been convicted of a crime.
    Of course, these so-called warnings have no basis in fact, and are 
made with only one goal in mind--to keep Americans away from the polls. 
We see these problems year after year and election and after election, 
and my hope is that this bill will finally stop these practices in time 
for the next election.
    The Deceptive Practices and Voter Intimidation Prevention Act makes 
voter intimidation and deception punishable by law, and it contains 
strong penalties so that people who commit these crimes suffer more 
than just a slap on the wrist. The bill also seeks to address the real 
harm of these crimes--people who are prevented from voting by 
misinformation--by establishing a process for reaching out to these 
misinformed voters with accurate information so they can cast their 
votes in time.
    There are some issues in this country that are inherently difficult 
and political. Making sure that every American can cast a ballot 
shouldn't be one of them. There is no place for politics in this 
debate--no room for those who feel that they can gain a partisan 
advantage by keeping people away from the polls.
    As the New York Times stated in its January 31st editorial on this 
issue, ``the bill . . . is an important step toward making elections 
more honest and fair. There is no reason it should not be passed by 
Congress unanimously.'' I would ask that this editorial be made part of 
the record.
    It's time to get this done in a bipartisan fashion, and I believe 
this bill can make it happen. I look forward to working with you, 
Chairman Conyers, and the other members of the Committee, as well as 
the many co-sponsors of this bill, to pass this legislation this 
Congress.
                               __________

                               ATTACHMENT

New York Times
January 31, 2007
EDITORIAL
Honesty in Elections
    On Election Day last fall in Maryland, fliers were handed out in 
black neighborhoods with the heading ``Democratic Sample Ballot'' and 
photos of black Democratic leaders--and boxes checked off beside the 
names of the Republican candidates for senator and governor. They were 
a blatant attempt to fool black voters into thinking the Republican 
candidates were endorsed by black Democrats. In Orange County, Calif., 
14,000 Latino voters got letters in Spanish saying it was a crime for 
immigrants to vote in a federal election. It didn't say that immigrants 
who are citizens have the right to vote.
    Dirty tricks like these turn up every election season, in large 
part because they are so rarely punished. But two Democratic senators, 
Barack Obama of Illinois and Charles Schumer of New York, are 
introducing a bill today that would make deceiving or intimidating 
voters a federal crime with substantial penalties.
    The bill aims at some of the most commonly used deceptive political 
tactics. It makes it a crime to knowingly tell voters the wrong day for 
an election. There have been numerous reports of organized efforts to 
use telephones, leaflets or posters to tell voters, especially in 
minority areas, not to vote on Election Day because voting has been 
postponed.
    The bill would also criminalize making false claims to voters about 
who has endorsed a candidate, or wrongly telling people--like 
immigrants who are registered voters in Orange County--that they cannot 
vote.
    Along with defining these crimes and providing penalties of up to 
five years' imprisonment, the bill would require the Justice Department 
to counteract deceptive election information that has been put out, and 
to report to Congress after each election on what deceptive practices 
occurred and what the Justice Department did about them.
    The bill would also allow individuals to go to court to stop 
deceptive practices while they are happening. That is important, given 
how uninterested the current Justice Department has proved to be in 
cracking down on election-season dirty tricks.
    The bill is careful to avoid infringing on First Amendment rights, 
and that is the right course. But in steering clear of regulating 
speech, it is not clear how effective the measure would be in 
addressing one of the worst dirty tricks of last fall's election: a 
particular kind of deceptive ``robocall'' that was used against 
Democratic Congressional candidates. These calls, paid for by the 
Republicans, sounded as if they had come from the Democrat; when a 
recipient hung up, the call was repeated over and over. The intent was 
clearly to annoy the recipients so they would not vote for the 
Democrat.
    While there are already laws that can be used against this sort of 
deceptive telephone harassment, a more specific bill aimed directly at 
these calls is needed. But the bill being introduced today is an 
important step toward making elections more honest and fair. There is 
no reason it should not be passed by Congress unanimously.

    Mr. Conyers. Well, Senator Obama, we thank you for your 
commitment and your support of the legislation. We are happy 
that you will be with us for as long as you can.
    I now recognize the junior Senator from Maryland, Ben 
Cardin.

          TESTIMONY OF THE HONORABLE BENJAMIN CARDIN, 
           A U.S. SENATOR FROM THE STATE OF MARYLAND

    Mr. Cardin. Mr. Chairman, thank you very much. Mr. Smith 
and Members of the Committee, it is a real pleasure to testify 
before the Committee that I started my congressional service 
on.
    When I was first elected to the House of Representatives, I 
had the honor of serving on the Judiciary Committee, and now I 
have the honor of serving on the Judiciary Committee in the 
Senate, and I look forward to working with you.
    I would ask that my entire statement be made part of your 
record, and let me just try to summarize.
    I want to thank you for holding this hearing on protecting 
the right to vote.
    Mr. Chairman, I couldn't agree more with your opening 
statement. We have just celebrated the 42nd anniversary of the 
voting rights march in Selma, Alabama. John Lewis, of course, 
participated in that, our colleague here. It helped to pass the 
Voting Rights Act, 137 years since the ratification of the 15th 
amendment to the Constitution.
    We have overcome poll taxes, we have overcome literacy 
tests and violence, and yet intimidation against minority 
voters still continues in the United States, and we need to do 
more about it.
    I want to thank Senator Obama for taking the leadership in 
the United States Senate on the Deceptive Practices and Voter 
Intimidation Prevention Act of 2007. I think it is an extremely 
important point of legislation to make it clear that we will 
not tolerate practices by campaigns to try to win an election 
by marginalizing minority voters.
    It happened in 2006 in my own State of Maryland. In that 
election, I had a hard fought primary election in which I was 
the Democratic nominee for the United States Senate. We then 
had an 8-week period between the primary and the general.
    During the course of that campaign, I knew it would be very 
competitive, I knew it would be aggressive, but I must tell 
you, Mr. Chairman, I was shocked by what I saw come out the day 
before the election itself. And if I might, I would like to 
show you, and ask to be part of the record, the pamphlet that 
was handed out, widely spread, in minority communities in 
Maryland.
    The pamphlet starts off by saying, ``Ehrlich-Steele 
Democrats Official Voter Guide.'' It then has the photographs 
of three prominent African-Americans in the State of Maryland, 
one being Kweisi Mfume, who was my primary opponent on the 
Democratic side, our former colleague in the Congress, who 
endorsed my candidacy for the United States Senate after the 
primary. It has the photograph of Jack Johnson, who is the 
county exec of Prince George's County, the largest county of 
African-American voters in the State of Maryland. Jack Johnson 
endorsed my candidacy for the United States Senate.
    The pamphlet then goes on to say, ``These are our 
choices,'' making it kind of clear that these three prominent 
African-Americans had endorsed the Ehrlich-Steele Democratic 
slate. The inside of the brochure says, ``Democratic sample 
ballot,'' giving the impression that this is the Democratic 
ballot. All of the candidates listed are Democrats, except for 
the governor of our State and the U.S. Senate, in which the 
Republican candidates are listed.
    The authority line on this literature is from the 
Republican candidate for governor and the Republican candidate 
for United States Senate.
    This literature was widely distributed. The U.S. Senate 
candidate and the gubernatorial candidate brought in from 
Pennsylvania from homeless shelters, by bus, large number of 
workers to work Election Day who had no idea what they were 
giving out. I had a chance to talk to some of them, and they 
were giving out this literature, some of them when they found 
out what it was about, wanted to get back home but had no way 
of getting back home.
    I mention all of this because this was a clear effort by 
the gubernatorial candidate and U.S. Senate candidate to try to 
confuse and marginalize minority voters, and it should not be 
allowed.
    The legislation introduced by Senator Obama, which I am 
proud to be a co-sponsor, would make this type of deceptive 
practice illegal. It is a narrowly defined bill. To make it 
clear, it is in compliance with the first amendment of the 
Constitution. It applies only to communications within 60 days 
of an election. It deals with the tightly defined false and 
deceptive information about the time, place, the voter 
qualification, party affiliation or endorsement. It is narrow, 
but it does deal with the most blatant forms of deceptive 
practices that are aimed at suppressing minority votes. That is 
its effort.
    Mr. Chairman, I knew the campaign for the United States 
Senate would be a rough campaign. I expected to see some things 
that go beyond the pale. That is all part of politics, and I 
accept that. But I think it is absolutely essential that we 
make it clear it is not acceptable to engage in a practice to 
marginalize minority voters. That should not be permitted in 
this country, and it is absolutely essential that the Congress 
go on record and make it clear that campaigns cannot 
participate in that type of conduct.
    And I urge you to consider this legislation. I think it is 
vitally important.
    I, again, thank Senator Obama for taking the leadership in 
the Senate.
    [The prepared statement of Senator Cardin follows:]
        Prepared Statement of the Honorable Benjamin L. Cardin, 
               a U.S. Senator from the State of Maryland
    Chairman Conyers, Ranking Member Smith, thank you for the 
opportunity to testify today before the House Judiciary Committee on 
the critical subject of election deception and irregularities in recent 
federal elections. I am privileged to appear before you with such a 
distinguished panel of members of Congress, including Senator Obama, 
Congresswoman Loretta Sanchez, and Congressman Emmanuel.
    In the interest of full disclosure, let me begin by stating that I 
greatly enjoyed my previous service on this committee which began when 
I was first elected to the House and was appointed to serve on the 
Judiciary Committee in 1987 under Chairman Peter Rodino of New Jersey. 
After serving twenty years in the House of Representatives representing 
the Third Congressional District of Maryland, I was honored to be 
elected to the United States Senate in 2006. And I find myself 
privileged to serve again on the Judiciary Committee of the other body, 
and I look forward to working with this committee in my new capacity.
    Today I come before the committee to testify in part as a fact 
witness to discuss what happened during the 2006 U.S. Senate election 
in Maryland.
    After a lengthy campaign which began shortly after the retirement 
announcement of former U.S. Senator Paul Sarbanes in the spring of 
2005, I was nominated by the Democratic Party in September 2006 as our 
U.S. Senate candidate. Former Lt. Governor Michael Steele was the 
Republican nominee for U.S. Senate. Former Baltimore Mayor Martin 
O'Malley was the Democratic candidate for Governor challenging the 
Republican incumbent Robert Ehrlich.
    Former Congressman Kweisi Mfume, who is a friend with whom I 
represented Baltimore City in the U.S. House of Representatives, ran 
against me for the Democratic nomination and lost. He subsequently 
endorsed me as the U.S. Senate nominee for the general election, as did 
Prince George's County Executive Jack Johnson. They both are prominent 
African-Americans leaders in Maryland and appeared at several campaign 
events on my behalf as I prepared to face off against Lt. Governor 
Steele in the November general election.
    Imagine my surprise then to discover on Election Day that the 
Republican campaigns for Governor and Senator in Maryland had 
distributed this literature. I would ask unanimous consent to have a 
copy of this literature inserted in the hearing record today.
    Let me take a minute to walk through it, since it is one of the 
tactics that would be prohibited under the pending legislation before 
this committee.
    The title of the piece is ``Ehrlich-Steele Democrats'' and 
``Official Voter Guide.'' The cover page prominently displays three 
African-American politicians: former Prince George's County Executive 
Wayne Curry, former Congressman Mfume, and current Prince George's 
County Executive Jack Johnson. Under their names is the statement 
``These are OUR choices,'' implying that all 3 gentlemen had endorsed 
Mr. Ehrlich for governor and Mr. Steele for senator. That is false. Mr. 
Mfume and Mr. Johnson endorsed my candidacy over Mr. Steele for the 
Senate. The flyer concludes with a citation to the general election, on 
Tuesday, November 7, 2006, and legal authority lines (required under 
Maryland election law) noting that the literature was ``paid and 
authorized'' by both the Ehrlich and Steele campaigns.
    On the inside a large sample ballot is printed with the title 
``Democratic Sample Ballot,'' with the correct date and times for the 
elections. The entire sample ballot endorses Democratic candidates for 
local, county, state, and federal offices, with two exceptions: the 
``Democratic Sample Ballot'' endorses the re-election of the Republican 
Governor Robert Ehrlich, and the election of Republican U.S. Senate 
candidate Michael Steele.
    Mr. Chairman, this type of deceptive literature is despicable and 
outrageous. It is clearly designed to mislead African-American voters, 
who have a legal right to vote and pick the candidate of their choice. 
I was also upset to learn, according to articles in the Washington Post 
and Baltimore Sun, that the Ehrlich and Steele campaigns had bused in 
homeless African-Americans individuals from Philadelphia to hand out 
this deceptive literature on Election Day. These individuals from 
Philadelphia were given $100 and two meals, but many told the 
newspapers that they were not aware they were working for the 
Republican Party on that day. Finally, the Washington Post reported 
that a Maryland Republican election worker guide for poll workers 
stated that their ``most important duty as a poll worker is to 
challenge people'' trying to vote. This election guide was rightfully 
denounced by civil rights groups as a voter suppression and 
intimidation effort.
    After having served in elective office in Annapolis for 20 years 
and in Washington for 20 years, I understand that campaigns are a rough 
and tumble business. I expect that candidates will question and 
criticize my record and judgment, and voters ultimately have a right to 
choose their candidate.
    What goes beyond the pale, Mr. Chairman, is when a campaign uses 
deceptive tactics to deliberately marginalize minority voters. Sadly, 
Mr. Chairman, the tactics we saw in Maryland are not new, and in 
previous years deceptive practices in Baltimore City, the State of 
Maryland, and throughout the United States involved handing out false 
and deceptive literature in African-American neighborhoods. In previous 
elections we have seen deceptive literature distributed which gave the 
wrong date for the election, the wrong times when polling places were 
open, and even suggested that people could be arrested if they had 
unpaid parking tickets or taxes and tried to vote. My colleagues on the 
panel, I am sure, will discuss other such tactics designed to suppress 
minority turnout.
    I reject that this is the way we do business in 2006 in Maryland 
and in the United States of America. To me this is clearly an organized 
pattern and practice of attempting to confuse minority voters and to 
suppress minority turnout.
    It has been 137 years since Congress and the states ratified the 
Fifteenth Amendment to the Constitution in 1870, which states that 
``the right of citizens of the United States to vote shall not be 
denied or abridged by the United States or by any State on account of 
race [or] color?'' The Amendment also gave Congress power to enforce 
the article by ``appropriate legislation.'' African-Americans suffered 
through nearly another 100 years of discrimination at the hands of Jim 
Crow laws and regulations, designed to make it difficult if not 
impossible for African-American to register to vote due to literacy 
tests, poll taxes, and outright harassment and violence. It took 
Congress and the states nearly another century until we adopted the 
Twenty-Fourth Amendment to the Constitution in 1964, which prohibited 
poll taxes or any tax on the right to vote. In 1965 Congress finally 
enacted the Voting Rights Act, which once and for all was supposed to 
prohibit discrimination against voters on the basis of race or color. 
The Act also provides that no person, ``whether acting under color of 
law or otherwise,'' shall:

        ``intimidate, threaten, coerce, or attempt to intimidate, 
        threaten, or coerce any other person for the purpose of 
        interfering with the right of such person to vote or to vote as 
        he may choose, or of causing such other person to vote for, or 
        not vote for, any candidate for [any federal office].'' [42 
        U.S.C. 1971 (b), emphasis supplied].

    Mr. Chairman, it is time for Congress to once again take action to 
stop the latest reprehensible tactics that are being used against 
African-American voters to interfere with (a) their right to vote or 
(b) their right to vote for the candidate of their choice, as protected 
in the Voting Rights Act. These tactics undermine and corrode our very 
democracy and threaten the very integrity of our electoral process.
    After being sworn in to the Senate in January, I was pleased to 
join with Senator Obama and Senator Schumer to introduce S. 453, the 
Deceptive Practices and Voter Intimidation Prevention Act of 2007. In 
sum the legislation provides that, within 60 days before a federal 
election, it shall be illegal to distribute false and deceptive 
information about an election regarding the time, place or manner of an 
election. The legislation also bans false and deceptive information 
about voter's qualifications or restrictions on voter eligibility, as 
well as false and deceptive information about political party 
affiliations or explicit endorsements of candidates.
    This legislation is narrowly tailored to apply to only a small 
category of communications that occur during the last 60 days before an 
election. Under our legislation the categories of the false and 
deceptive information cited above are only illegal if they are 
intentionally communicated by a person who: (1) knows such information 
to be false and (2) has the intent to prevent another person from 
exercising the right to vote in an election. This legislation properly 
respects the First Amendment's guarantee of freedom of speech while 
recognizing the power of Congress to prohibit racially discriminatory 
tactics to be used in elections under the Fifteenth Amendment, Voting 
Rights Act, and the general power of Congress under Article I, Section 
4 of the Constitution to regulate the ``times, places, and manner'' of 
federal elections.
    This legislation creates tough new criminal and civil penalties for 
those who create and distribute this type of false and deceptive 
literature. The bill authorizes a process to distribute accurate 
information to voters who have been exposed to false and deceptive 
communications. The bill requires the Attorney General to submit to 
Congress a report compiling and detailing any allegations of false and 
deceptive election communications, and authorizes the Attorney General 
to create a Voting Integrity Task Force to carry out this law. The 
Senate bill would also create a right of private right of action 
against the continued distribution of false and deceptive campaign 
literature and communications, in which a party could seek a temporary 
injunction, restraining order, or permanent injunction against 
materials.
    In the House I understand that similar legislation, H.R. 1281, has 
been filed by Congressman Emanuel with Chairman Conyers, and I applaud 
your efforts.
    Let me conclude by thanking the many civil rights groups who helped 
us with voter protection efforts on Election Day and who have helped us 
in supporting this legislation, including the NAACP, the Mexican-
American Legal Defense and Educational Fund, the Lawyer's Committee for 
Civil Rights Under Law, and People for the American Way.
    This past weekend was the 42 year anniversary of the voting rights 
march onto Edmund Pettus Bridge outside Selma, Alabama. Our own House 
colleague, Congressman John Lewis from Georgia, was savagely beaten and 
tear-gassed by police for peacefully marching and protesting on what we 
now call ``Bloody Sunday.'' He and so many others, including the Rev. 
Dr. Martin Luther King, Jr., ultimately led a peaceful march to 
Montgomery help their fellow citizens register to vote. Media coverage 
of the mistreatment of our own American citizens garnered worldwide 
attention, and led to the quick introduction by President Johnson in 
Congress of the proposed Voting Rights Act. Congress passed this 
historic act and President Johnson signed it into law less than five 
months after its introduction.
    Today we have the obligation and duty to fulfill the promises made 
by Congress and the states nearly 140 years after the end of the Civil 
War, and over 40 years after the enactment of the Voting Rights Act. I 
urge you to pass this legislation that would stop the use of false and 
deceptive practices designed to disenfranchise and suppress minority 
voter turnout. Let us make it crystal clear that it is illegal to use 
these types of campaign tactics to deliberately try to suppress and 
intimidate minority voters from casting their hard-won and precious 
right to vote in an election.
    Thank you for the opportunity to testify today, and I look forward 
to your questions.

                               ATTACHMENT
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Conyers. Thank you very much.
    Before you leave, Senator Obama, there is a question from 
our distinguished friend from Virginia, Mr. Goodlatte, and we 
have agreed with Mr. Smith that his side will have 15 minutes 
to question this distinguished panel, and we will have 15 
minutes, but we will allow him to get his question in before 
you leave.
    Mr. Goodlatte. Well, Mr. Chairman, I thank you very much 
for taking this out of order.
    And, Senator, I thank you also for staying after your 
testimony.
    Mr. Obama. No, not a problem. Thank you.
    Mr. Goodlatte. You stated in your testimony, which I 
welcome, that you introduced your legislation to help restore 
integrity to our electoral system. You said, I think, in your 
opening remarks that there are some things that are political; 
making sure that every American who is eligible to cast a 
ballot should not be one of them.
    Mr. Obama. Yes.
    Mr. Goodlatte. We are going to hear later from witnesses 
who talk about the importance of not allowing illegal aliens 
and non-citizens to vote in Federal elections So would you 
agree that that would be an important priority for your 
legislation?
    Mr. Obama. I think that as a general--look, one of the 
principles of any voting system is that people who are eligible 
to vote get to vote. If you are not eligible, by definition, 
you don't get to vote. If my 8-year-old daughter shows up at 
the polls, I hope somebody says, ``Young lady, you are going to 
have to wait for 10 years before you can cast your ballot.''
    So I have no quarrel with efforts to make sure that voter 
fraud does not take place.
    Mr. Goodlatte. Excellent.
    Mr. Obama. Just to finish, the only thing I do want to 
point out, because I know you will be debating the issue of 
photo ID and whether that becomes incorporated in this bill or 
amended to this bill, my concern, having looked at the 
literature in terms of how that works, is that it may end up 
disadvantaging certain groups that are less likely, as a 
routine matter, to obtain a photo ID.
    And although minority groups may be somewhat in that 
category, I should just point out that seniors are one of the 
groups that are most likely to be in that category.
    And I know that in Georgia where a photo ID requirement was 
instituted, there was some concern that, for example, there was 
no access to an office to get the official photo ID in Atlanta, 
and so people had to drive from Atlanta. I don't remember which 
one it was, but the point was that there were long travel times 
and great difficulty in order of obtaining it.
    So, in theory, I think we are all in agreement that we want 
to establish eligibility. We want to make sure that it is not 
set up in such a way where it is exclusionary or creates extra 
difficulties for some populations and not others.
    Mr. Goodlatte. Actually, I wanted to ask you about your 
legislation----
    Mr. Obama. Sure.
    Mr. Goodlatte [continuing]. With regard to photo IDs. 
Certainly, I hope we do move in the direction of doing that, 
but I also hope that as we do it we make it very easy and 
affordable for people of lower economic means or have less 
access to places to get the photo ID.
    But let me ask you, your legislation appears to help with 
the problem that I mentioned, because, specifically, it 
prohibits a person from communicating false election-related 
information, including information regarding a voter's 
registration status or eligibility when that person knows the 
information to be false and has the intent to prevent another 
person from exercising the right to vote in an election 
described in the subparagraph.
    Mr. Obama. That is correct.
    Mr. Goodlatte. So is my reading correct that your bill 
would impose the penalties of up to 5 years in prison on 
illegal aliens and non-citizens filling out voter registration 
cards when those cards state that the applicant is a United 
States citizen?
    Mr. Obama. Not likely, I don't think so. That I think would 
be a stretch. The interpretation here would be if there was--if 
I called your house and said, ``You know what, the election has 
been moved to Wednesday instead of Tuesday,'' or send a mailer 
indicating that your polling place had been moved when it had 
not bee, those are the practices that we are directed towards.
    We are not intending in this legislation, and it is not 
drafted in that way, to set up a situation where we are 
creating a felony for somebody thinks they may be eligible to 
vote, an individual, and turns out that maybe they weren't 
eligible. Because those circumstances could happen in all sorts 
of conditions.
    Mr. Goodlatte. Well, thank you. I would just think that the 
intent to vote would be sufficient to show that a non-citizen 
at least has knowledge that his vote would cancel out a 
legitimate U.S. citizen's vote, thus preventing another person 
from exercising their right to vote in an election, which your 
bill----
    Mr. Obama. Well, I don't think it would prevent anybody 
under the scenario that you spoke about, but I appreciate that 
question so that we can make doubly sure that we are clear in 
this legislation that that is not the intent.
    Mr. Goodlatte. Well, I would hope it would be, but I thank 
the gentleman, and I thank the Chairman for yielding the time.
    Mr. Obama. Thank you very much.
    Mr. Conyers. Thank you very much.
    I now recognize Loretta Sanchez, famous sister of Linda 
Sanchez.

TESTIMONY OF THE HONORABLE LORETTA SANCHEZ, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Sanchez. Thank you, Mr. Chairman and the Ranking Member 
and the rest of the Committee Members. It is indeed an honor to 
be before you today to discuss a little bit about elections 
here, although I know you all are experts in that.
    Before I begin, and before Mr. Smith leaves the room, I 
would like to make a correction to one of his remarks in his 
opening statement. He said that in my election, in 1996, the 
Congress or a paper out of the Congress had determined that 
there might be 748 improper ballots cast in my election. I 
would just like to note that that was the majority's report 
without any access to the files or information, whatsoever, by 
any Democrat or any of the Democratic staff on that Committee 
and that task force, which means that unless you are willing to 
show it to me today, I am not willing to believe you.
    Anyway, getting back to what happened just this past 
election, in this past election, there was a letter that was 
sent in our election. I didn't even know it really had 
reference to my election until my opponent fessed up that it 
came out of his campaign headquarters.
    And the reason I would not have known is that the 
letterhead of this letter that came out stated that it was from 
the California Coalition for Immigration Reform, or people who 
are pretty much anti-immigrant and very, very straightforward 
about it, very vocal about it, and if you know anything about 
Orange County, you will also note that aside from these types 
of anti-immigrant groups, we also were the creators of the 
Minutemen and other types of groups.
    So imagine this letter was sent to 14,000 registered 
voters, many who had been registered sometimes for over 20 
years, all of whom had indicated on their affidavit of 
registration that they were born in a Latin American country, 
Central American country or Mexico--only Hispanics.
    Now, these people had been naturalized, some for many 
years. So imagine when you receive a letter from one of these 
anti-immigrant groups and it goes on to say several things: 
``Be advised that if your residence in the United States is 
illegal or if you are an immigrant,'' which all of these 
people, by definition, because this is what they looked on to 
get this list, were, ``voting in a Federal election is a crime 
that can result in incarceration and possible deportation for 
voting.''
    So it was, in fact, a voter suppression, a voting 
suppression letter.
    What is very troubling is the next line: ``In the same way, 
be advised that the U.S. government is installing a new 
computerized system to verify names of all the newly registered 
voters who participate in the elections in October and 
November.'' Just this election, mind you. ``And organizations 
against immigration will be able to request your information 
from this new computerized system.'' So intimidation was there, 
that if you showed up to vote, your name would be available to 
people like the Minutemen.
    This letter, by the way, was sent in Spanish. It was 
actually sent to only voters in the districts where I 
represent. When we first started seeing it walk into our 
offices, we didn't know it was about our election. It could 
have been about a city election, and we would have never known 
it was about our election except that our opponent, again, did 
a press conference to say it had come out of his office.
    I have seen many things in Orange County. We have had 
people, the Republican Party, hire and dress people like INS 
agents at Latino precincts and turn away people from voting. 
That was in 1988. But I would have thought that after 10 years 
of representing Orange County that these types of intimidation 
and suppression would have gone away, and, unfortunately, they 
haven't.
    And I would just like to say that I believe that H.R. 1281 
will strengthen the prohibition and punishment of deceptive 
practices that aim to keep voters away from polls on Election 
Day.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Sanchez follows:]
 Prepared Statement of the Honorable Loretta Sanchez, a Representative 
                in Congress from the State of California
    CHAIRMAN CONYERS, RANKING MEMBER SMITH AND DISTINGUISHED COMMITTEE 
MEMBERS.
    It is with great pleasure that I appear before you today to discuss 
voter intimidation and modern day violations of the Voting Rights Act.
    Finding a solution to this problem is very close to my heart.
    When most people think of Voting Rights Act violations they think 
of the 1960s when African Americans were prevented from voting because 
of the color of their skin. Many don't realize that voter suppression 
still occurs today.
    And the targets remain the same. This last election, minority and 
immigrant communities were targets of deception, misinformation and 
voter intimidation designed to abridge their right to vote.
    Constituents in my district, the 47th Congressional District of 
California, were similarly affected this last November.
    Concerns were expressed to my office in Garden Grove, California, 
when residents received a written letter, in Spanish, from the 
``California Coalition for Immigration Reform'' informing voters that 
immigrants voting in a federal election were committing a crime ``that 
could result in incarceration and possible deportation . . .''.
    Its also went on to advise voters that ``the U.S. government is 
installing a new computerized system to verify names of all the newly 
registered voters who participate in the elections in October and 
November. Organizations against immigration will be able to request 
information from this new computerized system.''
    This letter was sent to about 14,000 registered Hispanic voters. 
Let me repeat that . . . REGISTERED LEGAL VOTERS.
    These are people who are immigrants and have naturalized in this 
country; many have been citizens for over 20 years.
    The letter quickly ignited fear in the Hispanic community.
    Families were afraid that their personal information would be 
shared with anti-immigration groups if they voted. They were afraid of 
retaliation for casting their vote.
    In response, I joined civil rights and Latino organizations in 
calling for an immediate investigation by the Federal Bureau of 
Investigations for potential Voting Rights Act violations by the 
organizations and individuals associated with the distribution of the 
letter.
    The State of California, at the initiative of Attorney General Bill 
Lockyear, and under the direction of Secretary of State, Mr. Bruce 
McPherson, issued a letter on October 24, 2006 to the 14,000 registered 
voters who received the voter intimidation letter, informing them of 
their voting rights and that the letter was false and misleading.
    Unfortunately this is not the only attempt to suppress minority 
voting in Orange County. In 1994, poll guards were hired by candidates 
and stationed at voting precincts, with high Latino concentrations, to 
intimidate voters, harassing them for identification and the like.
    During my first campaign in 1996, my opponent ran explicitly anti-
Latino rhetoric in automatic ``robo-calls'', and used other tactics to 
harass Latino voters in Central Orange County.
    Today you'll hear similar testimony of other instances where there 
was voter intimidation and deception.
    This problem is not going away, and the government needs to do 
something about it.
    I am pleased that the State of California has taken steps, for 
instance, to enact stricter penalties for Voting Rights Act violations.
    Now the U.S. federal government must take the lead in protecting 
the rights of voters and putting an end to deceptive practices.
    Revisiting and reforming the voting rights laws will send a clear 
message to potential violators that deceptive practices are 
unacceptable and will be prosecuted to the full extend of the law.
    I am pleased to see that the Senate has introduced the Deceptive 
Practices and Voter Intimidation Prevention Act, (S.453) and now the 
House is following suit. I am a proud original cosponsor of the bill 
that was introduced by Representative Rahm Emanuel and the 
distinguished Chairman of this Committee.
    H.R. 1281 will strengthen the prohibition and punishment of 
deceptive practices that aim to keep voters away from the polls on 
Election Day.
    Centrally, the Emanuel/Conyers bill would increase both monetary 
and criminal penalties and would direct the Attorney General to take 
swift action against complaints and disseminate corrective election 
information after an incident occurs.
    It would also require the Attorney General, after each federal 
election, to report to Congress on the allegations of deceptive 
practices and actions taken to correct them.
    I urge my colleagues to support this legislation which will go a 
long way in preventing future acts of voter intimidation.
    We must do EVERYTHING to protect the cornerstone of our democracy; 
the right of our citizens to vote.

    Mr. Conyers. Just in time, Ms. Sanchez, and I thank you 
very much.
    I am very pleased now to welcome Mr. Rahm Emanuel, whose 
work in helping get out the vote and encourage the vote is 
well-known across the country. Welcome to the Committee.

 TESTIMONY OF THE HONORABLE RAHM EMANUEL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Emanuel. Thank you, Mr. Chairman. A number of my 
colleagues have spoken to the legislation. You obviously did it 
in your introduction. I also want to thank Mr. Smith. I want to 
thank you for having this hearing, Congressman Smith and 
Chairman Conyers.
    I would make two or three quick points and then leave time 
for my colleagues and enough time for them as well.
    One is, although in your introduction you spoke eloquently 
about the Voting Rights Act from 1965 and having just returned 
from the trip that John Lewis put together for everybody down 
in Selma and bringing my 10-year-old for his birthday gift to 
have that trip with John Lewis, at that point--and this may be 
the abbreviated history I received, having read it, although 
hearing it from Congressman Lewis, our colleague--at that 
point, the State was involved in intimidation.
    What we are talking about here, although we did exactly the 
right thing as a country by passing the Voting Rights Act, here 
it is where parties and the campaigns have taken on the role of 
intimidation. That baton has passed down to State parties and 
candidates. The State has backed away from that role because of 
the Voting Rights Act, but the role of intimidation continues 
and others have adopted it.
    Second, in every process, and we have been through the 
campaigns, et cetera, there is a recourse if a TV ad falsely 
accuses an opponent--I have exercised it, Senator Schumer 
exercised it, Congressman Reynolds exercised it, Senator Dole 
has exercised it--through the parties to appeal to the TV 
stations to take that ad down. Sometimes you win, sometimes you 
lose but there is a recourse.
    If in fact, and there is a great, if I can, recommend, if 
not, I will also then submit into the record, a Sunday front-
page story in the Boston Globe that looked back on all the ads 
that were pulled down, and if I could, I would like to submit 
that into the record.
    Mr. Conyers. We will include it in the record.
    Mr. Emanuel. There is no recourse for a false pamphlet, for 
a false phone call. There is no recourse.
    This raises the penalty for knowingly deceiving a person 
who wants to vote when they say there is a changed location for 
your voting booth, that you can't vote unless you do X, Y and 
Z. This raises the penalty and has a place of recourse so there 
is a consequence in the same way that during a campaign if 
somebody runs a false ad, a party, on behalf of a candidate, 
can have a recourse to that TV station, have the TV station 
waive that.
    This attempts to make people before they do something, 
whether it is a 3 o'clock in the morning phone call, whether it 
is literature that Ben, our colleague now in the Senate, showed 
that it had out there, or all the other literature that has 
been passed out in mainly minority communities but not limited 
to that, telling people that their voting place has been 
changed or the requirements of what they need informationally 
to vote has been altered, this raises the stakes to doing that 
and will hopefully have the consequence of actually making 
folks' campaigns or parties pull back.
    Now, we are all taking the action here that is within our 
purview, which is to deal with making sure that intimidation 
does not stop people from exercising their rights, that is to 
vote.
    There are two other pieces to this. One of them is leaders 
and elected officials that inspire people to come out and vote 
and our citizens who take their responsibility and their right 
seriously and do it. We are only dealing with one of the three 
today, an important piece of it, but the other two play a very 
significant role in increasing the turnout and participation in 
a democratic process.
    Mr. Chairman, I want to thank you again for holding this, 
and I want to apologize because I have to go to another hearing 
to ask a question on the AMT tax, which I know holds fair to 
all our colleagues.
    Thank you.
    [The prepared statement of Mr. Emanuel follows:]
 Prepared Statement of the Honorable Rahm Emanuel, a Representative in 
                  Congress from the State of Illinois
    Mr. Chairman, thank you for the opportunity to testify before the 
Committee today on election deception and voting irregularities. I am 
honored to have worked with your office, Senator Obama, and several 
other members of this committee on drafting Deceptive Practices and 
Voter Intimidation Act of 2007, and I hope that we can move forward 
quickly on this legislation to protect the right to vote.
    Honestly, I would prefer if we did not have to have this hearing 
today. Unfortunately, though, the last election and others before it 
have seen repeated instances of campaigning tactics that go beyond 
political competitiveness.
    We have seen repeated phone calls at three in the morning with 
blatant misinformation on a candidate's background; we have seen flyers 
posted in minority communities lying about the date of the election; we 
have seen letters sent to legal immigrants threatening them with arrest 
for trying to vote because they were born outside of this country. We 
have seen far too many examples of these abuses, and it is time to put 
an end to these deceptive practices.
    I served as Chairman of the Democratic Congressional Campaign 
Committee during the last election cycle. My job was to elect 
Democratic candidates to Congress, and I had a firsthand look at the 
day-to-day of many campaigns. In my role, I saw the specifics of 
misleading robo-calls, malicious flyers, and misinformation campaigns 
designed to keep certain groups of voters away from the polls on 
Election Day. That is why I am committed to making sure that future 
campaigns are not decided by false information and intimidation that 
keep Americans from voting when and how they want.
    I look forward to passage and implementation of the Deceptive 
Practices and Voter Intimidation Act to prevent repeat occurrences of 
some of the tactics that hinder voter turnout. I want to thank Chairman 
Conyers, Congressman Holt, Congressman Becerra, Congressman Honda, and 
Congressman Ellison for serving as lead co-sponsors of this important 
legislation. I would also like to thank Mr. Nadler, Mr. Scott, Ms. 
Jackson Lee, Ms. Waters, Mr. Delahunt, Mr. Cohen, Mr. Johnson, and Mr. 
Davis of this committee for signing on as original co-sponsors of the 
bill.
    I am proud to have introduced the Deceptive Practices and Voter 
Intimidation Act last week, and again, I want to thank you, Chairman 
Conyers, for inviting me to participate in this forum and for leading 
the charge on addressing this problem. I look forward to continuing to 
work with you, Senator Obama, and the rest of this panel as we seek to 
ensure that each American is able to vote free from intimidation and 
misinformation.

                               ATTACHMENT
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Conyers. Thanks so much, Congressman Emanuel. We 
appreciate your presence and your support of the legislation.
    I am now happy to recognize an outstanding Member of the 
Judiciary Committee. Mr. King has worked with us in a 
bipartisan fashion across the years, and I would like now to 
acknowledge him.

  TESTIMONY OF THE HONORABLE STEVE KING, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IOWA

    Mr. King. Thank you, Mr. Chairman. I am privileged to be 
recognized by you and also Ranking Member Smith to testify 
before this Committee, as opposed to being seated upon it.
    And I am going to take this to a little bit different tact 
here in this discussion that we have had and focus on some 
facts that currently you have numbers between 8 million and 14 
million illegal aliens in the United States who are of voting 
age. That is a level of exposure. There are approximately 23 
million legal non-citizens that still live in the United States 
in addition to that 8 million to 14 million illegals who are of 
voting age.
    But beyond requiring applicants to sign a pledge on a voter 
registration form affirming that they are U.S. citizens, there 
are no restraints to prevent the Nation's illegal aliens and 
lawfully present non-citizens from casting ballots in our 
local, State and Federal elections.
    There are a number of tactics that are being employed by 
illegal aliens and non-citizens to fraudulently vote in Federal 
elections. One is to obtain a State driver's license. A lot of 
States purposely or inadvertently allow illegal aliens to 
receive a driver's license, but under the motor voter law, the 
National Voter Registration Act of 1993, information provided 
by the applicant for a driver's license may also be used for 
voter registration unless--and this is an important point--
unless the applicant specifically indicates that he or she did 
not want to be registered to vote.
    That is an encouragement for a non-citizen, whether they 
are legal or illegal, to register to vote, and they may not 
understand the language; they may just simply be complying with 
the bureaucracy, register to vote and find themselves in 
violation of Federal law, but it is hard to find anybody that 
will check. There are large numbers of non-citizens and illegal 
aliens that are on those kinds of lists.
    But to preserve the integrity of the election process, 
Congress enacted the Illegal Immigration Reform and Immigrant 
Responsibility Act of 1996, a bill that Mr. Smith was well-
involved in. It made it a Federal crime for non-citizens to 
vote in a Federal election and also for non-citizens who 
knowingly voted illegally to be deported. Non-citizens who 
fraudulently claim to be U.S. citizens could also be in 
violation of the act. So that tightened some things up in 1996, 
but despite the penalties that are there, there are frequent 
substantiated reports of illegal aliens and non-citizens taking 
part in elections.
    One of the reports is a well-known one that we discussed 
earlier here that Ms. Sanchez responded to with regard to Mr. 
Smith's numbers, and I will say that my research comes up with 
the same numbers, 984 vote difference, and the investigation 
revealed that there may be as many as--I will say found 
evidence that there were 748 improper ballots--624 by 
individuals who were non-citizens. But the ruling was even 
though 83 percent of the improper ballots were by non-citizens, 
there wasn't enough to change the results of the election and 
the House Oversight Committee found that it would not affect 
the results of the election, so there was no recommended 
change.
    I think that was good action by this Congress to recognize 
the flaw in the system but didn't seek to get a political gain 
by adjusting to that flaw. So I will say that the Oversight 
Committee had congressional findings there of the highest 
integrity, as did Mr. Smith of Texas.
    And there are also issues within the State of Utah where 
they found 58,000 illegal aliens had fraudulently obtained 
driver's licenses. Of those, at least 383 were registered to 
vote, presumably by motor voter. I narrowed some of that down, 
took a sample of 135 of these individuals and discovered that 
five were naturalized citizens, 20 were ``deportable'' by their 
measure, one is a permanent legal resident and 109 had no 
record and were assumed to be in the United States illegally. 
But at least 14 had voted in a recent election, and we know 
that people move, so that makes it an even more significant 
number.
    North Carolina ICE agents identified at least four similar 
cases there, and so there is a very simple solution to this and 
that is to provide a photo ID. We have talked about the Real ID 
Act that addresses this, Mr. Chairman and Committee, and the 
Real ID Act does a number of things that are really effective. 
It requires a photo ID and it requires a Social Security number 
to be attached to that, and then we can attach the condition of 
citizenship to Real ID as well. Those three things there would 
do more to prevent fraudulent voting than anything else that I 
can think of.
    But as I look across the spectrum of these issues, and I 
will tell you that I sat in the chair for 37 days in the 2000 
election tracing the Internet and my Dish TV and my telephones 
and I found out a lot about election fraud in this country, 
much of which I have not addressed in my testimony today. But I 
believe we need to adopt a Real ID Act for voter registration. 
We need to also have an integrated voter registration list that 
eliminates the duplicates, the deceased and where the applies 
to the felons.
    And I would point out that there are certain States that 
prohibit the electoral workers from challenging a prospective 
voter, even when they know that prospective voter is not the 
person that they represent themselves to be.
    So, for example, if I were an electoral board worker in a 
State like New Mexico, for example, and my name being Steve 
King and I have gone in there to work and decided that when my 
shift is over then I will vote, if someone comes in and 
presents themselves as Steve King, I have to let them vote even 
though I am the individual that is registered on that voter 
registration list. There are those kinds of prohibitions that 
are in place that are designed to keep from intimidating voters 
that disenfranchise real citizens that really have the right to 
vote.
    And I would conclude with that.
    And thank you, Mr. Chairman. I yield back the 2 seconds of 
my time.
    [The prepared statement of Mr. King follows:]
  Prepared Statement of the Honorable Steve King, a Representative in 
Congress from the State of Iowa, and Member, Committee on the Judiciary
    Thank you Chairman Conyers, Ranking Member Smith, and members of 
the Judiciary Committee for inviting me to testify today. I appreciate 
this opportunity to address the Committee about the need to protect the 
integrity of our democratic process, by guarding against illegal aliens 
and noncitizens taking part in only the American citizen's right to 
vote.
    Currently, there are approximately 14 million illegal aliens in the 
United States who are of voting age. There are approximately 23 million 
legal noncitizens currently residing in the U.S. Beyond requiring 
applicants to sign a pledge on voter-registration forms affirming that 
they are U.S. citizens, there are no restraints to prevent the nation's 
illegal aliens and legally present noncitizens from casting ballots in 
local, state and federal elections. Our voting system is subject to 
fraud by noncitizens. Illegal voting by legally residing non-citizens 
may be more prevalent than voting by illegal aliens. There are no 
existing structures in place to prevent illegal aliens from voting or 
to know if noncitizens are illegally voting in federal elections.
    Numerous tactics are being employed by illegal aliens and 
noncitizens to fraudulently vote in federal elections. The first 
approach begins by obtaining a state drivers' license. States vary 
greatly in their laws governing the issuance of those licenses. A few 
states require and verify documentation that an applicant is either a 
U.S. citizen or a legal resident. However, other states purposely or 
inadvertently allow aliens to receive a drivers' license. Seven states 
allow registrants to use an individual taxpayer identification number 
(ITIN) instead of a Social Security number. The problem with an ITIN, 
stems from the fact it is available to noncitizens for purposes of tax 
withholding. On the opposite side of the spectrum, eleven states are 
lax and negligently permit illegal aliens to obtain drivers' licenses, 
by refusing to verify the authenticity of the Social Security Number.
    Under the National Voter Registration Act of 1993, information 
provided by the applicant for a driver's license may also be used for 
voter registration unless the applicant specifically indicates that he 
did not want to be registered to vote. With many states making driver's 
licenses available to legal noncitizens and illegal aliens, it is 
probable voter rolls contain large numbers of non-citizens and illegal 
aliens.
    Another tactic employed by illegal aliens and noncitizens to obtain 
voting rights involves absentee voting. Absentee voting has become 
increasingly common, and there are no safeguards in place to ensure the 
actual voter is voting or for elections officials to challenge the 
voter in person as a possible illegal voter. In effect, there are no 
safeguards in place to ensure the person requesting the absentee ballot 
is actually the person voting. Elections official's hands are tied to 
protect the integrity of the voting ballot.
    To preserve the integrity of the election process, Congress enacted 
the Illegal Immigration Reform and Immigrant Responsibility Act in 
1996. Under the Act, it became a federal crime for non-citizens to vote 
in any federal election. Ineligible non-citizens who knowingly voted 
illegally could also be deported. Furthermore, a non-citizen who 
fraudulently claimed to be a U.S. citizen would also violate this Act. 
Despite these penalties, there have been frequent substantiated reports 
of illegal aliens and non-citizens taking part in elections.
    One of these reports is well-known to another witness before the 
committee today, because it involved Loretta Sanchez's California race 
in 1996. This is probably the best example of documented illegal voting 
to date. Loretta Sanchez defeated Republican incumbent Robert Dornan by 
984 votes. Dornan called for an investigation of alleged illegal voting 
by noncitizens. The House Oversight Committee found that while there 
was insufficient evidence to void Ms. Sanchez's victory, the Committee 
found evidence of 748 improper ballots, 624 by individuals who were not 
citizens when they registered to vote. (``Dornan's Election Challenge 
Dismissed,'' Los Angeles Times, February 13, 1998). This is a striking 
number because it illustrates in that election, 83% of all the 
fraudulent votes cast were by noncitizens.
    In the 2000 Presidential election, noncitizens may have directly 
influenced the outcome of this race in eleven different states. 
Colorado, Florida, Georgia, Missouri, Nevada, New Hampshire, North 
Carolina, Ohio, Tennessee, Texas, and Virginia, all had small enough 
winning vote margins that illegal voting could have shifted the balance 
to Vice President Gore. With only a three vote margin in the Electoral 
College, if enough noncitizens had voted to reverse the outcome in any 
one of those eleven states, it would have changed the entire election.
    In preparation for the 2004 elections, Iowa and South Dakota issued 
directives to voter registration officials that voters should be added 
to the voter rolls even if their application did not affirmatively 
designate they were United States citizens. These directives were in 
blatant violation of the National Voter Registration Act, which 
requires every potential voter to designate citizenship on the voter 
registration application.
    In Utah, it was discovered that more than 58,000 illegal aliens had 
fraudulently obtained drivers' licenses. A legislative audit bureau 
determined that possibly 383 illegal aliens were registered to vote. 
Immigration and Customs Enforcement (ICE) conducted a sample consisting 
of 135 of these individuals and discovered that five were naturalized 
citizens, twenty were ``deportable'', one was a permanent legal 
resident, and 109 had no record and were assumed to be in the United 
States illegally. More alarmingly, it was revealed that at least 
fourteen had voted in a recent Utah election.
    In North Carolina, ICE agents inspecting voter registration records 
last November revealed at least four cases of noncitizens illegally 
registered to vote. Three of the people were arrested, and officials 
are looking for the fourth. Tom O'Connell, resident agent in charge of 
the ICE agency's Cary office, said that ``It's a very personal charge 
to us, it goes to the integrity of the entire democratic system when we 
have . . . aliens registering to vote.'' (``Voter rolls risky for 
aliens,'' The News & Observer, December 7, 2006.)
    There is a very simple solution to the problem of illegal aliens 
and non-citizens voting in our elections. A bipartisan commission 
headed by former President Jimmy Carter and ex-Secretary of State James 
Baker announced after their study into Federal Election Reform, that 
Americans should be required to have photo identification to vote.
    ``Instead of creating a new card, the Commission recommends that 
states use `REAL ID' cards for voting purposes. The REAL ID Act, signed 
into law in May 2005, requires states to verify each individual's full 
legal name, date of birth, address, Social Security number, and U.S. 
citizenship before the individual is issued a driver's license or 
personal ID card. The REAL ID is a logical vehicle because the National 
Voter Registration Act established a connection between obtaining a 
driver's license and registering to vote. The REAL ID cards adds two 
critical elements for voting--proof of citizenship and verification by 
using the full Social Security number. The REAL ID Act does not require 
that the card indicates citizenship, but that would need to be done if 
the card is to be used for voting purposes. In addition, state bureaus 
of motor vehicles should automatically send the information to the 
state's bureau of elections.'' ``Building Confidence in U.S. Elections: 
Report of the Commission on Federal Election Reform,'' The Carter-Baker 
Report (Sept. 2005).
    Allegations that implementing REAL ID will suppress voting 
participation are unfounded. Every illegal vote by a non-citizen 
ultimately voids the vote of a U.S. citizen and it is as injurious as 
not allowing the citizen to vote in the first place.
    While advocates for illegal aliens and noncitizens claim such 
individuals would not take the risk of registering to vote for fear of 
being discovered, the evidence I have just presented before you 
suggests otherwise. It is foolishness to believe fraud is absent when 
efforts are not being made to ensure the integrity of our electoral 
process. Remember, it only takes one vote to change an election.
    Thank you and I would be happy to take questions from the 
Committee.

    Mr. Conyers. Thank you, Steve King. I am glad you are on 
this Committee, because we want to inquire into some of the 
other research and materials you have accumulated.
    We welcome Brian Bilbray, California. Welcome to the 
Judiciary Committee.

 TESTIMONY OF THE HONORABLE BRIAN BILBRAY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Bilbray. Thank you, Mr. Chairman. I appreciate the 
privilege to speak here today. I also appreciated the ability 
to serve as a county supervisor for the 3 million people of San 
Diego County where I supervised a very large registration vote 
system in that county.
    And I have to tell you, the 10 years that I served there it 
became obvious to me that though in the past we have been very, 
very strong about guaranteeing the ability on the franchising 
of individuals to be able to vote, we have never really looked 
at the other way that people are disenfranchised.
    Now, I remind you that the procedure of voting is not an 
end into itself; it is a sacred right not only to vote but to 
have your vote count. And the challenge of the past was making 
sure the franchise was not violated by denying people the 
ability to participate in the voting process.
    But we have done almost nothing, Mr. Chairman, almost 
nothing to make sure that the franchise is not being canceled 
out by allowing those who are not qualified to vote to cancel 
out the qualified voters. And I think every American citizen 
has the right, not only to vote, but to have their vote count 
and not to have their vote canceled out by a disqualified 
voter. May not seem like it is a big deal but when you have 37-
plus-million people that could be out there and could be 
canceling out votes, I think it is time we check on that.
    And I will just tell you, as somebody running the 
registration system, I could ask you for documentation about 
your residency and check about where you live, but I wasn't 
allowed to ask you about your citizenship. I had to go on the 
honor system that just if you say it, and I would ask you to 
ask the Ways and Means Committee, do they think that the tax 
system in this country could function on the honor system where 
every taxpayer just signed off and nobody ever audited, nobody 
ever checked? We not only do not have the check, but you 
specifically have State laws that restrict the ability to do 
that kind of checking.
    I think that the fact is, is that when we get into motor 
voter, we have got to recognize that these two challenges to 
the people's franchise is there, and we need to address the 
other side.
    And, Mr. Chairman, as somebody who represented a Committee 
with a large percentage of foreign nationals and naturalized 
citizens, the burden of being disenfranchised by illegal votes 
is not equally distributed across this country. We all know it 
is the working class American citizens that have the greatest 
propensity for having their vote not count because this 
Congress and the Federal Government hasn't done its part to 
protect their franchise. The wealthy neighborhoods tend not to 
have that threat. So I just think that we need to be upfront 
about this.
    I think that the Carter commission addressed it 
appropriately, and over the years I have wondered when we are 
finally going to get to the issue, that we should make every 
vote count if it is legal, and that means a lot. And this is 
not just illegal immigrants, this is all immigrants. And my 
mother is very proud that she got her citizenship and was 
franchised. She is also very much upset that she was actually 
fined in Australia because she didn't vote her first election 
because she was too young to register but actually turned 21 
before the vote. We don't want to create those kind of catch-
22s, and we have addressed those in the past.
    I just ask you that if you truly believe in the right of 
franchising, you truly believe, not only in the right for 
people to vote, but for their vote to count, we have to address 
the issue of the identification of the person when they show up 
to the polls.
    And the real problem is the voter registration system, and 
I will give you just some of the problem. You have paid 
registrars going out there, people that are being paid by 
groups and agencies to collect votes. They will tell people 
almost anything to be able to get them to register. Once these 
individuals register, many of the foreign nationals who are not 
proficient in English, when they get the papers from the County 
of San Diego or from the State, they assume they are legal. And 
so this is an issue of protecting the innocent from taking a 
deadly mistake. Because many times, the illegal votes are 
manipulated and are pushed by people who have something to gain 
when it is not the immigrant who is perpetuating the fraud 
intentionally.
    So I just ask you, in conclusion, to respect the fact that 
every voter should count and no voter should have his vote 
canceled out.
    And so enfranchisement, I think, is the challenge before 
us, Mr. Chairman. Are we willing to protect the vote after it 
is cast as much as we have been willing in the past to make 
sure the vote gets cast?
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Bilbray follows:]
Prepared Statement of the Honorable Brian P. Bilbray, a Representative 
                in Congress from the State of California
    Mr. Chairman, Ranking Member Smith, distinguished colleagues of the 
Committee, thank you for inviting me to speak before you today on the 
importance of addressing voting fraud and irregularities. As Chairman 
of the Immigration Reform Caucus, I am extremely concerned about 
illegal immigrants violating our nation's election laws by registering 
and voting in local, state and federal elections. I feel that the 
American people have been disenfranchised by ballots illegally and 
fraudulently cast in our increasingly close elections.
    Nothing is more important than ensuring the integrity of our 
election process. Because of this very issue, I am able to sit before 
you today and represent the people of the 50th District of California. 
It was during my campaign that the issue of illegal participation in 
our election process came to light. For a short moment in time, one 
person's words were heard throughout the entire nation. As reported in 
the Wall Street Journal on June 5, 2006, ``Ms. Busby addressed a group 
of supporters and in response to a question in Spanish about how 
someone who was an illegal alien could help, she answered: ``You don't 
need papers for voting,'' she said. ``You don't need to be a registered 
voter to help.''
    The freedom to vote is one of the most fundamental and sacred 
rights Americans can exercise. With more than 20 million foreign-born 
residents in the United States who are not U.S. citizens, including an 
estimated 12 million illegal immigrants, the potential for non-citizen 
voting is a growing concern, especially when you consider the relaxed 
registration requirements and a lax screening process at the time of 
voting. I feel there is a very real possibility that non-citizens have 
affected the outcomes of elections in the past and will in the future.
    Voting by illegal immigrants is one of the toughest issues to study 
due to the fact there is no centralized or accessible list of illegal 
immigrants that can be compared to voter registration lists or lists of 
persons who actually cast ballots. The most basic requirement for 
registering to vote is United States citizenship.
    Citizenship is clearly defined in both federal and state law. The 
14th Amendment to the United States Constitution states, ``All persons 
born or naturalized in the United States and subject to the 
jurisdiction thereof, are citizens of the United States and of the 
state wherein they reside.'' A person is not a citizen simply because 
he or she resides in California or is married to a U.S. citizen. While 
federal law requires the voter to check a box on the registration form 
to indicate that he or she is a U.S. citizen, Elections Code Sec. 2111 
says that an individual who signs an affidavit of registration under 
penalty of perjury is assumed, in the absence of contrary information, 
to be a citizen. Elections Code Sec. 2112 additionally states that an 
affidavit of registration is proof of citizenship for voting purposes 
only; it cannot be used to prove citizenship for any other purpose. In 
the state of California, those registering to vote must simply check a 
box affirming they are a U.S. citizen.
    Congress enacted the 1996 Illegal Immigration Reform and Immigrant 
Responsibility Act, making it a federal crime for non-citizens to vote 
in any federal election unless authorized by state law. All ineligible 
non-citizens who knowingly vote in violation of the law may be 
deported. While illegal voting can make the alien ineligible for U.S. 
citizenship (violation of criminal law), this disqualification has been 
often waived.
    In 1993, President Clinton signed the National Voter Registration 
Act (NVRA). Usually called the ``motor voter'' bill, it requires all 
states to streamline their voter registration laws to make it easier 
for citizens to sign up. Specifically, it requires states to give 
voters the option to register to vote simultaneously with an 
application for a driver's license, by mail, or in person, and at 
social service and other agencies. The Act made it harder to verify the 
identity of voters seeking to register. It also considerably 
complicated the states' task of keeping the registration rolls clean.
    In September 2005, the Congressional Research Service reported that 
more than 25 states failed to require any proof of legal presence in 
the United States in order to apply for and obtain a driver's license. 
And, as a consequence of the Motor Voter law, every single person who 
applies for a driver's license is asked if they want to register to 
vote. Voter rolls in the United States, particularly in states that 
allow illegal immigrants to obtain driver's licenses, are inflated by 
non-citizens who are registered to vote. Despite the clear mandate of 
the Motor Voter law that any potential voter must affirm citizenship on 
the voter registration application, some states issued orders to voter 
registration officials that voters should be added to the roles even if 
their application did not affirmatively indicate they are United States 
citizens.
    Requiring a person to identify themselves with photo identification 
before casting a ballot enjoys broad public support. The American 
Center for Voting Rights-Legislative Fund's polling in Pennsylvania and 
Missouri found that more than 80 percent of the population favors photo 
ID requirement in order to vote. Other state specific polls in 
Wisconsin and Washington have found similar levels of public support 
for voter identification requirements. Nationally, a Wall Street 
Journal/NBC poll conducted by in April 2006 found that more than eighty 
percent of U.S. citizens support the requirement that a person show a 
photo ID before they are allowed to cast a ballot. Currently, twenty-
four states require every voter to provide identification before 
casting a ballot and seven states currently require photo 
identification in order to vote.
    Many people tend to think that the photo ID requirement would 
suppress voting but there has never been evidence to support that 
assertion. Much to the contrary, evidence shows that anti-voter fraud 
provisions increase voter turnout. When people have greater confidence 
in the election process, there is greater voting participation. There 
are more than 100 democracies which require a photo identification card 
without fear of infringement on individual citizen's rights, including 
countries such as Mexico, India and Pakistan. In fact, our neighbor to 
the south, Mexico, issues a voter ID which includes multiple security 
features, including a hologram, special fluorescent ink, a bar code, 
and special codes in a magnetic strip.
    Not only must we worry about illegal immigrants voting illegally in 
our elections, we must worry that they are using the voter registration 
card to seek employment. There is reason to believe that some illegal 
immigrants applying for driver's licenses deliberately, rather than 
accidentally, seek voter registration. This is due to the fact that the 
employer sanctions law adopted in the 1986 amnesty to deter employment 
of illegal aliens allows a voter registration card to be used as one of 
the documents that establishes the employee's identity. That document, 
plus a Social Security card, is all that is necessary to establish work 
eligibility. Thus, the fact that some non-citizens register to vote is 
not necessarily a harmless misunderstanding of the rules, as 
immigrants' rights groups contend.
    In 2005, a prominent group of bipartisan leaders and scholars, led 
by former President Carter and Secretary of State James Baker, III, 
focused on our nations voting laws and procedures. The Carter-Baker 
Commission on Voting recommended:

        Instead of creating a new card, the Commission recommends that 
        states use ``REAL ID'' cards for voting purposes. The REAL ID 
        Act, signed into law in May 2005, requires states to verify 
        each individual's full legal name, date of birth, address, 
        Social Security number, and U.S. citizenship before the 
        individual is issued a driver's license or personal ID card. 
        The REAL ID is a logical vehicle because the National Voter 
        Registration Act established a connection between obtaining a 
        driver's license and registering to vote. The REAL ID card adds 
        two critical elements for voting--proof of citizenship and 
        verification by using the full Social Security number. The REAL 
        ID Act does not require that the card indicates citizenship, 
        but that would need to be done if the card is to be used for 
        voting purposes.

    As the Carter-Baker Report elaborated: ``to make sure that a person 
arriving at a polling site is the same one who is named on the list, we 
propose a uniform system of voter identification based on the ``REAL ID 
card'' or an equivalent for people without a driver's license . . . 
There is likely to be less discrimination against minorities if there 
is a single, uniform ID, than if poll workers can apply multiple 
standards.'' The Carter-Baker Report also stated that ``The right to 
vote is a vital component of U.S. citizenship, and all states should 
use their best efforts to obtain proof of citizenship before 
registering voters.'' I could not agree more!
    The Bush Administration announced the program will cost $23.1 
billion over 10 years, require motorists born after 1935 to present 
birth certificates or passports, and add $28 to the cost of issuing 
each license. As Homeland Security Secretary Chertoff stated, ``Is it a 
reasonable amount of money that people should pay to prevent people 
from getting on airplanes or getting in buildings and killing 
Americans? I think most people would say . . . that's $20 well spent.'' 
While people will have to incur an additional cost, it seems absolutely 
reasonable when putting it in the context of safety and securing our 
democracy by eliminating voting fraud.
    The Administration also announced it would delay implementation of 
the REAL ID provisions that federalize driver's license standards to 
allow states more time to comply fully. The deadline will be extended 
from May 2008 until December 2009, and up to 20 percent of state 
homeland security grants can be used to implement the program. I am 
extremely disappointed by the Administration's stance on this issue and 
will seek to insure REAL ID makes its May 2008 deadline. It is far too 
important for the safety of our society to delay.
    If the United States wants to prevent fraudulent voting, procedures 
must be adopted to verify the eligibility of individuals when they 
register, and then to verify the identity of voters when they vote. 
There must also be a heightened dedication to prosecute those who 
fraudulently register and vote. If there is no real penalty for illegal 
voting, it is unreasonable to expect that an `honor system' to keep 
ineligible persons from voting will be effective. It is worth noting, 
that with the passage of Proposition 200, Arizona was the first state 
to implement such measures. Approximately 32 other states are 
considering similar legislation.
    Unfortunately, special interest groups are pursuing litigation to 
undermine the ability of election officials to assure that only U.S. 
citizens are included on voter rolls. Clearly, there has been a much 
greater movement to lawsuits to settle election administration issues 
since the 2000 Presidential election. Fundamentally, voters should 
believe at the end of the day that they decided the election, not a 
handful of lawyers and judges.
    I applaud the House Judiciary Committee for focusing on this very 
important issue. Thank you for the opportunity to testify today.

    Mr. Conyers. Mr. Bilbray, we are grateful that you came 
here today.
    By previous agreement, I have 15 minutes to divide on my 
side and so does Mr. Smith.
    If I could just recognize Mr. Nadler, Mr. Ellison, Mr. 
Cohen to present--let's try this--present their questions to 
whom they want to direct them, and then we will ask the 
appropriate witnesses to respond.
    Starting with Jerry Nadler.
    Mr. Nadler. Thank you, Mr. Chairman. And, Mr. Chairman, I 
thank you for holding this hearing on this extremely important 
legislation.
    My first question is of our colleague, Representative King. 
Reading your testimony, you say Utah has discovered that more 
than 58,000 illegal aliens have fraudulently obtained driver's 
licenses. A legislative audit bureau determined that of these 
58,000, possibly 383 illegal aliens were registered to vote.
    Immigration and Customs Enforcement conducted a sample 
consisting of 135, or roughly 40 percent, of these individuals 
and discovered that five were naturalized citizens, 20 were 
deportable, one was a permanent legal resident and 109 had no 
record and were assumed to be in the United States illegally. 
And it was revealed that at least 14 had voted in the recent 
Utah election.
    So out of 58,000 people, maybe 14 possibly illegal people 
had voted. Do you think that is a significant problem, 14 in 
the State of Utah?
    Mr. King. Thank you, Mr. Nadler. I would say that I did 
actually give that some reference in my verbal testimony as 
well and that you really start with that number of 383 illegal 
aliens.
    Mr. Nadler. That would be 58,000 is where you start.
    Mr. King. Correct, but the registered to vote illegal 
aliens would be 383. So I would say the more----
    Mr. Nadler. Possibly illegal.
    Mr. King. And 14 out of that I think is significant, given 
the small populations of some of these elections that take 
place and that the State of Florida was down to about 537 votes 
that made the difference in the leader of the free world.
    Mr. Nadler. Fourteen in the State of Utah.
    Well, I am glad you referenced the State of Florida. The 
State of Florida had 537 votes in that election or at least it 
was before the recount was stopped by the Supreme Court.
    Mr. King. I think it was after every recount.
    Mr. Nadler. Before the recount was stopped by the Supreme 
Court; it was never finished. Some newspaper finished it and 
they came up with different results depending on the newspaper.
    However, it seems to be universally acknowledged that 
thousands and thousands of alleged felons were purged from the 
rolls--thousands. In fact, I think it was several tens of 
thousands were purged from the rolls by the secretary of 
state's office, with a 20 percent error rate.
    Twenty percent of 10,000 is 2,000. So that means that 
several thousand legal voters were refused the right to vote by 
the secretary of state's office because of a--the felon 
provision. How do you react to that?
    Mr. King. I have heard some of those numbers. I have not 
seen the kind of data that gives me confidence that that is an 
accurate conclusion that one can draw. I have seen the data 
that says even so far as the Miami Herald on the recount of the 
election came up with the same number, the election report, so 
I can speak to that.
    But I will say this: that I think that Democrats believe 
that Republicans are guilty of election fraud, I believe 
Republicans think Democrats are guilty of election fraud. I 
think some exists on both sides. To what magnitude, I don't 
know, but I believe we all should endeavor to make it as 
absolutely clean as we possibly could and put those checks and 
balances in place.
    I don't think that a 20 percent error rate in a voter 
registration list that is going to purge felons is an 
acceptable result at all. And if that holds up, then I would be 
a critic of that kind of behavior just as well.
    But I want to have the highest level of integrity, because, 
first of all, I would say I would rather lose the presidency or 
the majority than lose the integrity of our electoral process. 
If we lose our confidence in it--and it comes down to 
confidence beyond the actual numbers in what is real--if we 
lose our confidence, we lose our constitutional republic, and I 
think that is the precious commodity here we are all trying to 
preserve.
    Mr. Conyers. Well-said.
    Mr. Nadler, thanks for just a moment. Let me yield to Mr. 
Smith.
    Mr. Smith. Thank you, Mr. Chairman. I will be brief. I know 
you need to try to get as many Members in here as possible.
    Representative Sanchez, I want to ask you about the bill 
that has been introduced by Senator Obama and Representative 
Emanuel. You were not an original co-sponsor but you are--I 
mean, you are not an original sponsor but you are a co-sponsor, 
so if you are not able to answer, I would understand.
    But I would like to ask you about a provision, and I will 
read it to you. This is on page two of the bill, paragraph 618, 
deceptive practices in Federal elections. It reads as follows: 
``Whoever within 60 days before a Federal election knowingly 
communicates false election-related information about that 
election with intent to prevent another person from exercising 
their right to vote in that election or attempts to do so shall 
be fined under this title or imprisoned for not more than 5 
years, or both.''
    We heard a while ago that Senator Obama said that the 
intent was not to necessarily penalize illegal immigrants. I 
just wanted to ask you if you would object if we did penalize 
illegal immigrants for voting illegally?
    Ms. Sanchez. Well, again, I believe I would agree with Mr. 
Obama in the sense that I agree with his intent. I will tell 
you something, we already penalize people who are here without 
the right documents who vote in elections. It is called 
deportation.
    Mr. Smith. I have limited time. I understand but the 
operative phrase here is anybody communicates false election-
related information. If someone registers to vote and professes 
to be a citizen who is not a citizen and therefore not eligible 
to vote, clearly, that is a false statement that I think that 
would apply.
    Ms. Sanchez. Again, Mr. Smith, I think they run the risk. 
People who are not citizens run the risk of probably the 
greatest penalty and that is the penalty of deportation from 
this Nation for voting without--I think it is not a jail 
sentence, it is not anything else. It is deportation from our 
Nation. That is what they are subject to.
    Mr. Smith. Non-citizens should not be voting, right?
    Ms. Sanchez. Absolutely, non-citizens should not be voting.
    Mr. Smith. And you feel that they should be penalized if 
they do vote?
    Ms. Sanchez. I believe they are penalized when they do 
vote. We tend to deport them. That is what happens to them. I 
sit on the Homeland Security Committee. I see the deportation. 
That is what happens.
    Mr. Smith. Okay. And do you think they should be penalized 
under this bill?
    Ms. Sanchez. They are not penalized under this bill because 
it already exists, that if you are not a citizen and you vote--
--
    Mr. Smith. Just because it already exists doesn't mean they 
can't be penalized under this bill. I think that they are, and 
I think a court would find that they are. We can discuss that 
more later on.
    Again, this next question may be a little too technical but 
this says 60 days before an election. Why wouldn't this bill 
apply 61 days before an election or 62 days before an election 
if someone makes a false statement, for example.
    Ms. Sanchez. You would have to ask Mr. Obama that 
question----
    Mr. Smith. I will do that.
    Ms. Sanchez [continuing]. As to why he chose 60 days.
    Mr. Conyers. Thank you, Mr. Smith.
    Mr. Delahunt. Mr. Chairman?
    Mr. Conyers. Yes? No, I am recognizing--your name is on the 
list, but it is further down.
    Mr. Ellison, briefly.
    Mr. Ellison. My question is directed to our colleague, 
Representative King.
    I am aware that the State of Indiana, in defending a photo 
ID lawsuit in court, found that it could not cite one single 
case or instance of voter impersonation, fraud. The State of 
Missouri had similar results. They couldn't find any cases of 
the kind of fraud that you are quite concerned about. And I 
know in my own State of Minnesota there has been much made 
about immigrants voting or non-citizens voting, but, still, 
nobody ever has any real cases to produce.
    Can you tell me, since 1996, exactly how many convictions 
have taken place under the law for non-citizens voting as 
compared to how many actual votes were cast in Federal 
elections since that time?
    Mr. King. I am sorry, Mr. Ellison, with that buzzer 
ringing, could you pick up where that buzzer cut in, please?
    Mr. Ellison. Yes. I am curious to know, since the 1996 law 
was passed that made it a felony for non-citizens to vote, how 
many convictions, how many Federal convictions have taken 
place? And could you also----
    Mr. King. I wouldn't have the answer to that question 
unless it happens to be in my hand in which case we are looking 
at, for 2002, we have persons charged, 95; convictions, 55; 
dismissals by the government, eight; and acquittals, five.
    Mr. Ellison. So 55 in that 1 year, sir?
    Mr. King. Fifty-five in the year 2002.
    Mr. Ellison. Any other data for any other year?
    Mr. King. That is the only data I have in my hand right 
now, thanks to somebody's staff.
    Mr. Ellison. How many votes were cast in 2002?
    Mr. King. I don't know the answer to that question.
    Mr. Ellison. Would you agree with me that probably far less 
than one-hundredth of 1 percent is represented by that 55 
number?
    Mr. King. Would you agree that a single fraudulent vote 
would be a violation of our integrity?
    Mr. Ellison. I am just going to ask you to see if you could 
answer my question. What percentage of the total vote would 
that 55 represent?
    Mr. King. I wouldn't presume to answer that question, and I 
would state that I don't believe it is relative to the subject 
before this Committee, but thank you for your inquiry.
    Mr. Ellison. Well, but let me ask you this: How many people 
do you think have been excluded from their right to vote by 
voter suppression, which is actually the subject of this bill?
    Mr. King. I didn't testify as to that, but I would believe 
that there have been--it would be my judgment, and we all--none 
of us know facts here in this, because there are many things 
that happen in the election process that are not reported, that 
are not prosecuted. There are a lot of things that are just 
given a pass.
    So I don't think we can give it an analytical, numerical 
analysis and take it down to the percentages, although I 
generally do look at things from that perspective.
    I would say that, on the one hand, those people who have 
voted illegally and been prosecuted as part of it, all of those 
who have voted illegally have canceled out someone else's legal 
vote.
    Mr. Ellison. Well, I am asking, sir, what about the people 
who have had their vote suppressed, such as in Florida, Ohio, 
well-documented voter suppression. As a matter of fact, I 
believe Senator Obama cited cases throughout the country about 
legal citizens who do have the right to vote who are deceived 
and have their vote taken away.
    But how many would you guess that represents?
    Mr. King. I saw numbers by the thousands alleged in 
Florida. I saw reports that there were police roadblocks that 
were set up that intimidated. I looked into that further and 
they were irrelevant roadblocks that were significantly away 
from the election polls.
    So as I look deeper into that, I would have to see other 
data to convince me that there was a strategy out there that 
was trying to suppress, but I don't know how some people are 
maybe more easily intimidated than I might be. So I would like 
to see some more empirical data on that.
    Mr. Conyers. Mr. Ellison, I am sorry, we are running 
against the clock here, and we only have a few minutes left for 
the panel.
    So, excuse me, we will have to submit the questions that 
Mr. Ellison had, and I will recognize Mr. Smith now.
    Mr. Smith. Thank you, Mr. Chairman.
    And I would like to encourage Members on this side to be 
brief. We are trying to conclude this panel before the votes, 
and in that spirit, I will yield to the gentleman from North 
Carolina, Mr. Coble.
    Mr. Coble. Thank you, Mr. Smith.
    Mr. King, I agree with you: Members of both parties are 
guilty of irregularity, first of all.
    Let me ask you this: What role does your State elections 
administrator have in addressing efforts to mislead and/or 
intimidate voters, and what has been done about it, if you 
know?
    Mr. King. I can, Mr. Coble, speak to the fact that in the 
2004 election, even though there were people that showed up at 
the wrong precinct, he issued a recommendation or issued--
actually, our current governor was the governor who was the 
secretary of state, Chet Culver, and he issued an order that 
the county auditors and the election poll workers could accept 
ballots from people who were not registered at that precinct, 
even though they showed up at the wrong place to vote, which 
really scrambled the process. And even though Iowa is the first 
in the Nation to caucus, we were the last in the Nation to 
certify the vote because of that confusion.
    Mr. Coble. And if Ms. Sanchez or Mr. Bilbray know about 
your respective administrator, do you know?
    Mr. Bilbray. In the State of California, you are not 
allowed to ask citizenship status or place of birth. You are 
allowed to ask residency questions.
    The biggest problem we have, congressman, we are trying to 
figure out those who are illegally--by definition, if they are 
on document, there are no documents, so we have no list to 
check. Where you can have a list to check legal resident aliens 
and you can go down that list, but you don't have the list of 
the others.
    So the open opportunity, when we talk about being able to 
prosecute those who are illegal, to try to get to the data to 
get them is impossible unless you can somehow have it 
proactive, and that is where you get into this problem here. 
Only if they are legal resident aliens can you find a list to 
sort of say, ``Wait a minute, you haven't naturalized.''
    Mr. Coble. Well, let me hear from Ms. Sanchez, if she 
knows.
    Ms. Sanchez. Mr. Coble, in our State of California, when 
you fill out the affidavit, and it is an affidavit you fill 
out, you are asked if you are a citizen. If you check the box 
that you are a citizen, then you continue to fill out the form. 
If you check the box that you are not a citizen, it says 
plainly there, ``Please don't register to vote. You are not 
allowed to vote.''
    So it also says on there with respect to penalties should 
you fill out the affidavit incorrectly or falsify it.
    It also, by the way, does ask for country where you were 
born--USA or Mexico or Italy or whatever country--in reference 
to, I think, a misstatement that Mr. Bilbray made.
    Mr. Coble. I yield back, Mr. Chairman.
    Mr. Conyers. Mr. Delahunt and Mr. Cohen will close out our 
questions. We only have minutes before the vote. And then we 
will take a short recess and promptly reconvene with the second 
panel. All other questions to any of the witnesses will be 
submitted in writing.
    Mr. Delahunt?
    Mr. Delahunt. I see Mr. King is getting prepared to respond 
to my question.
    I hate to disappoint you, Steve, but I am going to just 
simply point out, in response to a question by the Ranking 
Member, that the gentlelady from California is absolutely 
correct. There does exist in the Federal statutes a penalty for 
unlawful voters and I would refer my colleagues to the U.S. 
code at section 1227(A)(6), and a capital letter A, and let me 
read it into the record so there is no doubt as to the accuracy 
of a statement by Congresswoman Sanchez.
    ``Any alien who has voted in violation of any Federal, 
State or local constitutional provision, statute ordinance or 
regulation is deportable.'' So there is a sanction on the books 
today, and there should not be any doubt about that.
    With that, I yield to the gentleman from----
    Mr. Conyers. Tennessee.
    Mr. Delahunt [continuing]. Tennessee, Mr. Cohen.
    Mr. Cohen. Thank you, Mr. Chairman.
    My question really would go to Senator Cardin, and in the 
interest of time and in honor of Bud Collyer and ``Beat the 
Clock,'' I will pass.
    Mr. Smith. The Chairman was yielding to me and I was going 
to yield to Representative Forbes if he has a question, and if 
not, we will go vote.
    Mr. Forbes. I will yield any time.
    Mr. Conyers. Let's have a brief recess.
    We thank the panel.
    All questions should be submitted that have not been 
sufficiently asked by our Committee.
    And we stand in recess until immediately after the votes on 
the floor.
    [Recess.]
    Mr. Conyers. The Committee will come to order.
    We continue our panel, the second one for the afternoon, 
protecting the right to vote. And we are honored to have Donna 
Brazile, Eve Sandberg, Ralph Neas and John Fund.
    I would like to begin with the president and CEO of the 
People For the American Way. If you would get our second panel 
under way.
    And I take notice that his mother is in the audience today 
monitoring his conduct and presentation. [Laughter.]

 TESTIMONY OF RALPH G. NEAS, PRESIDENT AND CEO, PEOPLE FOR THE 
                          AMERICAN WAY

    Mr. Neas. Actually, Mr. Chairman, after all the times I 
have had an opportunity to appear before you and Chairman Smith 
and former Chairman Sensenbrenner, I know from past experience 
the best thing I could do is to protect myself by bringing my 
mother with me. So she is here. [Laughter.]
    May stop all questions from everybody.
    Mr. Chairman, Representative Smith and distinguished 
Members, thank you for the opportunity to testify today. I am 
Ralph Neas, president of People For, and I want to commend you, 
Mr. Chairman, for holding this hearing and for focusing 
attention on the most important domestic issue facing the 
Nation.
    I make this statement because I believe the right to vote 
is the bedrock of our democracy. And by the way, I just saw 
Chairman Watt come in here, and I haven't seen Mr. 
Sensenbrenner, but the work of you all on the Voting Rights Act 
extension last year was absolutely spectacular and just want to 
thank you all.
    Indeed, everything in our democracy ultimately depends on 
the integrity of our election system. With more than 1 million 
members and supporters, People For the American Way and our 
sister foundation are committed to ensuring that the right to 
vote is guaranteed to all eligible voters and that this right 
is secure.
    Allow me to say a word about our comprehensive election 
reform and protection efforts. People For has established a 
democracy campaign which comprises all of our voting rights 
efforts, both on the State and local level, through voter 
registration, legislative grassroots litigation and GOTV 
efforts. This campaign also incorporates our leadership efforts 
in the Election Protection Coalition, our nonpartisan voter 
protection effort that our partner organization, our 
foundation, co-founded with our allies in response to the 
debacle of the 2000 presidential election.
    Mr. Chairman, the need to enact election reform is urgent. 
In 2008, this Nation will choose a new president, and once 
again voters will determine control of both chambers of 
Congress. All Americans deserve open, fair elections in which 
their votes will be cast and counted as they intended.
    In order to give election officials time to implement 
election reform, Congress must pass the needed legislation in a 
matter of months and provide adequate funding to put those 
reforms in place.
    In the aftermath of the 2000 elections, Caltech and MIT 
issued a joint study estimating that some 4 million Americans 
were disenfranchised in 2000. Citizens were denied the right to 
cast their vote or to have their vote counted by a range of 
problems, including faulty equipment, poorly designed ballots 
and untrained poll workers, as well as voter intimidation and 
suppression efforts and other illegal action.
    These problems have persisted through the past several 
elections as evidenced in the report that you, Mr. Chairman, 
prepared regarding the 2004 presidential election in Ohio.
    As we know, the complexity and sophistication of voter 
intimidation and suppression tactics have grown with each 
election, while problems with faulty voting technology have 
also proliferated.
    In light of these problems, Mr. Chairman, I salute you for 
taking the leadership with Congressman Rahm Emanuel in the 
introduction of the Deceptive Practices and Voter Intimidation 
Prevention Act of 2007, along with Representatives Becerra, 
Honda, Ellison and Holt. People For is firmly committed to 
helping you pass this bill in the House and help Senator Barack 
Obama's bill in the Senate.
    I would like to discuss for a minute or two some of the 
problems that People For Foundation addressed during our 
election protection campaign in the 2006 elections and 
demonstrate how your legislation will help us remove such 
barriers to the ballot box in protecting the voting rights of 
every citizen.
    While current Federal law provides criminal penalties for 
some voter suppression and intimidation practices, the newest 
wave of these reprehensible tactics may not be covered, 
including disinformation campaigns and harassing robo calls. We 
have previously heard about the letters in Orange County and 
the robo calls and flyers in Maryland and Virginia, so let me 
mention a few others.
    Through our program, People For responded to additional 
complaints around the country, including in Pima County, 
Arizona, where we received several reports that a group of 
people claiming to be with the United States Constitution 
Enforcement appeared at various voting locations under the 
pretext of preventing illegal immigrants from voting 
fraudulently. In reality, these actions were intended to 
intimidate Latino voters.
    In Dona Ana County, New Mexico, a voter received several 
campaign phone calls telling them to vote at a polling place 
that did not exist. Further, in several Virginia counties, 
Democratic voters received phone calls from purported election 
officials advising that they should not vote on Election Day 
and they would be prosecuted if they showed up at the polls. 
Unfortunately, these are typical complaints among the thousands 
that the Election Protection Coalition has received over the 
past three Federal elections.
    We are extremely appreciative of the Chairman's efforts to 
put an end to such widespread abuse, yet at the same time we 
must diligently protect voter rights once they get to the voter 
booth. If voters do not have confidence in the electoral 
process, how can we encourage voters to show up at the polls.
    Lack of voter confidence in the voting process has 
effectively become another suppression tactic, leading people 
to stay away from the polls because they do not believe their 
votes will count. Perhaps last year's most egregious example of 
voter problems at the polls was the travesty that took place in 
Florida's 13th Congressional District. In the November 
election, voters in Sarasota County used paperless, unauditable 
electronic voting machines in the race to succeed Congresswoman 
Katherine Harris. The county's voting machines failed to 
register a vote for approximately 18,000 voters.
    Mr. Chairman, I have got only about a minute to go. Would 
that be okay, about a minute, Mr. Chairman? I can finish in a 
minute.
    Mr. Conyers. I haven't ever granted anyone a minute 
overtime.
    Mr. Neas. Even with my mother here? [Laughter.]
    Mr. Conyers. All right, 30 seconds. [Laughter.]
    Mr. Neas. Mr. Chairman, thank you again for the opportunity 
to testify and for your steadfast commitment to addressing the 
compelling issue of election reform. While I feel that the 
momentum for comprehensive election reform is growing, I fear 
that State election officials may not have the time and money 
to successfully implement these new laws.
    As you know, the Reverend Martin Luther King, Jr., often 
used the phrase, ``the urgency of now.'' That phrase is so 
relevant, and we feel the urgency of now with regard to 
election reform. The clock is ticking. We must not let time run 
out.
    We are firmly committed to working with Members of Congress 
and our coalition allies to ensure that electoral reform 
becomes law in time to protect the integrity and fairness of 
the 2008 elections. Nothing less than the heart and soul of 
democracy is at stake.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Neas follows:]
                  Prepared Statement of Ralph G. Neas
    Chairman Conyers, Representative Smith and distinguished members, 
thank you for the opportunity to testify today. My name is Ralph G. 
Neas, and I am President of People For the American Way and People For 
the American Way Foundation. I want to commend you, Mr. Chairman, for 
holding this hearing, and for focusing attention on critically 
important issues facing the nation.
    The right to vote is the bedrock of our democracy. People For the 
American Way and our sister Foundation are committed to ensuring that 
this right is guaranteed to all eligible voters and is secure. People 
For the American Way is a national, nonprofit social justice 
organization with more than one million members and supporters, and 
more than two a quarter century of commitment to nonpartisan civic 
participation efforts. Since our founding by Norman Lear, Barbara 
Jordan, and other civic, religious, business and civil rights leaders, 
People For the American Way and its Foundation have urged Americans to 
engage in civic participation, and we have sought to empower those who 
have been traditionally underrepresented at the polls, including young 
voters and people of color.
    Allow me to say a word about our comprehensive election reform and 
protection efforts. PFAW has established the Democracy Campaign, which 
comprises all of our voting rights efforts both on the state and 
national level, through voter registration, legislative, grassroots, 
litigation and GOTV efforts. This campaign also incorporates our 
leadership efforts in the Election Protection Coalition, a non-partisan 
voter protection effort that our partner organization, People For the 
American Way Foundation, co-founded with its allies in response to the 
debacle of the 2000 Presidential Election. Our efforts encompass 
advocacy on both state and federal legislation, the protection of 
voting rights through the judicial system, and year-around work with 
election officials to protect the rights of voters before, on and after 
Election Day.
    Mr. Chairman, the need to enact election reform is urgent. In 2008, 
this nation will choose a new president, and once again voters will 
determine control of both chambers of Congress. Turnout is expected to 
be strong, and the stakes could not be higher. All Americans deserve 
open, fair elections in which their votes will be cast and counted as 
they intended.
    Time is short. In order to give election officials time to 
implement election reform, Congress must pass the needed legislation in 
a matter of months--and provide adequate funding to put those reforms 
in place. Political realities would make it all but impossible to pass 
reform legislation in a presidential election year, and such reform 
would come too late for timely implementation.
    The need is clear. Evidence of persistent problems in our election 
systems is abundant.
    In the aftermath of the election fiasco in Florida in 2000, Caltech 
and MIT issued a joint study estimating that some four million 
Americans were disenfranchised. Citizens were denied the right to cast 
a vote--or to have their vote counted--by a range of problems, 
including faulty equipment, poorly designed ballots, and untrained poll 
workers, as well as voter intimidation and suppression efforts and 
other illegal action.
    These problems have persisted through the past several elections, 
as evidenced in the report that you, Chairman Conyers, prepared 
regarding the 2004 presidential election in Ohio.
    The vast majority of problems during the past six years resulted 
from faulty election administration. Voter participation, normally 
lower in midterm elections than in presidential years, was spurred in 
2006 by close races that revolved around issues such as the war in 
Iraq; the exposure of unethical behavior in Congress, and the declining 
national economy. The unexpectedly strong turnout in some states 
exposed the lack of preparation by many election officials. The massive 
voting problems that resulted included failed absentee ballot 
distribution, failed processing of voter registration applications 
resulting in inadequate voter registration lists, improper 
interpretation of registration requirements, a lack of adequate 
resources and trained staff at polling places, and more.
    The complexity and sophistication of voter intimidation and 
suppression tactics has grown, and problems with faulty voting 
technology have proliferated. Make no mistake. The threats to democracy 
are just as real today as they were half a century ago. The bad old 
days of poll taxes and literacy tests are behind us, but new forms of 
intimidation and suppression have taken their place. With the enactment 
and recent reauthorization of the Voting Rights Act of 1965, and with 
subsequent legal decisions that have clarified and strengthened a 
citizen's constitutional right to be free from intimidation and 
unnecessary barriers at the voting booth, it's hard to believe we are 
here today discussing coordinated suppression campaigns. But there you 
have it.
    Mr. Chairman, I salute you and Representative Emanuel in the 
introduction of the Deceptive Practices and Voter Intimidation 
Prevention Act of 2007, along with Representatives Xavier Becerra, Mike 
Honda, Keith Ellison and Rush Holt. PFAW is firmly committed to helping 
you pass this bill in the House, along with and Senator Barack Obama's 
bill in the Senate. I'd like to discuss some of the problems that PFAWF 
addressed during our Election Protection campaign in the 2006 
elections, and demonstrate how your legislation will help us remove 
such barriers to the ballot box and protect the voting rights of every 
citizen.
    While current federal law provides criminal penalties for some 
voter suppression and intimidation practices, the newest wave of such 
tactics may not be covered. Federal law may not currently criminalize 
all the deceptive practices we saw in the 2006 elections, including 
disinformation campaigns and harassing robocalls. Such practices try to 
deceive voters into changing their votes, or voting on the wrong day, 
or by sending them to the wrong polling place. Some schemes attempt to 
convince citizens that voting will be difficult or even dangerous, or 
simply annoy them so much that they stay home from the polls in disgust 
at the whole process.
    The 2006 elections provided prime examples of these new forms of 
suppression techniques, and dirty tricks were as pervasive and brazen 
as ever. In Orange County, California, a Congressional candidate sent 
out letters in Spanish to approximately 14,000 Hispanic registered 
voters, warning it was a crime for immigrants to vote in federal 
elections, and threatening voters that their citizenship status would 
be checked against a federal database. Of course, immigrants who are 
naturalized citizens have as much right to vote as any other citizen, 
and no such database is used in elections. The letters were outright 
lies.
    In Maryland, fliers were handed out in Prince Georges County and 
predominantly African American neighborhoods with the heading 
``Democratic Sample Ballot.'' The fliers used unauthorized photos of 
Democrat Kweise Mfume, along with the names of the Republican 
candidates for Senator and Governor, falsely implying an endorsement.
    In Virginia, voters received recorded ``robocalls,'' sometimes late 
at night, which falsely stated that the recipient of the call was 
registered in another state and would face criminal charges if he came 
to the polls.
    People For the American Way responded to additional complaints 
around the country through our Election Protection coalition. In Pima 
County, Arizona, we received several reports that a group of 
people,claiming to be with the ``United States Constitution Enforcement 
(USCE), ``appeared at various polling locations under the pretext of 
preventing illegal immigrants from voting fraudulently. In reality, 
these actions were intended to intimidate Latino voters.
    In Dona Ana County, New Mexico a voter received several campaign 
phone calls telling her to vote at a polling place that didn't exist. 
Further, in Accomack and Northampton Counties in Virginia, Democratic 
voters received phone calls from purported election officials advising 
that they shouldn't need to vote on Election Day and that they'd be 
prosecuted if they showed up at the polls. Unfortunately, these are 
typical complaints that PFAWF and the Election Protection Coalition 
have received for the past three federal elections.
    We are extremely appreciative of the Chairman's efforts to put an 
end to such widespread abuse. At the same time, we must be diligent 
about protecting voters' rights once they get to the voting booth. If 
voters don't have the confidence in the electoral process, how can we 
encourage voters to show up at the polls? Lack of voter confidence in 
the voting process has effectively become another suppression tactic, 
leading people to stay away from the polls because they don't believe 
their votes will count.
    People For the American Way Foundation's Election Protection work 
exposed many problems related to voter registration, provisional 
ballots and faulty voting technology. Inadequate statewide voter 
registration databases and the implementation of burdensome third-party 
registration requirements led to countless voters being challenged and 
forced to vote on provisional ballots--or at times, being denied the 
right to vote to outright. Overly restrictive voter identification and 
registration laws implemented in states across the country are 
obstructing Americans' ability to register and to vote. Under the guise 
of limiting fraud--of which there is little evidence--state 
legislatures have passed new laws saddling voter registration 
organizations with regulations that are frivolous, onerous, or both.
    Voters are continually denied the right to vote, even by 
provisional ballot, by inadequately trained poll workers. Election 
Protection volunteers were usually able to remedy these situations, but 
it is a continuing problem that must be addressed.
    The use of non-secure and unauditable voting technology is also 
particularly troubling. As a result of the 2006 HAVA deadlines, the 
widespread replacement of older voter technology meant more voters and 
poll workers throughout the nation used new voting systems in 2006 than 
in any previous election. With so many counties using new voting 
systems for the first time, the number of voting machine problems 
increased dramatically over 2004. In fact, complaints about voting 
machines outnumbered all other complaints reported to Election 
Protection, and voters in more than 35 states reported various problems 
related to voting machines.
    Perhaps the most egregious example was the fiasco that took place 
in Sarasota County, Florida. In the November election, Sarasota County 
used paperless, unauditable electronic voting machines in the race to 
succeed Katherine Harris in Florida's 13th Congressional district. The 
county's voting machines failed to register a vote for approximately 
18,000 voters in that race--more than one out of every seven voters who 
attempted to vote on the machines. Even though almost 15 percent of the 
voters in Sarasota County saw their votes disappear in this election, 
the state certified the winner by a margin of only 369 votes--less than 
0.2 percent of the total vote.
    These 18,000 Sarasota County citizens whose votes are missing put a 
human face on the substantial flaws that remain in our election system, 
and should encourage Members on both sides of the aisle to pass 
legislation with adequate funding in time for the upcoming 2008 
Presidential Election. PFAW strongly believes that it is paramount for 
Congress move to pass legislation that will require the use of secure 
systems that provide verifiable, auditable, and accessible voting. The 
status quo is not acceptable.
    In addition to the legislation already introduced by the chairman, 
PFAW has supported other election reform legislation in the past, and 
we look forward to pending re-introductions of these important bills.
    PFAW supported the Chairman's Voting Opportunity and Technology 
Enhancement Rights Act of 2005, which takes a comprehensive approach to 
addressing election reform problems, and we will continue to support 
the Chair should he move forward with similar legislation in this 
Congress.
    PFAW also looks forward to supporting an updated version of 
Congresswoman Stephanie Tubbs Jones's election reform bill, the Count 
Every Vote Act of 2005 (CEVA), which takes a similar comprehensive 
approach. While these comprehensive bills address a range of necessary 
voting reforms, PFAW is equally supportive of more focused proposals 
such as Congressman Rush Holt's bill, the Voter Confidence and 
Increased Accessibility Act of 2007, H.R. 811.
    Mr. Chairman, thank you again for the opportunity to testify, and 
for your steadfast commitment to addressing the urgent issue of 
election reform. I feel that with the support of congressional leaders 
such as yourself, the necessary momentum is growing to put reforms in 
place in time for the 2008 elections.
    As you know, the Reverend Martin Luther King, Jr. often used the 
phrase, ``The urgency of now.'' At People For the American Way, we feel 
the urgency of now with regard to election reform. The clock is 
ticking, and we promise we will do all we can to advance the cause of 
timely election reform. We are firmly committed to working with Members 
of Congress and its coalition allies to ensuring that electoral reform 
is a priority.
    Thank you.

    Mr. Conyers. Thank you. Thank you very much, sir.
    Donna Brazile is well-known for her career on Capitol Hill. 
She worked for the Congress, she has worked in the civil rights 
movement. She is now teaching at a college and is writing 
extensively. And we welcome her for her comments on a subject 
to which she has been committed across the years.

   TESTIMONY OF DONNA L. BRAZILE, CHAIR, DEMOCRATIC NATIONAL 
    COMMITTEE'S VOTING RIGHTS INSTITUTE, ADJUNCT PROFESSOR, 
                     GEORGETOWN UNIVERSITY

    Ms. Brazile. Thank you, Mr. Chairman and Members of this 
Committee. It is a great honor to be here and to be on this 
side of the table and not having to prepare all of the 
materials that I know that goes into the work of the staff.
    I am here on behalf of the Democratic National Committee's 
Voting Rights Institute, which was founded in 2001 following 
the chaotic election in Florida to help every American 
participate in the political process.
    Like Ralph Neas, I want to thank this Committee for guiding 
and helping to steer through the Congress the Fannie Lou Hamer, 
Rosa Parks, Coretta Scott King Voting Rights Reauthorization 
and Amendments Act of 2006. Forty-two years after the heroic 
marchers tried to cross the Edmund Pettus Bridge only to be met 
with ugly violence, we continue to celebrate their courage and 
honor what they marched for.
    That says a lot about our country that we own up to our 
struggles, that we acknowledge we haven't always done what we 
should, and that we commit ourselves to press ahead and to move 
forward to remove any new impediment of vestiges of a previous 
era that prevented eligible citizens from participating in the 
electoral process.
    Mr. Chairman, after the 2000 election, we committed 
ourselves at the Democratic National Committee to eliminate any 
problems we saw at the ballot box and to recruit lawyers and 
volunteers to assist us in educating Americans of their right 
to vote.
    In the process, during the last political cycle, we heard 
from 30,000 Americans who needed our assistance and guidance in 
locating their polling places, understanding their right to 
vote by absentee ballot, early voting or provisional ballots. 
Many voters also called to express their concerns about voting 
with new technology, identification requirements and knowing 
whether or not their votes would be counted.
    The history of racial discrimination at the ballot box is 
long and it is appalling. Our electoral system is rife with 
problems, problems that can be solved and eliminated with 
proper training of election administrators, proper funding to 
educate eligible citizens on their right to vote and the 
elimination of barriers that continue to impede citizens' 
involvement in the electoral arena.
    I fully support H.R. 1281 and its companion bill in the 
Senate, because I believe this legislation, if enacted and 
implemented properly, will eliminate both partisan tactics that 
the press turn out, as well as some of the structural barriers 
that eliminate people from the voter rolls right before the 
election.
    We learned in our own experience in Ohio, following the 
2004 presidential election where we conducted a very 
comprehensive study, that 23 percent of all citizens in that 
State (44 percent of African-American voters in Ohio) waited 
more than 20 minutes to vote; 3 percent had to leave the 
polling place because of long lines; 2 percent had to go to 
more than one polling site before finding the correct location; 
6 percent of all voters (16 percent of African-Americans) 
reported experiencing some sort of intimidation at the polls; 
and 2 percent of all voters (4 percent of African-Americans) 
had trouble getting their absentee ballot or their registration 
status challenged at the polls.
    Even with the Help America Vote Act, which was supposed to 
fully eliminate some of our problems, we saw problems across 
the board in the last electoral cycle. Congressman Cardin, 
Senator Obama and many others pointed out some of these 
problems, but let me just also highlight others.
    Registered voters in Virginia, Mr. Scott's home State, 
received automated phone calls falsely claiming that voters in 
that State were removed from voter registration rolls and 
should not show up. Citizens were warned that if they showed at 
the polls, they would be arrested.
    In Arizona, Latino voters were confronted by intimidating 
gunmen who provided false information about the qualifications 
for voting in an effort to prevent eligible citizens from 
participating.
    And in 2006, we also had voters in Ohio and in Pennsylvania 
who received flyers telling them to vote on Wednesday, the day 
after election. Milwaukee voters received flyers from a 
fictitious Milwaukee Black Voter League warning them if they 
ever voted before that year, if they hadn't paid their child 
support or if anyone in their family had ever been convicted of 
anything, they should not show up at the polls.
    Students at Prairie View College in Texas were threatened 
with a $10,000 fine or 10 years in prison if they registered to 
vote at school, despite having the same rights as any other 
Prairie View resident to participate. Students at colleges and 
universities across the country complained that they had 
difficulty in casting their ballots on campus and getting their 
absentee ballots on time.
    These deceptive tactics are not new. They have become part 
of the political landscape and it is time that we outlaw them. 
Under the guise of protecting against voter fraud, we now are 
prepared to wage an even greater fraud by deliberately blocking 
eligible citizens from voting.
    The aggressive proponents of so-called ballot security 
programs have played a significant role in voter suppression, 
sending official-looking personnel, some of whom are off duty 
police officers, to polling places using misinformation and 
fear campaigns to challenge and intimidate minority voters.
    These intimidating and disenfranchising tactics have been 
employed by a wide range of political operatives, many of whom 
are prominent in their own political parties, and they, of 
course, have gotten away with it.
    Mr. Chairman, I want to submit for the record my testimony 
along with some of the reports on some of the ballot security 
programs and measures that have been instituted across the 
country and would hope that this Committee look into these 
problems so that we can eliminate them from further use in 
future elections.
    Mr. Conyers. Without objection, we will accept those into 
the record.
    [Note: A report entitled Report by the Center for Voting 
Rights & Protection, submitted by Ms. Brazile, is not reprinted 
here but a copy has been retained in the official Committee 
hearing record. This report may also be found at http://
www.votelaw.com/blog/blogdocs/
GOP_Ballot_Security_Programs.pdf.]
    Ms. Brazile. Mr. Chairman, I don't have my mother with me--
she is here with me in spirit--but I just want to say in 
closing, we have to find ways to clean up our electoral system. 
We don't have national elections; we have 51 elections managed 
and operated by 13,000 municipalities, countless local 
government authorities and volunteers. So our system is rife 
with problems, rife with misinformation that is often given 
out.
    As you well know, Mr. Chairman, there are 21 so-called 
swing States with margin of victories that are so narrow that 
these sort of tactics can change the entire outcome of an 
election.
    So the continuing problems faced by the voters at the polls 
demand action, they demand results, and I believe H.R. 1281 
will address some of these practices and finally help us clean 
up our electoral cycle so that we can have in this Nation the 
gold standard of elections that most other nations look to us 
to provide.
    Thank you, Mr. Chairman. I look forward to your questions 
and your comments later.
    [The prepared statement of Ms. Brazile follows:]
                 Prepared Statement of Donna L. Brazile
    Mr. Chairman, members of this Committee, my name is Donna Brazile 
and I am the Chair of the Democratic National Committee's Voting Rights 
Institute (VRI) and a member of the its Rules and Bylaws Committee. I'm 
honored to be here on behalf of Governor Howard Dean, Chairman of the 
Democratic National Committee (DNC).
    Many thanks for giving me this opportunity to present my testimony 
to this Committee and thank you for your leadership in the 109th 
Congress in guiding the reauthorization of the 1965 Voting Rights Act.
    While the right to vote is our most precious right and the 
cornerstone of our democracy, our government policies often fail to 
encourage voting, and by failing to adopt the principle that voter 
participation is encouraged and facilitated, the election process has 
been left open to discrimination, intimidation of those who are new to 
the process, fraud and abuse.
    Soon after the tragic death of Rev. Dr. Martin Luther King, Jr., I 
was inspired to service by committing myself to helping others register 
and vote. Although I was only nine years old at the time, I became 
excited about the opportunity to help register people in my 
neighborhood to vote by simply telling them they now had ``new rights 
on the books'' that would allow Black people to vote. Day after day, I 
would ride my bicycle all around Kenner, Louisiana--a suburb of New 
Orleans to inform people of their moral obligation to vote. I told them 
that while many of us were too young to march for voting rights, we 
needed them to register and vote in order to help improve conditions in 
our neighborhood.
    You see, one of the local leaders running for City Council had 
promised to build a playground in our area and that news gave me hope--
hope that one day we could play basketball inside because it rained 
just about every day.
    Today, after seven presidential, over fifty congressional and 
numerous state and local campaigns later, I am still out here urging 
people to register to vote, to get involved and to use their new 
political power to improve conditions in their communities. But, I must 
tell you, I am worried. I am troubled by what I have seen with my own 
eyes and what I have witnessed repeatedly in several major national 
elections--the deliberate attempt to disenfranchise and discourage 
people from exercising their right to participate in the political 
process.
    The rise in voter harassment and voter intimidation is a direct 
result of some political operatives--often with the blessing of their 
political leaders trying to gain an electoral advantage at the ballot 
box. In fact, they call it ballot security--a practice that according 
to a report written by Rice University's Professor Chandler Davidson 
and others on behalf of the Center for Voting Rights and Protection--
has its origins in the old ``Jim Crow systems.''
    This practice of discouraging people from voting, from schemes that 
misinform or challenge the electoral status of eligible citizens to 
participate should be outlawed in this nation.
    There is no place in our democracy for election practices that 
target citizens based on the color of their skin or their partisan 
affiliation. It's wrong and it should be outlawed.
    There is no place in our democracy for last minute attempts to 
purge eligible citizens just because they may vote for your opponent. 
It's wrong and it should be outlawed.
    There is no place for off duty, uniformed policemen setting up road 
blocks near polling sites that could impede the ability of eligible, 
registered citizens to cast their ballots. It's wrong and it should be 
outlawed.
    There is no place in our democracy for political operatives posing 
as reporters with cameras outside of polling places in order to 
intimidate voters prior to entering their precincts. It's wrong and it 
should be outlawed.
    There's no place in our democracy for demanding multiple forms of 
id when the law only requires one--or none. It's wrong and it should be 
outlawed.
    There is no place in our democracy for political parties to fund 
third party groups who spend their resources by putting out 
misinformation on precinct locations--or for sending out threatening 
information concerning back rent payment, child support or even telling 
voters that Election Day has been moved to the following Tuesday. It's 
wrong and should be outlawed.
    Throughout my career spanning many political campaigns and numerous 
elections at all levels, I have advocated the need for meaningful and 
effective election reform, specifically, the essential need to restore 
citizens' confidence in the electoral process and the integrity of our 
voting systems through the adoption of enforceable regulations that 
will not only reduce fraud, but will also protect the right of all 
Americans to vote free of harassment and intimidation and to ensure 
that all votes cast are properly counted.
    In signing the original Voting Rights Act, President Lyndon Johnson 
remarked that ``voting is the lifeblood of our democracy.'' The core of 
our democracy is premised upon our duty to do everything in our power 
to make voting secure, open, transparent and easier for citizens to 
participate. No one should have to pay a fee or incur hardship in order 
to exercise the right to vote.
    The Democratic National Committee's Voting Rights Institute (VRI) 
was created in the aftermath of the chaotic 2000 Presidential election 
to educate citizens on their right to vote and to help restore voters' 
confidence in our electoral system. As Democrats, we believe that every 
eligible voter should be encouraged to participate in the political 
process and that their right to vote should be protected. We condemn 
every act of voter intimidation and voter harassment.
    This past weekend, we were reminded of the continued struggle to 
fulfill the promise of our democracy, when civil rights, community and 
nationally recognized political leaders gathered in Selma, Alabama to 
commemorate the 42nd anniversary of Bloody Sunday, a day when hundreds 
of protesters fighting for civil rights started to march from Selma to 
Montgomery, but only got as far as the Edmund Pettus Bridge when they 
were met with the unprovoked brutal force of state and local law 
enforcement. This march and two others that followed shortly after led 
to the passage of the single most important piece of civil rights 
legislation, the Voting Rights Act of 1965.
    In the 42 years since the passage of this historic legislation, 
this country has seen much progress in the expression of our democracy. 
It is estimated that in the first decade alone, following the Voting 
Rights Act, more than 20 million new voters were added to the rolls. 
The number of minority elected officials at the state and federal level 
has increased significantly. Prior to the passage of the voting rights 
act, there were only 3 African American members of Congress; today 
there are 43. In the reauthorization and extensions, the Voting Rights 
Act was strengthened and expanded to provide language assistance to 
certain communities. This in turn has helped voters to participate in a 
meaningful way in our democracy.
    When President Bush signed the Fannie Lou Hamer, Rosa Parks, 
Coretta Scott King Voting Rights Reauthorization and Amendments Act of 
2006, surrounded by a bi-partisan group of lawmakers who worked 
collegially, he pledged that his administration would ``vigorously 
enforce the provisions of this law, and . . . will defend it in 
court.'' We intend to hold not only this President and Congress but 
also future Presidents accountable to ensure that our basic rights are 
protected and enforced.
    Despite considerable efforts and progress in recent decades, it is 
undeniable that storm clouds of voter intimidation still loom today. 
This is evidenced by the deliberate strategic efforts to suppress and 
harass eligible citizens from voting, especially youth and people of 
color.
    In the weeks leading up to the 2004 presidential election, the VRI 
heard numerous reports from citizens claiming that they no longer were 
on the voter rolls and had to cast provisional ballots or their voting 
precinct had changed and they were worried that they could not get to 
the right polling station. Upon hearing some of these reports, I 
traveled to numerous states including Michigan, Pennsylvania, Missouri, 
Florida and Ohio to learn firsthand what was happening and to ensure 
our voter education and protection program was providing some 
assistance to those who worried that their eligibility would be 
questioned or challenged. Still we heard problems and decided to figure 
out exactly what happened.
    We conducted a comprehensive investigative study to determine the 
nature and prevalence of the widely reported problems surrounding the 
2004 Presidential Election in the state of Ohio. Very simply, we wanted 
to know: what was going on and what did voters experience when they 
went to cast their ballots? While Ohio may have experienced the most 
extreme and widespread problems, it can be viewed as a microcosm for 
what happened in numerous states. The types of problems reported in 
Ohio were reported in other states across the country. Mr. Chairman, I 
have attached a copy of this study for your review.
    In surveys conducted for the DNC study, over half of all African 
American voters in Ohio in 2004 reported that they encountered some 
obstacles to voting at the polls. Statewide, African American voters 
reported waiting an average of 52 minutes to cast a ballot. White 
voters waited an average of just 18 minutes. African Americans were 20% 
more likely than white voters to be required to vote by provisional 
ballot, accounting for 35% of all provisional ballots in the state. 
Three-quarters of provisional ballots were counted overall in the 
state, but officials counted only two-thirds of the provisional ballots 
cast in Cuyahoga County [the city of Cleveland), a county with one of 
the highest concentrations of African Americans in the state.
    Identification requirements were illegally administered and the 
effects varied significantly by race. Only voters who registered by 
mail and voters who did not provide identification on the registration 
form were legally required to produce ID, which accounts for less than 
7% of the 2004 Ohio electorate. Fully 61% of male African American 
voters were asked for ID, and overall, African American voters were 47% 
more likely to be required to show identification than white voters. 
These racial differences hold even when controlling for residential 
mobility.
    African Americans were four times more likely than white voters to 
have their registration status changed at the polls, arriving to find 
that their names had either been purged or never added. African 
Americans were three times more likely to experience voter intimidation 
than white voters, including misinformation campaigns that threatened 
arrest and up to 10 years in jail if a person who had ever been 
arrested, had a family member arrested, or had an unpaid parking ticket 
tried to vote.
    No one should wait for an hour to vote, or be illegally asked to 
produce ID, or have to cast a provisional ballot without cause. But 
those precincts where voters have been forced to wait in line for hours 
in order to vote have historically been located in neighborhoods 
occupied by large numbers of poor people, people of color and young 
people. While many decisions, ranging from where to place polling 
sites, training election day workers and accessibility to public 
transportation, are left to local and state officials, it's imperative 
that we find ways to outlaw all forms of discrimination in the process 
of making these important decisions.
    In 2000, we heard of, and in some cases witnessed, various illegal 
schemes that prevented tens of thousands from voting and discouraged 
many more with attempts to disenfranchise citizens from voting.
    Prior to Election Day, the former Secretary of State of Florida 
authorized the purging of citizens--primarily African-American and 
Latino voters. Up to 30 percent of those purged were located in 
predominantly Democratic and minority voter precincts. My sister who 
resided in Seminole county (Orlando, Florida) called me early on 
Election Day and asked, ``How many forms of I.D. do I need to vote?'' 
My simple answer was to tell her only one. Unfortunately on that day, 
Demetria had to produce not one, nor two, but three forms of ID in 
order to vote.
    In spite of the heightened attention that voter disenfranchisement 
has received since the 2004 election, we continue to see disturbing 
illegal voter suppression campaigns. The reality is that voter ID laws 
that go beyond the requirements of HAVA disenfranchise many lawfully 
registered voters. And, they do so in a discriminatory fashion, 
disproportionately undermining the voting rights of seniors, low-income 
citizens, minorities, young people and people who live in urban and 
rural areas. Voting laws are unevenly and often improperly enforced by 
election officials.
    According to the Cuyahoga Election Review Panel Interim Report 
issued on June 14, 2006, there was a disparity in Ohio between those 
who were asked for identification: 35 percent of Clevelanders said they 
were asked for ID as opposed to 16 percent of suburban residents, and 
31 percent of African American voters were required to present ID in 
contrast to 18 percent of white voters. These findings mirror those of 
the DNC's report on the 2004 election in Ohio. The Cuyahoga report can 
be found at http://www.cuyahogavoting.org/CERP--Final--Report--
20060720.pdf.
    In October of 2006, the campaign of a Republican candidate for the 
47th Congressional District of California sent thousands of 
intimidating letters written in Spanish to voters with Hispanic 
surnames. These letters advised that immigrants could not vote and 
could be deported for doing so. The letters deliberately concealed the 
fact that immigrants who become naturalized citizens can vote just like 
any other citizen.
    In Maryland, just days before the 2006 general election, copies of 
the Election Day manual for the Maryland Republican Party were 
obtained; in that manual, Republican Party workers were given false 
information about voters' rights, were told systematically to challenge 
voters and were advised to threaten election judges with jail time. On 
Election Day in Maryland, flyers were distributed in Prince George's 
County, by the Ehrlich/Steele Republican campaign, falsely stating that 
African American elected officials had endorsed the Republican 
candidates for U.S. Senate and for Governor and misleading voters about 
the party affiliation of those candidates.
    Registered voters in Virginia and Colorado received automated phone 
calls falsely claiming they were removed from the voter registration 
rolls. Citizens were then warned that if they showed up at the polls 
they would be arrested. In Arizona, Latino voters were confronted by 
intimidating gunmen who provided false information about the 
qualifications for voting in an effort to prevent eligible voters from 
participating.
    These tactics are not new.
    In 2004 voters from Ohio to Pennsylvania received fliers telling 
them to vote on Wednesday, the day after the election. Milwaukee voters 
received a flier from the fictitious ``Milwaukee Black Voters League'' 
warning them that if they had ever voted before that year, if they 
didn't pay their child support or if ``anyone in your family has ever 
been convicted of anything'' and the voter cast a ballot that voter 
will lose his/her children and go to jail for 10 years. Students at 
Prairie View A&M University were threatened with a $10,000 fine or 10 
years in prison if they registered to vote at school, despite having 
the same rights as any other Prairie View resident to participate. 
Students at colleges and Universities across the country were forced to 
navigate an already difficult election administration system in the 
face of similar deliberate deception.
    For years, voters in Baltimore and my home state Louisiana have 
been subject to similar deceit and misinformation. As I mentioned 
before, nearly all of these tactics are focused on traditionally 
disenfranchised voters. The very Americans the Voting Rights Act is 
committed to protecting are being removed from the system through 
cynicism, deceit and misinformation.
    The continuing problems faced by voters at the polls demand 
additional election reform measures, including steps aimed at 
addressing the kind of deceptive practices, specifically intended to 
intimidate voters that we witnessed in the 2006 elections. HR 1281, the 
proposed Deceptive Practices and Voter Intimidation Prevention Act of 
2007, would represent a great step forward in outlawing theses kinds of 
abhorrent practices while protecting and respecting the rights of free 
political discourse protected by the First Amendment. We commend you, 
Mr. Chairman, and the co-sponsors of this important legislation for 
confronting head on the type of intimidating tactics we witnessed last 
fall and for carefully crafting these measures to put an end to them.
    We cannot allow another election cycle to go by where we witness 
deliberate efforts to subvert the will of voters to vote for their 
candidate of choice.
    This necessary legislation will not only provide the tools to go 
after those who want to manipulate election results but will provide 
the necessary framework to provide voters with the correct information 
from a trusted source.
    The United States has never committed itself to policies of full 
voter participation. The failure of that commitment has made it easier 
for discriminatory practices that selectively disenfranchise certain 
citizens, in order to give a greater voice to remaining citizens. Until 
participation by all eligible voters is our goal, we will leave 
ourselves open to manipulation, election scandal and suppression of 
selected groups because we are not judging those policies against a 
principle that favors participation.
    The United States of America must lead by example. While the US 
encourages other nations to adopt broad democratic principles and 
reform, we need to make a basic policy decision that it is in the best 
interest of our democratic form of government to encourage all eligible 
citizens to register and vote. We know that election laws, particularly 
in some states, emphasize voting prevention, rather than encouraging 
the participation of all citizens who have that right. That is one 
reason why voter participation in the United States is lower than that 
in many other leading democracies. By contrast, election participation 
in six states that provide same-day voter registration--Idaho, Maine, 
Minnesota, New Hampshire, Wisconsin, Wyoming--have reported higher 
levels of participation with little or no reported election fraud.
    The failure to commit to full participation continues to allow 
states and localities to abrogate the constitutional guarantees of 
democracy and selectively decide who has an easier and who has a harder 
time voting.
    Aggressive proponents of ``ballot security'' programs have played a 
significant role in voter suppression, sending ``official looking'' 
personnel (some of whom are off-duty police officers) to polling 
places, using misinformation and fear campaigns to challenge and 
intimidate minority voters. These intimidating and disfranchising 
tactics have been employed by a wide range of Republicans, many of whom 
are prominent professionals and high official standing within the 
Republican Party. Legislation requiring voter ID only assists these 
reprehensible tactics.
    Proposed and existing voter ID laws make voting more difficult for 
no compelling reason. The fact is that all voters, in all states, have 
to show identification in order to register to vote. Under the federal 
Help America Vote Act (``HAVA''), all states require first time voters 
who do not present ID when they register to vote to show it when they 
come to the polls to vote. Thus, it is given that voters who register 
by mail and those who are registered in door-to-door voter drives must 
show ID when they arrive at the polls to vote. The reality is that 
voter ID laws that go beyond the requirements of HAVA disenfranchise 
many lawfully registered voters. And, they do so in a discriminatory 
fashion, disproportionately undermining the voting rights of seniors, 
low-income citizens, minorities, young people and people who live in 
urban and rural areas. Voting laws are unevenly and often improperly 
enforced by election officials.
        closing recommendations on the need for election reform
    Let me conclude with some of the recommendations recently adopted 
at the winter meeting of the DNC to ensure a fair, transparent and 
error free election. We support legislation and regulation that 
mandates transparent election administration and that would require 
voter registration lists mandated under the Help America Vote Act be 
carefully monitored to ensure they include all voters who are duly 
registered and that the strongest possible protections are implemented 
which prevent voters from unlawful purges;
    We also support legislation and regulations that entitle any voters 
who cast provisional ballots in the 2008 federal elections to have 
these ballots counted in an equitable and inclusive manner, with a 
presumption in favor of validity and a clear mandate that provisional 
ballots shall be counted in the most generous possible manner. We 
believe that adequate funds should be made available under HAVA for 
states to effectively and equally administer the 2008 general election. 
Steps toward this goal would include the equitable distribution of 
voting equipment and supplies to all polling places and brief and 
equivalent wait times for all voters regardless of where they live, 
their race or socioeconomic status.
    The DNC also believes that ballots timely cast by eligible U.S. 
voters living overseas should be counted. Further, we call on Congress 
to allow college students greater access to the polls and ensure that 
the polls are accessible to all eligible voters, regardless of physical 
or language limitation.
    Lastly, we would like to encourage Secretaries of State and other 
election officials not to engage in partisan conduct during federal 
elections. We urge the House to adopt legislation to end voter 
intimidation and to prevent the harassment of eligible citizens from 
participating in the political process.
    Mr. Chairman, there are several bills pending in the House of 
Representatives and the U.S. Senate, including HR 1281, which, if 
adopted, will make great headway in achieving these goals. Let me say 
specifically that as a District resident, I fully support Congresswoman 
Eleanor Holmes Norton's bill, H.R. 328, which will provide for the 
treatment of the District of Columbia as a Congressional District for 
purposes of representation in the House of Representatives. The call 
for voting rights to the hundreds of thousand of tax paying American 
citizens is long overdue. I would hope this Congress, along with the 
President, will work towards its enactment and to fully embrace the 
goal of giving all Americans a voice and a vote in the governing of our 
nation.
    Mr. Chairman, I believe we can make our democracy work for all its 
citizens. In my lifetime, I have seen barriers fall. I witnessed a non-
violent revolution to allow all Americans at seat at the political 
table. In closing, please allow me to pay homage to those who dared to 
live the dream, who longed for freedom and the right to vote. When 
those brave Americans gathered at the Edmund Pettus Bridge some 42 
years ago today, all they wanted was freedom. They wanted a seat at the 
table and they wanted to register and participate in the electoral life 
of our democracy.
    Along the way, they were beaten and jailed. But they never faltered 
in their journey. They continued to fight for justice and the right to 
vote. Later that summer, they began a massive voter registration effort 
in places where people didn't even know they could, in theory, vote.
    We have come along way since then. One of those who journeyed 
across that bridge now sits in the House of Representatives. I am here 
because they marched. Because they knew the day would come for all of 
us to have a seat at the table.
    Mr. Chairman, please act to remove the remaining impediments to the 
dream of true equality for all. Remove the last vestiges of Jim Crow 
and allow every eligible citizen the right to vote, to sit at the table 
and help guide and lead this nation.
    African-Americans, Hispanics, Native Americans, Asian Americans, 
women, gays and lesbians, people with disabilities and people of all 
backgrounds sit in jobs, live in homes, and hold positions that would 
have been unthinkable four decades ago.
    To honor their legacy and the sacrifice of so many others, to live 
up to the expectation of the generations of Americans who constantly 
pushed us to realize America's full promise as a democracy, we must 
take up this fight to eliminate all barriers to electoral 
participation.
    All Americans--no matter their party--must join us in repairing the 
machine of our democracy, and the heart of our nation.
    Thank you for allowing me to participate and share my observations.
         list of sources referenced and articles in the media:

<bullet>  A Report to the Center for Voting Rights & Protection, 
September 2004 by Chandler Davidson, Tanya Dunlap, Gale Kenny, and 
Benjamin Wise ``Republican Ballot Security Programs: Vote Protection or 
Minority Vote Suppression'';

<bullet>  Associated Press, ``Democrats blast GOP lawmaker's `suppress 
the Detroit vote' remark,'' Detroit Free Press, 21 July 2004);

<bullet>  Democratic National Committee, June 2005 ``Democracy at Risk: 
The 2004 Election in Ohio'' http://www.democrats.org/a/2005/06/
democracy--at--ri.php;

<bullet>  Demos 2003, ``Securing the Vote, An Analysis of Election 
Fraud http://www.demos.org/pubs/EDR_-_Securing_the_Vote.pdf'';

<bullet>  Lawyers' Committee for Civil Rights Under Law, Report by The 
National Commission on the Voting Rights Act, February 2006 
``Highlights of Hearings of the National Commission on the Voting 
Rights Act 2005'' http://www.votingrightsact.org/report/
finalreport.pdf;

<bullet>  People for the American Way Foundation, August 2006, ``The 
New Face of Jim Crow: Voter Suppression in America''. Crowhttp://
www.pfaw.org/pfaw/general/default.aspx?oid=20203#;

<bullet>  Race and Ethnic Ancestry Law Digest 2 (Spring 1996), Rachel 
E. Berry, ``Democratic National Committee v. Edward J. Rollins: 
``Politics as usual or Unusual Politics?'' pp 42-46;

<bullet>  The Cuyahoga Election Review Panel Interim Report issued June 
14, 2006 http://www.cuyahogavoting.org/CERP_Final_Report_20060720.pdf.

                               __________

                               ATTACHMENT

CONTROVERSY GREETS EARLY VOTING

By Judy Normand/OF THE COMMERCIAL STAFF
Tuesday, October 20, 2002 12:00 AM CDT

    Early voters were met Monday at the Jefferson County Courthouse by 
poll watchers from the Republican Party of Arkansas who demanded 
identification and challenged voter ballots.
    The Democrats' ``Team Arkansas'' had barely concluded its early 
vote rally across the street from the Courthouse when the trouble 
began.
    Under the watchers' eyes, both voters and county officials received 
what they called unexpected--and unnecessary--scrutiny of the election 
process.
    Trey Ashcraft, chairman of the Jefferson County Election 
Commission, said it was obvious the Republicans' actions were targeting 
African-Americans.
    In a press release, Michael Cook, executive director for the 
Democratic Party of Arkansas, criticized Sen. Tim Hutchinson and the 
Republican Party for intimidating and harassing African-American voters 
in Jefferson County and for giving the poll watchers notarized 
credentials he said were apparently forged.
    ``Their papers did not seem to be in order,'' Ashcraft said.
    ``Tim Hutchinson and the Republican Party have claimed that they 
want to reach out to African-American voters, but when election time 
comes they have nothing to offer but intimidation and harassment,'' 
Cook said. ``We ask Tim Hutchinson and his party to stop 
disenfranchising African-American voters and obstructing the democratic 
process.''
    During Monday's voting, poll watchers were seen asking voters to 
either produce identification or risk having their ballots challenged.
    ``A voter does not have to show an ID as long as it's noted on the 
ballot,'' Secretary of State Sharon Priest said. ``They (poll watchers) 
can challenge a ballot, but they cannot ask for an ID or even talk to 
the voters.''
    Several voters received pointed requests from poll watcher Allison 
Johnson to produce identification, and refused--a right, Priest said, 
that is protected by law.
    Voter Bonita McCray also refused the ID request, saying ``When she 
insisted, I put my ID back in my purse. They had no right to do this.''
    Officials in the clerk's office said several would-be voters became 
so frustrated and offended by the process that they left without 
casting a vote. Deputy Clerk Charlotte Munson reported a poll watcher 
had actually walked behind her counter to photograph voter information 
on her computer screen.
    The watcher, she said, also asked for identification from, and then 
photographed, a first-time voter who was visibly shaken by the action.
    ``This woman (a poll watcher) was looking over my shoulder, and 
this is my business, not hers,'' the agitated voter said later.
    Poll watcher Chris Carnahan admitted a colleague had been using 
photography to document aspects of the voting process, but said he did 
advise the person to put away the camera.
    ``We're here to ensure a clean and fair election,'' he said.
    Johnson also accused a deputy clerk of not requesting IDs from 
prospective voters and said workers had no challenge ballots prepared.
    ``They refused to accept challenge ballots,'' Johnson said.
    Ashcraft said this was not true. He was unable to say exactly how 
many ballots were challenged, but said there had been ``several.''
    Ashcraft said he was disappointed in the Republican ``Gestapo'' 
tactics.
    ``They're trying to intimidate and prevent voters from 
participating in the Democratic process,'' Ashcraft said. ``The 
registered voters feel insecure and the photos are inexcusable. They 
(Republicans) know they can't win, so they're trying to steal this 
election. This is politics at its worst. They're breaking the law and 
it's disgusting.''
    At least twice, Ashcraft summoned a deputy from the Jefferson 
County Sheriff's Office to escort ``watcher'' Diane Jones out of the 
clerk's office for what he said was definite interference with the 
voting process.
    Cook said the tactics used by the Republican workers clearly 
crossed the line from poll watcher to voter obstruction.
    Marty Ryall, director of the Republican Party of Arkansas, said in 
a telephone interview that different groups of poll watchers will 
continue to be sent to the Jefferson County Courthouse each voting day 
until Nov. 5. Ashcraft countered with a promise to produce ``watchers'' 
of his own--of the Democratic persuasion.

    Mr. Conyers. Thank you so much, Donna Brazile. We are 
grateful for your being with us.
    And we now turn to Eve Sandberg, associate professor of 
politics at Oberlin College, a member of the council in her 
city, and who has carefully observed the election processes in 
Ohio in 2004 and 2006 as well.
    We welcome you. And your statement will be incorporated in 
its entirety in the record. And we are glad that you are here 
as well.

  TESTIMONY OF EVE SANDBERG, ASSOCIATE PROFESSOR OF POLITICS, 
                        OBERLIN COLLEGE

    Ms. Sandberg. Thank you, Mr. Chairman. Good afternoon. My 
name is Eve Sandberg, and I live in Oberlin, Ohio. I teach in 
the Politics Department at Oberlin College. I am also an 
elected official serving as an at-large city council in the 
city of Oberlin.
    Like many Ohioans, I was vitally involved in the election 
processes in 2004 and 2006. Thank you for the opportunity to 
offer my perspective and relate what I heard and saw happening 
in Ohio during the last few elections.
    I want to note that my comments today will demonstrate my 
view that the Republican Party leadership of Ohio involved 
themselves in practices that undermined a fair and democratic 
electoral process. However, when these activities were 
revealed, often we found that many Ohioans who were supporters 
of the Republican Party cooperated with Democrats to rectify 
what they recognized to be dishonorable electoral practices.
    My remarks today should not be construed as an attack on 
Republicans but rather on those Ohio Republicans who played 
leadership in their party's recent election and on those 
Republicans who continue to deny the irregularities and 
undermining practices that marked Ohio's recent elections.
    Regarding the registration process in Ohio in 2004 and 
again in 2006, prior to the election, the Ohio secretary of 
state's office, held by the Republican leadership, sent out 
mixed messages about voting rights. The secretary of state 
office, for example, let it be known that election officials 
would vigorously challenge out-of-State students who chose to 
vote in Ohio by requiring a photo identification card with a 
current voting address on that card. In 2004, such a 
requirement was not legal in Ohio.
    Students were not the only voters adversely affected during 
the registration process again, in 2006, by the changes of the 
requirements for voting. Poor people, the elderly who lacked or 
had given up their driver's licenses, faced disenfranchisement 
as well from a requirement that they had to produce a photo ID 
in order to vote. Few voters have photo identifications other 
than driver's licenses.
    Suppression of the vote became a campaign tactic that was 
debated in Ohio, as the Republican leadership in Ohio made the 
registration process a circus that prevented Americans who are 
entitled to vote from exercising their franchise.
    The voting processes in Ohio were undermined by 
manipulating the placement of voting machines and by unlawful 
challenges of a citizen's right to vote. Despite data on the 
number of registered voters, heavily Democratic Party areas, 
particularly precincts with large numbers of African-American 
voters or student voters, were provided with so few voting 
machines that Ohioans in these precincts had to wait hours in 
line to vote; in Oberlin, up to 5 hours. Yet we heard not one 
report that any precinct in which voters who voted largely for 
Republicans received too few voting machines or suffered hours 
of voting in line.
    However, we also heard the Republican leadership 
celebrating the enormous Republican turnout. That is just too 
curious.
    In 2006, my current colleague on the Oberlin City Council, 
David Ashenhurst became a poll worker. He reports that the 
rules on provisional ballots that were used during the training 
of poll workers did not match the manual that the poll workers 
were given. Further, on the day of the 2006 election, a 
different set of rules was distributed at polling stations. The 
obvious observation here is that if there is confusion among 
poll workers, how is a voter supposed to satisfy the rules?
    In 2006, many absentee ballots were printed 2 weeks late 
and thus delivered late. Individuals had difficulty completing 
the ballots and returning them on time. At some polling places 
in 2006, again where residents mainly voted Democratic, in 
Cuyahoga County, the machine cards were inoperable when 
inserted into voting machines on the day of the election. It 
took hours to correct the situation and therefore the voting 
polls opened late. For many voters who had made arrangements to 
vote prior to going to work, it was not possible to do so.
    If there was any silver lining to the distressing reports 
of irregular or unlawful practices, it can seen in those voters 
who were able to devote 4 or more hours to waiting in line, who 
cherish democracy enough to demand the right to vote, 
regardless of how inconvenienced they were.
    Despite the cynicism and distrust created by the actions of 
our highest Ohio elected officials, the determination, patience 
and goodwill of the American citizenry in coping with adversity 
is admirable. Now, I hope the United States Congress, after 
hearing our testimony today, will restore our faith in our 
political leadership and work to restore free and fair election 
practices in Ohio and elsewhere throughout our country.
    I thank you for the honor of including my testimony today.
    [The prepared statement of Ms. Sandberg follows:]
                   Prepared Statement of Eve Sandberg
                              introduction
    Good Afternoon. My name is Eve Sandberg and I live in Oberlin Ohio. 
I teach in the Politics Department at Oberlin College and I also am an 
elected official serving as an At-Large City Councilor in the City of 
Oberlin. Like many Ohioans, I was vitally involved with the election 
processes in 2000, 2004, and 2006. Thank you for the opportunity to 
offer my perspective and relate what I heard and saw happening in Ohio 
during the last few elections. It appears to me, and to thousands like 
me, that the election process in Ohio was undermined in so many points 
along the voting process that any fair-minded observer must conclude 
that the leadership of the party in power, the Ohio Republican Party 
leadership, used its public offices to influence the outcomes of the 
elections in Ohio through irregular and unlawful practices.
    Before I begin my testimony today I would like to contextualize my 
remarks with a few preliminary comments. The electoral contests in Ohio 
over the last six years have been bitterly partisan. I believe, 
however, that ensuring fair and free elections is a bipartisan 
responsibility and that addressing the reprehensible flaws in our 
electoral practices is a task that must be undertaken by the political 
leaders of all our political parties.
    I want to note that my comments today will demonstrate my view that 
the Republican Party leadership of Ohio involved themselves in 
practices that undermined a fair and democratic electoral process. 
However, when these activities were revealed, often we found that many 
Ohioans who were supporters of the Republican Party cooperated with 
Democrats to try to rectify what they recognized to be dishonorable 
electoral practices. My remarks today should not be construed as an 
attack on Republicans, but rather on those Ohio Republicans who played 
leadership roles in their party's recent elections and on those 
Republicans who continue to deny the irregularities and undermining 
practices that marked Ohio's recent elections.
    I also would like to note that, while living in Ohio, I am a strong 
Democratic partisan. Yet, when I first began to vote, I remember 
casting some of my first votes for Republican Senator Clifford Case of 
New Jersey and also for Gubernatorial Republican candidate, Richard 
Cahill, also of New Jersey. Additionally, my mother volunteered in the 
campaign for, and stuffed envelopes for Mr. Cahill. I come from a 
family that was comprised of classic swing voters. My brother, Mark, is 
a thoughtful voter who votes for the best possible candidate. My father 
voted for Senator John F. Kennedy in 1960, but he later voted for 
Presidential candidate, Richard Nixon. My father was an immigrant to 
this country and my mother grew up in an immigrant family. My family 
has always viewed democracy and democratic practices with the utmost 
respect.
    I also want to note that as a Politics professor and as a political 
consultant, I sometimes find myself abroad explaining the virtues of 
multi-party politics and democratic institutions. For example, in 2001 
and again in 2002, I had the privilege of traveling to the Muslim 
Kingdom of Morocco with a team led by Seattle political consultant 
Cathy Allen. In Morocco we met with the Executive Boards of Morocco's 
political parties to discuss strategies of targeting and messaging as 
the Moroccan party leaders prepared to contest their first free and 
fair elections. Our team also trained about 120 Moroccan women who 
hoped to run for parliament because Morocco's electoral laws for women 
had recently changed. It pains me greatly as an American when I 
encounter foreigners overseas who offer their comments on the reported 
electoral corruption in the United States. Such reports support cynical 
anti-Americanism around the world. Over the years, I have learned that 
one of the best means by which the United States can promote democracy 
abroad is to lead by example. Acknowledging the flaws in our election 
processes and fixing our electoral system is a job that is in the 
interests of all Americans, both Democrat and Republican. My remarks 
today should be taken by fair-minded Republicans as well as by 
Democrats to mean that we must put our electoral house in order at home 
if we wish to model democracy abroad.
    Now let me tell you a little bit about what I saw and heard in 
Ohio's recent elections in 2004 and 2006. Sadly, I report that to 
someone like me in a small town in Ohio, it appears that every aspect 
of the election process was undermined by a Republican Secretary of 
State's office and by many in his employ: the registration process, the 
actual voting process, and the checks and balance procedures that are 
supposed to occur with bi-partisan participation after any election.
                        the registration process
    Let me begin with the registration process. We all know that 
pollsters have learned that college students on certain campuses, 
African Americans, and women, tended to vote in greater numbers for 
Democrats than for Republicans. If elections were being closely 
contested, it makes sense that if Ohio's Republican leadership could 
eliminate--or suppress--the vote of these target voting groups by just 
a percentage point or two, Republicans might be able to squeak out a 
victory that otherwise they could not earn in a legally and fairly 
contested race.
    We know that the courts had ruled that college students are legally 
permitted to vote in the states in which they reside while attending 
college. Obviously, the only rule is that students can only vote once. 
If they vote in the state in which they are students, they cannot vote 
absentee in their home states. However in Ohio in 2004 and again in 
2006, prior to the election, the Ohio Secretary of State's office held 
by the Republican leadership sent out mixed messages when our students 
at Oberlin College inquired about their voting rights. The Secretary of 
State's office let it be known that election officials would vigorously 
challenge out-of-state students who chose to vote in Ohio by requiring 
a photo identification card with a current voting address on that card. 
In 2004, such a requirement was not legal in Ohio. Yet due to the 
confusion surrounding that rule, many of our out-of-state students 
worried as to whether or not their votes would be counted in Ohio. 
Student college photo identifications lack home addresses because 
students move around from dorm to dorm or to off-campus housing. In 
2004, there was so much confusion about this issue, despite the law 
clearly stating that students had the right to vote in communities 
where they lived and attended college, that Oberlin College President 
Nancy Dye created a task force to discuss how to inform students of 
their voting rights so they would not be disenfranchised. Eventually, 
Oberlin College distributed a written guide to Oberlin College 
students. However, some out-of-state students at Oberlin College and 
probably many at other colleges throughout Ohio chose not to register 
in Ohio because they feared their vote would not be counted. Others 
were so confused that they did not register in Ohio and then learned 
that the deadline at home had passed for absentee voting in their home 
states. In 2004, these students were disenfranchised by a Republican 
Secretary of State.
    It is not the responsibility of Presidents of Colleges and 
Universities to publish documents that clarify and defend the rights of 
their students to vote in a free nation. Ohio boasts over 130 colleges 
and universities. How many thousands of students were affected, one can 
only wonder. Additionally, it seems that the confusion did not just 
affect students but also affected poll workers who, as I will discuss 
shortly, tried to enforce rules that did not exist, thus preventing 
some students, African Americans and other citizens from voting when 
they were legally entitled to do so.
    In 2006, the Republican leadership managed to put a photo 
identification requirement on the books in the final campaign period, 
causing enormous confusion prior to the election. Members of the League 
of Women Voters had trouble finding the rules as they struggled to 
write and publish their voting guides. One of my student advisees, 
Colin Koffel, hoped to publish a guide to voting procedures for 
students in one of our campus newspapers. Despite calling the Secretary 
of State's office at various times prior to the election, this student 
had difficulty getting the Secretary of State's office to identify any 
rules until the very last days before the election.
    Students were not the only voters adversely affected during the 
registration process by changes in the requirements for voting. Poor 
people and the elderly, who lacked or had given up their driver's 
licenses, faced disenfranchisement as well from a requirement that they 
had to produce a photo identification in order to vote. Few voters have 
photo identifications other than driver's licenses. ``Suppression of 
the vote'' became a campaign tactic that was debated in Ohio as the 
Republican Leadership in Ohio made the registration process a circus 
that prevented Americans who are entitled to vote from exercising their 
franchise.
                       the voting process itself
    The voting processes in Ohio were undermined by manipulating the 
placement of voting machines and by unlawful challenges of a citizen's 
right to vote. Despite data on the number of registered voters, heavily 
Democratic Party areas, particularly precincts with large numbers of 
African American or student voters, were provided with so few voting 
machines that Ohioans in these precincts had to wait four, five, six, 
seven or more hours in line to vote. Yet, we heard not one report that 
any precinct in which voters voted largely for Republicans received too 
few voting machines or suffered hours of waiting on line. However, we 
also heard the Republican leadership celebrating the enormous 
Republican turnout. Curious.
    The lines for voting in 2004 were so long that, as one of my 
students, Frances Zlotnick, reported to me, she witnessed women with 
young children who came up to the line, looked at its length and said, 
``I can't believe this. I want to vote, but I can't stand here for 
hours with these kids.'' We all know that women in a largely Democratic 
community are likely to vote Democratic. Not providing sufficient 
voting machines appeared to be a deliberate tactic to disenfranchise 
Democratic voters, including women with children.
    Professor Sandra Zagarell of Oberlin College's English Department 
was trained as a Kerry for President Democratic Party Challenger and 
assigned to one polling station in Oberlin for the entire voting day. 
She observed the voting process from 6:30 A.M. to 10:00 P.M. Professor 
Zagarell reported that her polling station had lines of over three 
hundred people and the wait at times lasted five hours. I have included 
with my written testimony Professor Zagarell's letter to the Oberlin 
Review the week of the 2004 Presidential election as Appendix A.
    Early in the morning on election day 2004, when Professor Zagarell 
realized that there were too few voting machines she attempted to call 
the Secretary of State's office to request more machines. The line was 
busy or no one answered. Repeatedly, the line was busy or no one 
answered. Believing that I might have more information about what to do 
and how her polling station might secure more voting machines, 
Professor Zagarell phoned me. I was in a suburban (exurbia) voting 
location and I, too, had been trained as a Kerry Democratic Party 
Challenger. When she called she was distressed. Some voters were 
leaving the polls as they had to go to work or attend classes. Oberlin 
has a substantial retirement community and people who are in their 
seventies, eighties or nineties cannot simply stand for four to five 
hours so that they can vote. She realized that many of the elderly in 
our community could lose their right to vote. I replied that all I knew 
was to call the Secretary of State's office, which, of course, was 
Republican controlled. I said I would try to call on my cell phone on 
her behalf and we would hope that one of us would get through. In the 
suburban polling place to which I was assigned, most of the time there 
were no lines and empty machines. Infrequently, in this suburban 
polling place, a voter had to wait for another voter or two in front of 
him or her. I placed a call to the Secretary of State's office. It was 
busy. I turned to my Republican counterpart, a gentleman who was a Bush 
Republican Party Challenger. We had been speaking throughout the 
morning and realized there was no need to demonize one another; we both 
just wanted a fair election. When I told my counterpart the problem, he 
said to me, I'll call the Secretary of State's office. I skeptically 
replied, ``I don't think you'll get through.'' His reply was telling. 
``They gave us our own number,'' he told me. He got through on the 
first try. I was stunned as I realized that the Republicans had a 
system to assist their party from the Secretary of State's office. 
American citizens who were Democrats could not expect equal treatment 
under the law.
    Another colleague of mine from Oberlin College, Psychology 
Professor Karen Sutton, was a Kerry Democratic Party Challenger 
assigned to Maple Heights, Ohio in the 2004 election. Her polling place 
had a substantial African American voting population. The poll workers, 
however, were white. Although Ohio law prohibits campaign signs 100 
feet outside of a voting place, signs are often posted just beyond that 
point. The poll workers at this church forbid any Democratic signs from 
being posted on church property but allowed Republicans to post their 
signs beyond the 100 foot mark. Inside the church, these official poll 
workers were no less biased. There was no legal need for a photo 
identification until the 2006 election but as Professor Sutton learned 
in 2004, when she walked away from the voting check-in table, a poll 
worker would ask any African American potential voter for a photo 
identification. If Sutton was attending to one voter explaining that it 
was his or her right to vote without the requested photo identification 
and looked over and saw a new challenge occurring at the check-in 
table, when she rushed back to the table, the poll worker pretended he/
she had not made such a request. The poll workers were trained by 
Ohio's Republican Secretary of State.
    One incredibly troubling allegation was reported to me the day 
after the election. A male Oberlin College student came up to me and 
said that he was told I would know what to do with his information. He 
had been sent with a few other Oberlin College students to leaflet at 
Kent State University. The precinct to which he was assigned was using 
punch card ballots. A punch card has a multitude of holes in it and you 
place it into a voting booth underneath a ballot that has candidate 
names listed on the ballot. The voter uses a ballot punch to punch a 
hole next to the names of each candidate for whom he or she votes. The 
voter sees the ballot hole and generally does not pay attention to the 
punch card below the ballot on which the vote is being cast by making a 
hole on the punch card when the ballot punch goes through to the card 
below. Voters generally do not pay attention to their punch cards 
because the cards have no writing, only holes on them. After punching a 
ballot, the voter just places the card through the slot of a closed 
voting can or box.
    This young man reported that a number of Kent State students came 
up to him and claimed that their punch cards were pre-punched for 
President Bush. If they voted for John Kerry, they would have had two 
Presidential punches on their card and their ballot would be spoiled; 
none of their votes would count. If they voted for President Bush, they 
would just make the hole already punched for Bush on their punch card a 
bit larger. Their ballot would not be spoiled and all their votes would 
be counted. I asked the male student if he took down the names of any 
of the Kent State students with whom he had spoken. He said he had not. 
I told him I was not certain what he could do. He should call the 
Secretary of State's office and he should call the Democratic Party. 
Stupidly, I did not take down his name. It never occurred to me that I 
might be sitting here today.
    Many other troubling occurrences were reported as well. David 
Ashenhurst, a volunteer on election day in 2004 and currently an 
elected member of Oberlin City Council, reported that poll workers 
enforced illegal rules concerning when a person could vote if the voter 
had moved since the last election. In fact, questions about whether, or 
if, people were allowed to vote, vote provisionally, or vote in another 
precinct were contested all day. There were countless reports that in 
voting places with large numbers of Democratic voters the voting 
officials misconstrued the rules for provisional voting. Yet, if the 
rules were not followed as legally stipulated, a citizen's provisional 
vote was disqualified at the County Board of Elections or wherever else 
the provisional votes were tallied. Ms. Palli Holubar, another Oberlin 
volunteer on election day 2004, worked during the election and 
afterwards helping to trace whether or not an individual's provisional 
vote was ultimately counted. Across the state of Ohio, it was clear 
that many provisional votes were not ultimately counted and it was 
difficult for individuals to determine if they had been given correct 
information or misinformation that then resulted in their vote being 
disqualified. Ms. Holubar, who became a bit of an expert on provisional 
voting, reported that the procedures used by the Secretary of State 
offered voters with provisional ballots no confidence in our electoral 
system.
    In 2006, David Ashenhurst (noted above) became a poll worker in an 
effort to be able to offer authoritative and correct information to 
voters. However, he reports that the rules on provisional ballots that 
were used during the training of poll workers did not match the manuals 
that poll workers were given. Furthermore, on the day of the 2006 
election, a different set of rules was distributed at polling stations. 
The obvious observation here is that if there is confusion among the 
poll workers and the rules are changed in the final hours prior to 
voting, how is a voter supposed to satisfy the rules and act in a way 
that protects his or her right to vote. Should a citizen who recently 
changed an address go to his or her old precinct where that person is 
on record, or should that person go to the new precinct? How many days 
prior to an election can a voter have moved without having to re-
register? Should a voter with such a question even attempt to vote?
    A great number of Ohio voters decided to vote absentee in 2006 in 
order to avoid lines and also in the hopes that absentee ballots would 
be less likely than provisional ballots to be disqualified. However in 
2006, many absentee ballots were printed (about) two weeks late and 
thus delivered late. In Oberlin, for example, absentee ballots arrived 
while students and faculty were on their fall break with many away from 
campus. These individuals had difficulty completing the ballots and 
returning them in time so that their ballots could be counted in the 
election.
    In 2006, there were also concerns in Ohio that parts of the state 
voted electronically with no paper trail to record the voting. In other 
parts of the state citizens voted electronically and the voting 
machines kept paper records. Still other Ohioans voted on punch cards. 
Professor Candace Hoke, a Cleveland State Law Professor and Director of 
the Center for Election Integrity, is also a member of the Republican 
Party. Professor Hoke has devoted much time to investigating Ohio's 
voting alternatives and also its professional staff of poll workers. In 
addition to worrying about voting machines without proper paper trails, 
Professor Hoke has worried about finding ways to get younger people to 
work as poll workers on election days. Professor Hoke's concern is that 
many poll workers are older, often retired citizens, who may be 
uncomfortable with assisting voters on electronic machines or with 
learning how to handle machine cards and other electronic related 
procedures. The practice in Ohio of hiring unemployed workers without 
sufficient screening to staff some polling places is also a concern. 
Ohio Democrats are particularly concerned when we read in the 
newspapers that such individuals are being assigned largely to polling 
places where the residents vote in large numbers for Democrats. If 
mistakes are made, we know it is likely to be Democratic votes that are 
disqualified.
    At some polling places in 2006 (again it seemed to be polls where 
residents mainly voted Democratic, such as in Cuyahoga County), the 
machine's cards were inoperable when inserted into the voting machines 
on the day of the election. It took hours to correct the situation and 
therefore the voting polls opened late. For many voters who had made 
arrangements to vote prior to going to work, it was not possible to do 
so.
    Just as negative advertising has made an unwelcome entry into 
American campaigns, so ``suppression of the opposition's vote'' by the 
leadership of the Ohio Republican Party and perhaps even voter theft 
now has entered election practices. And in the follow-up to elections, 
recounts are supposed to be open and transparent, but in Ohio we 
learned that this was far from the case.
          the checks and balance procedures after the election
    Following the 2004 election of Bush vs. Kerry, I was contacted by 
so many distraught citizens that I rented a community center room in 
the City of Oberlin and held a meeting. On short notice, about 85 
people attended. That day we heard many accounts of irregularities. We 
created an informal electronic listserve to report ongoing information 
concerning election practices. We also swapped information about 
recount efforts.
    A posting by one of our listserve contributors forwarded an email 
from a Richard Hayes Phillips who reported that in ``Warren County, the 
administrative building was locked down on election night, all in the 
name of homeland security.'' No independent persons were allowed to 
observe the vote count.
    Several members of our group of 85 volunteered to be official 
representatives of the Democratic Party in the recount efforts to see 
that fair tallies of votes had been reported. They were not always 
successful in their efforts. An email message from Damen Mroczek 
reported that: ``The meeting (scheduled for 9:00) didn't get underway 
until 9:35, at which point the Board came out. . . . We were 
particularly upset that the ``random'' precinct selection had already 
been completed . . .''
    Which precincts are selected for quality control recounts can be 
critical for the outcome of a recount. Obstructing openness and 
transparency in how recount precincts are chosen jeopardizes the 
legitimacy of an electoral outcome.
    Others reported that the poll workers were not allowing those 
viewing the recounts to be close enough to actually see for themselves 
each vote and to make certain that each vote was being allocated to the 
correct party during the recount. If this is true, such recounts cannot 
provide the information that they are intended to provide. Certainly, 
such recounts cannot confirm an election outcome or support the 
legitimacy of our electoral process.
                               conclusion
    For those of us who have lived through Ohio elections over the past 
six years, it is hard not to conclude that every step of the election 
process was undermined by a Republican Secretary of State's office and 
by many in his employ: the registration process, the actual voting 
process, and the checks and balance procedures that are supposed to 
occur with bi-partisan participation after any election.
    As an American who travels abroad and is frequently called upon to 
testify to the benefits of multi-party politics, it pains me that the 
leadership of the Ohio Republican Party has systematically found ways 
to undermine fair and free elections in our state. I know that when 
average Ohio Republicans are witness to such activities, they do the 
right thing. But apparently, the Republican leadership has such a stake 
in governance, that it has not done the right thing in our recent 
elections.
    If there is any silver lining to the distressing reports of 
irregular and/or unlawful practices at every stage of the voting 
process, it can be seen in those voters who were able to devote four or 
more hours to waiting in line and who cherished democracy enough to 
demand their right to vote regardless of how inconvenienced they were. 
These citizens could not prevent the suppression of the vote or having 
the vote taken away from their fellow citizens. What they could and did 
do, however, was to patiently wait their turn, to move the elderly 
(those had not seen the enormous lines and driven away) up to the front 
of the line so the older voters could vote quickly and then sit down or 
go home. In Oberlin, school children showed up at the polls to walk up 
and down the lines giving away the Halloween candy that they had 
collected on October 31. Oberlin College students alerted local 
merchants concerning the lines and requested assistance. A number of 
local merchants provided food. Lorenzo's Pizza sent over free donated 
pizza pies to help those on line to take the edge off their hunger. Our 
student dining coops donated food from their kitchens. People walked 
the long winding lines providing water bottles. Our former Congressman, 
now Senator Sherrod Brown, visited Oberlin and brought with him water 
bottles to distribute as well as encouragement and thanks.
    I am attaching to this testimony two letters to the editor written 
by Oberlin poll watcher Sandra Zagarell (whose letter I already noted 
above as Appendix A) and Oberlin Mayor Daniel Gardner (whose letter 
constitutes Appendix B) congratulating the citizenry on their 
dedication and public spirit. As Ms. Zagarell notes, Oberlin College 
students deserved high commendation. They came as individuals but 
became an improvised community to help one another through the long 
hours on line to vote. They allowed the elderly or ill to go to the 
front of the line. Mayor Gardner's letter also praises Oberlin voters, 
concluding: ``God, I love our town. You have restored my faith.''
    Despite the cynicism and distrust created by the actions of our 
highest Ohio election officials, the determination, patience, and good 
will of the American citizenry in coping with adversity is admirable. 
Now, I hope that the United States Congress, after hearing our 
testimony today, will restore our faith in our political leadership and 
work to restore free and fair election practices in Ohio and elsewhere 
throughout our country.
    I thank you for the honor of including my testimony today.
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Conyers. I thank you so much, Professor Sandberg.
    Ladies and gentlemen of the Committee, witnesses, this 
hearing has been unusual, in my mind, because we have had 
literally no discussion of the responsibility of the Department 
of Justice's Civil Rights Division, the voting section, which 
to me can play such a very huge role in this, Mr. Neas.
    And I want to put this on the record that I have had 
conversations with the Attorney General Gonzalez who has 
indicated a willingness to consider the issue raised by the 
House Committee on the Judiciary, and this is the one that I 
put forward first.
    It has been my impression, and I have raised this issue in 
my visits to the Department of Justice last year, that we have 
very little oversight and investigation of these complaints 
that are made. They almost go into a deep hole, never to be 
really dealt with.
    And that it is critical that we have two things coming out 
of our government and particularly DOJ and that is, one, that 
we affirmatively encourage everybody to vote and make it as 
simple as possible; two, that we effectively monitor 
complaints, violations and allegations that go to the heart of 
debilitating and crippling the voting process in this country.
    And I would like to have on the record your observations of 
what we should be doing and could be doing to stimulate the 
Department of Justice in that direction.
    And I will start with Ralph Neas.
    Mr. Neas. Mr. Chairman, since my work with Senator Edward 
W. Brooke, a Republican from Massachusetts, and David 
Durenberger, a Republican from Minnesota, I have had much 
experience from the congressional side looking at what Justice 
has been doing and of course with my years with the Leadership 
Conference and Civil Rights Office, being now with People For 
the American Way.
    I must tell you, there have been some bad periods of time. 
I can think of the Brad Reynolds years at the Department of 
Justice under Ronald Reagan when a Republican-controlled Senate 
Judiciary Committee would not promote him to associate counsel 
because the Department of Justice made every effort to 
undermine the enforcement of our civil rights laws. And I am 
afraid this Department of Justice over the last 6 years has 
compiled an astonishingly bad record in virtually every area of 
civil rights laws.
    But of all the areas that they should take most seriously 
it is the area of voting rights, and I would hope perhaps this 
legislation can serve as a catalyst for more effective work by 
the Department of Justice, because with respect to deceptive 
practices and intimidation of voters, it compels the Department 
of Justice to do something, to start investigating, to enjoin 
statements or practices that are intentionally and knowingly 
committed. It makes them an active participant.
    And I have talked before about election protection. We had 
35,000 American citizens volunteer to go into 3,500 precincts 
over the last couple of elections to make sure that we were 
monitoring what was happening in terms of voter intimidation 
and mistakes and lack of education. That should not be the 
responsibility of the non-profit community.
    The Department of Justice should be leading on this issue, 
and, unfortunately, in 2000, it was a whitewash with respect to 
Florida, with respect to much of what happened in 2004 in Ohio, 
what happened in Maryland and Virginia over the last year with 
the robo calls, the other kinds of deceptive practices.
    What did the Department of Justice say: ``We are not going 
to investigate.'' It pretty much is close to malfeasance, as 
far as I am concerned, in terms of what they should be 
responsible for, what they should be doing. And I hope the 
attorney general will work with you to enact this legislation.
    Mr. Conyers. Well, it may require a more specific hearing 
from the Committee on Judiciary on these unacted-upon 
allegations, separate and apart from this legislation, as 
important as it really is.
    Mr. Neas. I would hope such hearings occur in the very near 
future. I am sure that both the Democrats and Republicans would 
like to get the Department of Justice up to address the civil 
rights issues and many others they have responsibility for, 
and, quite frankly, I do not think they have been enforcing the 
law in many areas but especially in the Civil Rights Division.
    Mr. Conyers. Thank you.
    Ms. Brazile. Mr. Chairman, Ralph mentioned non-profit 
organizations and organizations such as his, but just imagine 
the amount of money it costs for both parties to have to deploy 
thousands of lawyers across the country to train poll watchers 
to put out correct information when if we had our government 
and our Justice Department committed to fully enforcing the 
law, we wouldn't have to appropriate this type of money for 
political expenditures.
    So, it would help us also on the political side if the 
Justice Department got involved and intervened and ensured that 
there is no hanky panky at the ballot box.
    I mean, it has gotten outrageous. I have been involved in 
politics since I was 9. I know that is a little younger than 
most people, but in Louisiana, we got involved early. Right 
after the assassination of Martin Luther King, I felt compelled 
to go out there and go bicycle to bicycle urging people to 
vote. Why? Because we were promised a playground.
    Today, many young people don't want to get involved and get 
out to register people, because the barriers have been set up. 
They have been told in some cases that if they submit a name 
and misspell it as incorrect, they could go to jail. So it is 
becoming harder and harder to get people involved and to get 
people excited about our electoral process where we have set up 
all of these impediments.
    Mr. Conyers. Thank you so much.
    I turn now to the Ranking Member of the Judiciary 
Committee, Lamar Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Chairman, first of all, I would like to ask unanimous 
consent to put the testimony of Mr. Fund in the record, as well 
as three other reports.
    Mr. Conyers. Without objection, so ordered.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Neas, out of the utmost respect for your mother who is 
sitting 10 feet from you, I am not going to ask all the 
difficult and pointed questions I had in mind. However, I would 
like to read into the record a description of what the 
Department of Justice has been doing in the area that is under 
discussion today.
    Mr. Chairman, in 2002, the Justice Department announced an 
initiative in which it required that all components of the 
department to place a high priority on the investigation and 
prosecution of election fraud. As of last year, 195 election 
fraud investigations were currently pending throughout the 
country. As of then, and since the start of the initiative, 119 
people were charged with election fraud offenses and 86 
individuals have been convicted.
    In Missouri, the Justice Department is conducting an 
investigation because the State's voter rolls, in some cases, 
have 150 percent of the voting age population listed on the 
voting rolls.
    So the Department of Justice I am sure can do more but at 
least they are taking good initiatives to try to address the 
serious problem of voter fraud.
    Also, Mr. Neas, you mentioned the robo calls. There are 
probably enough misused robo calls on both sides of the 
political aisle to bear investigation. Now, I hear about those 
where Republicans are being targeted, no doubt you hear about 
those where the Democrats are being targeted. But, clearly, 
they are overdone and can be investigated at the appropriate 
time.
    Ms. Brazile, first of all, I want to compliment you. I have 
enjoyed reading your columns over the years, and I have always 
found them particularly insightful. There are a lot of people 
that charge good money for the good advice you give, but I do 
enjoy reading your perspective on politics.
    Let me ask a question and direct it toward you, Ms. 
Brazile, and this is based upon the Carter-Baker commission 
report I think that you are familiar with. Among their findings 
was that Florida has more than 140,000 voters who apparently 
are registered in four other States.
    That is an astronomical figure for duplicate registrations, 
in my judgment. By the way, that includes 64,000 who are 
registered not only in Florida but in New York City alone. More 
than 2,000 people voted in more than one State in the last 
election, clearly something that we should be concerned about.
    The Carter-Baker commission elaborated and said this is 
what their proposal was and this is what I want to ask you 
about. They said, ``We propose a uniform system of voter 
identification based on the Real ID card or an equivalent for 
people without a driver's license. There is likely to be less 
discrimination against minorities if there is a single uniform 
ID than if poll workers can apply multiple standards.
    Don't you think that a uniform identification requirement 
would, in fact, reduce discrimination against minorities at the 
polls?
    Ms. Brazile. Thank you, sir, for your excellent question.
    First of all, let me just say that I support a requirement 
that forces States to have a uniform statewide voter 
registration list that can be verified and also, from time to 
time, cleaned at an appropriate moment, giving citizens the 
right to appeal if they have been selectively purged. So I 
support a uniform cleaning.
    Look, right now, I think political parties maintain a 
better voter registration list than State parties, so I support 
that. And we have duplicates all over the place, because many 
States, quite frankly, don't have the resources required to 
clean up their electoral rolls after election.
    In terms of the restricted ID requirements, in my judgment, 
that is more likely to disenfranchise people of color, the 
elderly, individuals with disability, rural voters, young 
people, the homeless, low-income people, frequent movers and 
persons in large households. I don't support the Real ID 
requirement, because I do believe that there is a chance that 
it can discriminate. Twenty million Americans do not have any 
form of State-issued ID. Most, perhaps a large majority, do not 
have it because they lack the resources to be able to obtain a 
State-issued ID.
    I also found that the ID requirements that are sometimes 
called for in some of these States apply differently in 
different populations. My own sister who resides in Florida, I 
don't know if she is in Mr. Feeney's district, I think she has 
moved, but in Florida, in 2000, I will never forget the call. 
She called me and said, ``How many forms of ID do I need to 
vote?'' and I said, ``One.'' I mean, at the time, it was one. 
She had her driver's license, she had her voter registration 
card, and she had to produce a utility bill.
    So I do not support these restricted ID requirements that 
often discriminate against people of color.
    Mr. Smith. Ms. Brazile, let me interrupt you and squeeze in 
one more comment here. You, yourself, admitted, though, that we 
have problems with voter registration lists. Wouldn't a uniform 
identification obviate the need to rely upon these very flawed 
voter registration lists?
    Ms. Brazile. Well, 42 percent of Americans who registered 
to vote in 2004 obtained their voter registration status at a 
government facility, so they had to show a form of ID in order 
to vote. So this is a duplicate requirement again. In certain 
States, some people say, ``I need your library card,'' some 
say, ``I need your voter registration card.'' And as long as we 
have 20 million Americans, many of them elderly, many of them 
poor, without any form of State-issued ID, I am opposed to 
these real ID cards.
    Mr. Smith. Okay. Well, I am not going to convince you 
otherwise, but it seems to me that all the examples you just 
gave points exactly to the need for one uniform identification 
where you don't have all these other types of identification. I 
think it would simplify the process, and, as individuals have 
testified, it would also reduce discrimination. I think that is 
just an honest difference of opinion.
    Ms. Brazile. If it is not another form of a poll tax, sir, 
if we can ensure that every American has access to that form of 
ID and it is not another barrier to participation, maybe we 
could find common ground.
    Mr. Smith. Good. If we could get past the financial cost.
    Ms. Brazile. Open up your wallet, I might open up my heart.
    Mr. Smith. I am going to take you up on that common ground 
comment.
    Ms. Brazile. All right, sir. Thank you.
    Mr. Smith. Thank you, Ms. Brazile.
    I yield back, Mr. Chairman.
    Mr. Conyers. Mr. Robert Scott, Virginia?
    Mr. Scott. Thank you, Mr. Chairman.
    And I thank all of the witnesses for their testimony.
    Let me just start with a quick question to Mr. Neas. This 
bill only prescribes communications that are false and designed 
with a specific intent to deny someone the right to vote. There 
is no constitutional right to defraud people. Do you see any 
free speech implications in this legislation?
    Mr. Neas. Mr. Scott, when we first started working on the 
bill, this issue came up, of course, immediately, because we 
are not only a civil rights organization but also a civil 
liberties organization. But I think this bill has been 
carefully crafted. For me, there is no doubt that Congress has 
a compelling interest in protecting the integrity of elections 
and the right to vote by ending these kinds of deceptive 
practices.
    I think very importantly, the standards that you chose, 
that Chairman Conyers and Senator Obama chose, that it has to 
be knowingly and intentionally deceiving the voters, creates a 
very high standard that has to be met.
    Mr. Scott. And not only false but with the intent to 
defraud someone out of their vote.
    Mr. Neas. Exactly.
    Mr. Scott. Okay. Thank you.
    Ms. Brazile, there is an old saying about the cure being 
worse than the disease. We have heard of a handful of people 
who might be getting onto the rolls improperly. You kind of 
alluded to this in your previous testimony and answers.
    Comparing the handful that are getting on illegally, do we 
have any measure of how many people might not vote because 
their health department didn't complete the paperwork in time 
for the election to give them a birth certificate or how many 
people might not vote because they couldn't come up or didn't 
want to come up with the $20 that it might cost to process all 
this stuff?
    Do we have any estimate of the number of people who may 
lose their right to vote if we initiate some of these Real ID 
requirements?
    Ms. Brazile. Well, you know, there is an old saying that 
you have a greater chance of being hit by lightning than 
finding large evidence of voter fraud. The truth of the matter 
is, is that we know from our study that 3 to 5 percent of 
Americans were impacted by some of these illegal schemes and 
tactics used to suppress turnout--fake monitors, assigning off-
duty policemen at various polling sites, sending faulty voting 
machines into certain precincts.
    So while I don't have the honest number in terms of the 
millions of Americans, but we do know that it impacts between 2 
to 5 percent of Americans.
    Mr. Scott. Okay. But there is no question that the number 
of people who would not be able to vote who should be able to 
vote would certainly be more than the handful of people 
nationwide that illegally get onto the polls. So the cure, in 
fact, would be worse than the disease.
    Ms. Brazile. Absolutely, sir.
    Mr. Scott. Now, with this cure being worse than the 
disease, there are certain groups that would be 
disproportionately impacted. I think you gave a list of people. 
Is it clear that this would have a disproportionate impact on 
certain groups? Obviously, if people can't vote because they 
can't come up with $20, obviously that would have a 
disproportionate impact on low-income Americans.
    Could you read that list again of those who, if you enforce 
all this Real ID, which groups might be adversely affected?
    Ms. Brazile. In 2001, the National Commission on Federal 
Election Reform recognized that between 6 and 10 percent of 
Americans do not have any form of State-issued photo ID 
driver's license.
    And in the State of Georgia--I was listening to one of the 
earlier questions of Senator Obama--according to the Georgia 
chapter of AARP, 30 percent of Georgians over 75 do not have a 
driver's license. So across the country more than 3 million 
Americans with disabilities do not have a driver's license or 
State-issued photo ID. And, of course, for minorities and in 
poor communities and certain rural communities, the numbers are 
even higher.
    Mr. Scott. Now, if you don't have identification now, would 
the number of people who would not be able to complete the 
paperwork to identify themselves be greater or fewer than the 
people that might sneak on the rolls illegally?
    Ms. Brazile. There is no question, it would be greater, 
sir.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Conyers. Thank you, sir.
    Steve Chabot, Cincinnati, Ohio?
    Mr. Chabot. Thank you, Mr. Chairman.
    As the Chairman knows, I was tasked with the responsibility 
in the last Congress as the Chair of the Constitution 
Subcommittee to help to shepherd the Voting Rights Act through 
the last Congress, and we worked in a very bipartisan manner 
and got the job done. So I think my credibility relative to 
voting rights is well-known, at least among the Members of this 
Committee.
    Some of the allegations relative to Ohio I have to admit, 
professor, we disagree, and I do thank you for your testimony; 
however, I believe there is no right more fundamental than the 
right to vote and that protecting the integrity of the 
electoral process to ensure fair and free elections is critical 
to our democratic system of government.
    Part of ensuring fair and just elections is conducting non-
biased and independent oversight, but I think that some of the 
allegations that you made relative to Ohio I think are--you 
know, I think it is real questionable whether they are unbiased 
or independent or accurate.
    As the representative from the first district of Ohio, 
which is Cincinnati, I spent considerable time at diverse urban 
and suburban polling locations in both 2000 and 2004 and 2006, 
and I disagree with your assessment, that there was some type 
of Republican conspiracy going on.
    In fact, it appears that any electoral irregularities in 
Cuyahoga County, for example, which is the largest county in 
the State, were in fact caused by the incompetence of a 
Democrat. And I have with me a number of recent articles 
reporting the resignation of the executive director of the 
Cuyahoga County Board of Elections, Michael Vu who, again, is a 
Democrat, because of a number of electoral irregularities.
    And all of these articles confirm that Mr. Vu was hired in 
2003 with the support of the Democratic Party to administer the 
electoral process in Cuyahoga County. The articles go on to 
describe the electoral irregularities that occurred in that 
county under Mr. Vu's watch, similar in what you have described 
in your testimony, such as long lines and complaints over 
provisional ballots, not only in 2004 but also in 2006.
    Professor Sandberg, putting partisan politics aside, can we 
agree that at least in Cuyahoga County that it was a Democrat 
appointed with the support of the Democratic Party who was 
largely responsible for any electoral problems that occurred in 
2004 and 2006 there? And if so, how can one say that every step 
in the election process was undermined by Republicans? And how 
is this type of biased reporting helpful in correcting the 
electoral problems that occurred in the past and ensure that 
they don't happen in the future?
    And I also have to say that I heard reports, maybe you 
didn't, but there were long lines in predominantly Republican 
areas as well. I heard about them over an over on Election Day 
that people were waiting in long lines there too. I can see by 
shaking your head you disagree, but if you could respond, I 
would appreciate it.
    Ms. Sandberg. Thank you. Thank you for your question.
    There were some instances where, frankly, incompetence 
complicated what was going on.
    The reason that I am focusing on the Republican State 
leadership, part of what is in my written testimony and I 
wasn't able to present in my oral testimony because we only 
have 5 minutes--and this is, to me, very telling: In Oberlin, 
we had 5-hour lines, 300 people waiting, and I was in an 
exurbia community, as we now call them, we use to call them 
suburban, but exurban community, where there were many voting 
booths.
    I received a phone call from the poll watcher in Oberlin 
saying, ``Eve, is there anything you can do? What can I do? I 
can't get through to the secretary of state's office. I can't 
get through.'' I tried calling----
    Mr. Chabot. Wrap it up quickly because I have got only a 
minute left.
    Ms. Sandberg. Okay. I tried to get through to the secretary 
of state. I turned to my Republican counterpart and said, 
``This isn't fair.'' He said, ``Oh, they gave us a different 
number.'' And he called and got through.
    Mr. Chabot. I read that in your testimony. I saw that. I 
assume my colleagues did also.
    Ms. Sandberg. Okay. So Republicans had systematically, the 
Republican leadership----
    Mr. Chabot. Let me just follow up. When you talk about 
systematically, in the election, the elected official you are 
talking about, Ken Blackwell, was running for governor. How did 
that race turn out that Republicans were orchestrating to steal 
the elections? Who won that election?
    Ms. Sandberg. Wait. This testimony here was from 2004, and 
he was hoping----
    Mr. Chabot. Okay. Well, I am talking about 2006 now.
    Ms. Sandberg [continuing]. And he was hoping to be a leader 
of his party.
    Mr. Chabot. I am beyond that. We are talking about 2004 and 
2006 in your testimony.
    Ms. Sandberg. In 2006, in this last time, he won.
    Mr. Chabot. Who won the governor's race?
    Ms. Sandberg. Mr. Strickland and----
    Mr. Chabot. And it was a pretty wide margin, right?
    Ms. Sandberg. He did, right.
    Mr. Chabot. He won 60-plus percent to 37 percent that 
Blackwell got. You had an incumbent Republican Senator who lost 
by more than 12 points to Sherrod Brown. You had four of the 
six statewide offices that Democrats won. Yet there is still 
this contention that there was a Republican attempt to steal 
the elections. To me, that is just beyond comprehension.
    Ms. Sandberg. One of the reasons that that happened is I 
believe the second time that--the Democrats had a slew of 
lawyers all over the State looking for--because people like 
you, and I believe you, Mr. Chabot, that you are someone who 
really wants free and fair elections. But because we had shined 
a light on it and because the Democrats this time--the first 
time we were taken by surprise, and I say, ``we,'' because now 
I am a partisan Democrat in Ohio. Otherwise, you know from my 
testimony previously I was not in other States. We were taken 
by surprise.
    A slew of lawyers came in, we had a slew of people watching 
who were legally trained, who were experts and the polls--I 
mean, to have taken the election this time, the polls so 
demonstrated that there was a tide, a Democratic tide. It would 
have been incomprehensible.
    Mr. Chabot. Well, I know my time is up, but let me just 
conclude by saying that I think this is one issue where it 
really should be bipartisan, that you ought to have Republicans 
and Democrats agreeing that everybody ought to have the 
opportunity to vote, every vote ought to count.
    We ought to make sure that people, our citizens, I know 
there is some disagreement on to what extent we go there, but 
it ought to be--this was a Democratic year, it was a great 
Democratic year. A lot of Republicans lost. Sometimes it goes 
one way or the other.
    But I really think in my heart of hearts in Ohio that 
elections aren't stolen. I mean, there are incidences where 
there are abuses, but, in general, I think we need to do a 
better job. I think we ought to keep the politics out of it as 
much as possible.
    Thank you.
    Ms. Sandberg. May I say one more thing? I am the one who 
actually researches and writes in international affairs, and if 
I can just say this. It has nothing to do with any of the bills 
that are present. But if we could--one of the things that 
happens when we go abroad and we are trying to promote 
democracy, the cynicism abroad about our democracy is painful 
to me, and I agree with you, we have to get our house in order.
    And perhaps we could take a page from some of those late 
industrializing countries that have taken the election process 
in States and taken it away from a secretary of state that 
belongs to one party or another and put it in a bipartisan, 
independent election council. Because when someone is trying to 
be a leader of their party in the future and they want to 
deliver an election and there is other circumstantial evidence, 
it is hard not to think that that is what they are doing.
    Mr. Chabot. Thank you very much.
    Ms. Sandberg. Thank you.
    Mr. Conyers. Thank you, witness and Mr. Chabot.
    We now turn to the gentleman from North Carolina, Mr. Mel 
Watt.
    Mr. Watt. Thank you, Mr. Chairman, and thank you for 
holding this important hearing. I apologize for being unable to 
be here for the first panel, but I wanted to certainly be here 
to hear these experts.
    Let me ask a question that probably has little to do with 
either the bill that we are considering or much else.
    There seems to be people dropping bills now who would like 
to do away with robo calls, and I noticed, Mr. Neas, you 
mentioned that in your testimony, not doing away with them 
completely but erroneous information robo calls.
    As a general proposition, do you think it would be 
constitutional to do away with all robo calls?
    Mr. Neas. I don't think it would be. Mr. Scott asked a 
somewhat similar question before, and before we were trying to 
strike that balance between the right to vote and other kinds 
of civil rights and civil liberties. And I think this bill has 
been carefully crafted to strike that balance.
    Mr. Watt. Yes. I am not suggesting that this bill goes near 
that issue.
    Mr. Neas. Right. And the intent test about knowingly and 
intentionally deceiving the voters, I think, helps with the 
constitutional issue.
    Mr. Watt. Professor Sandberg closed her last statement here 
talking about a Federal commission of some kind that would 
oversee elections. One of the impediments to that notion seems 
to have been this whole notion of federalism. I am wondering 
whether anybody has done any expensive research on the 
interplay between article 1, section 2, and article 1, section 
4, of the Constitution to try to more precisely define the 
outer limits of what we can do at the Federal level and what is 
protected at the State level.
    Are you aware, Mr. Neas or Ms. Brazile or Dr. Sandberg, of 
anybody who has really gone at that issue aggressively and 
tried to define what the outer limits of Federal authority is 
in setting the qualifications for elections?
    Mr. Neas. Mr. Watt, I personally am not knowledgeable in 
this area. I am sure that my excellent legislative and legal 
counsels might have something to report back to you and that we 
could share with you.
    Mr. Watt. They are helping you back there behind you---- 
[Laughter.]
    Mr. Neas. I am sure they are.
    Mr. Watt [continuing]. Wanting to get to the table to 
answer the question.
    Mr. Neas. If there is anything out there, we would gladly 
share it with you and the other Members of the Committee.
    Mr. Watt. Okay. That would be great, because I often hear 
people raising that as an issue. It doesn't seem to be that 
difficult reading the language of the two sections of article 
1. I will just read them into the record, just quickly.
    Article 1, section 2, says, ``The House of Representatives 
shall be composed of members chosen every second year by the 
people of the several states, and the electors,'' I assume that 
is the voters, ``in each state shall have the qualifications 
requisite for electors of the most numerous branch of the state 
legislature.''
    So I guess whatever qualifications that a State put on to 
be eligible to be a voter for the State legislature under that 
provision would be applicable to Federal elections.
    Section 4 says, ``The times, places and manner of holding 
elections for Senators and representatives shall be prescribed 
in each State by the legislature thereof,'' and that sounds 
like a way-out statement, but then it goes on to just whack the 
legs from under it by saying, ``But the Congress may at any 
time, by law, make or alter such regulations, except as to the 
places of choosing Senators.''
    So it seems to me, I have guess I have heard too much legal 
speculation, classroom academic speculation about this. The 
language seems pretty clear to me, but if you all have any 
additional research, I am sure these brilliant lawyers who are 
seated behind you will provide it to me.
    So I appreciate you being here and appreciate your 
testimony.
    I yield back, Mr. Chairman.
    Mr. Conyers. Thank you, Mr. Watt.
    We now call on our distinguished Member--oh, Steve King is 
here, former witness on panel one is now back in his more 
normal role in panel two and is recognized.
    Mr. King. Thank you, Mr. Chairman. Sitting here next to you 
is not quite my normal role, but I appreciate that, and I 
appreciate this hearing here today and the tone and the tenor 
of this hearing and the serious nature of how we approach the 
election process in America.
    And I made some statements earlier about how important I 
believe the integrity of our system is. I sincerely and 
fervently believe that it goes beyond even the facts. Every 
vote should be legitimate, no one should be intimidated to keep 
them from voting.
    I don't know how you actually get that written into law, 
but I want all our electoral process to be as absolutely clean 
as it can be with a max amount of integrity in the system. And 
if we can do that, I said earlier that I would be willing to 
sacrifice, in a level playing field, I would be willing to put 
a majority at risk, a presidency at risk because the people 
ought to make that decision, and then the political parties 
then can adjust their politics to go back and compete for their 
majority or their presidency.
    That is the way it is designed to be, and if we lose the 
integrity, it isn't just if it doesn't work right, but if the 
American people lose their faith in it, even if it works right, 
then we have lost our constitutional republic. So this is a 
very, very important hearing.
    I regret that I wasn't able to listen to all the testimony 
of the second panel of witnesses, the nature of this Hill being 
what it is. And so I am going a little bit at maybe a haphazard 
fashion here, but I am very interested in Ms. Brazile's 
approach to this, because you have a long and active and a 
fairly public involvement in these things.
    As I read through your testimony here, I see on page four, 
and I am going to tell you, I agree with this statement, 
``There is no place in our democracy for last minute 
attempts,'' and I would add to that, any attempts, ``to purge 
eligible citizens just because they may vote for your 
opponent.'' Just exactly right, well-said, and I support that 
statement.
    I would ask, though, Ms. Brazile, and here is a 
philosophical question, in a way, is where I am getting to. I 
am going to just ask you, were you a supporter of the 
reauthorization of the Voting Rights Act we did last year?
    Ms. Brazile. Yes, sir. Not only was I a supporter, when the 
White House called to invite members of the community to come 
over to the White House, they called me to ensure that they had 
all of the great champions of civil rights. So, absolutely, 
sir.
    Mr. King. Okay. And I didn't want to make that presumption, 
but I did want to give you an opportunity to say so on the 
record.
    Ms. Brazile. Thank you.
    Mr. King. And the motive behind that, and I believe, for 
the most part, is pure, but I call into question this statement 
right above that on the same page where it says, and it is a 
quote from your testimony, ``There is no place in our democracy 
for election practices that target citizens based on the color 
of their skin or their partisan affiliation.''
    Ms. Brazile. That is correct.
    Mr. King. And right on its face, I agree with that, but I 
would point out that in the Voting Rights Act, and as objected 
to substantially by Georgia, that there are practices in the 
redistricting process that certainly affect the integrity of an 
individual's vote that are based upon race.
    And my question to you is then, there have been a couple 
circumstances, Justice O'Connor essentially suspended the 14th 
amendment for 25 years and the affirmative action cases until 
such time as we can put racism behind us. And this 
reauthorization for 25 years sentences the people in the 
covered States and the districts within those States to the 
label of racism for 25 years.
    It occurs to me that a lot of the people that were labeled 
such in the original passage of the Voting Rights Act have 
passed into the next life and maybe their children are there 
voting or their children have moved out, and so it looks to me 
like racism is heredity like skin color by the analysis of 
this.
    Is there a time that you think we can get to this point 
where we can erase these divisions and then not have 
classifications and not be redistricting based upon race?
    Ms. Brazile. Well, sir, I hope in my lifetime we do arrive 
at that day, but, unfortunately, we are not there today. I know 
of too many instances, even in my own home State of Louisiana, 
where people are still selectively purged because of the color 
of their skin.
    I could tell you and attest, even if you go back and look 
in Florida in 2000 when there was a young man, well, Wallace 
McDonald, 64, he was purged from the Florida voter rolls 
because of a conviction. Now, Mr. McDonald's crime was not a 
felony for which Floridians forfeit their voting rights forever 
but merely a misdemeanor, which should not affect voting rights 
at all. Mr. McDonald had been convicted for falling asleep on a 
bench. One-third of eligible Black men have lost their voting 
rights.
    Mr. King. Ms. Brazile, you know I am with you on that. I am 
with you on that. That is a deplorable thing to see happen. And 
there was earlier testimony that said that perhaps of the 
purging of the votes there were maybe 20 percent error rate, or 
at least the comment was made, I believe, by Mr. Nadler.
    Do we have any numbers that tell about how many felons are 
actually allowed to vote by mistake. If we are going to have 
errors on one side of the database, did we have them on the 
other side, that you are aware?
    Ms. Brazile. Very few, sir. I mean, the fact is less than 
100 cases. And I can submit all of this for the testimony. The 
Brennan Center for Justice has done an outstanding job of 
putting forward information on felony disenfranchisement in 
this country, and I think this is one of the most egregious 
errors that we have made.
    And I just recently saw the governor of Florida in the 
green room at CNN, and we have agreed to begin to work together 
on this issue so that we can get rid of the backlog in the 
State of Florida. Many citizens in that State are eligible to 
vote but because of the law that tells them that they have to 
go back and reapply and then they have to get a status report, 
so we need to find ways to ensure that every eligible citizen 
can vote.
    Mr. King. Would it occur to you, as it has to me, that with 
the computer databases that we have, that we could actually 
have an interconnected computer database of all voter 
registration in America for Federal elections so that we could 
crunch that database and eliminate the duplicates, the 
deceased, the felons where it is appropriate, according to law, 
and also get that all cleaned up so that we don't have mistakes 
for Federal elections? Would that be something that you could 
support?
    Ms. Brazile. I would, but Congress, first, must properly 
fund the Help America Vote Act so we can ensure we have the 
funds. As you well know, many States when they are looking for 
extra dollars, the one area that they are not trying to put 
those extra dollars is in election administration, and I would 
hope that you would fund it.
    Mr. King. And we did that for the first time to reach into 
that, but I understand what you are saying.
    I have another concern and you brought up the 2000 election 
in Florida, and as I watched that, and I watched it closely, as 
many Americans did, probably more closely than most, though, 
and I see that there were issues with people had difficulty 
managing the ballot, understanding how to vote, how to get to 
their polling place.
    And the thing that seemed to be a common denominator that 
we all agreed on, whether we are Republicans, Independents, 
Democrats or the media, was that the people that intended to 
vote for Al Gore had more difficulty getting the ballot figured 
out than those that were intending to vote for George Bush.
    Could you speak to that as to why that would be the case?
    Ms. Brazile. Well, sir, we still have a problem of literacy 
in this country, we still have a problem where some Americans 
don't have the transportation required to get to their ballot 
box. Look, in some communities in this country, especially in 
rural areas, the polling site is often five, ten miles away, 
and when Americans, as you well know, are stressed out, working 
two, three jobs, so we try in our political party to make it 
easier for people to vote. That is why we suggest and recommend 
early voting, what we call no excuse absentee voting. So we try 
to ensure that people can get to the ballot box.
    I think of those residents in Palm Beach County who voted 
mistakenly for Pat Buchanan, knowing that they wanted to vote 
for Al Gore. That was the butterfly ballot. So I think we need 
to eliminate some of these structural barriers, the ballot 
errors and other things, and make it easier for people to 
exercise their right to vote.
    I hope one day that we cannot just clean up our computer 
systems but we can allow for, and some of my friends will not 
like this, but I hope one day that we can allow for Internet 
voting. As you know, many of our military personnel overseas 
were allowed to either fax in their ballot or vote by Internet, 
and hopefully one day we can clean up the system and have a 
fail-proof system so that we can make voting easier for all 
eligible citizens.
    Mr. King. I thank the gentlelady, and I yield back.
    Mr. Conyers. Thank you for your questions, Mr. King.
    The gentlelady from Houston, Texas, Sheila Jackson Lee?
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Obviously, the set of hearings that we have already had in 
this Committee has set a new tone and a new day for justice in 
America, and I thank the Chairman. I don't know if we would 
have had a hearing as quickly as this on the questions of 
issues of great concern that I believe need addressing.
    I would like to define this hearing for what I think it is, 
and I hope the witnesses will help me and correct me if I am 
wrong. I believe this is about voter suppression and voter 
intimidation.
    And as I have listened to the witnesses and also my 
colleagues who have asked questions, let the record be clear 
that none of us adhere to voter fraud. I think each of you at 
the table would speak vigorously against it, probably join in 
in helping to find any legal basis to overcome or eliminate 
voter fraud.
    I have seen fraudulent activities happen, whether it is 
stuffing the ballot, whether it is manipulating the count. That 
is fraudulent, and I don't believe that we would counter to 
that.
    But let me go back to the 2000 election, and I have to talk 
very quickly, because I think intimidation is clear.
    And let me associate myself with Chairman Conyers, this is 
a great bill, and I am looking forward to possibly the 
germaneness of an amendment dealing with an election. I filed a 
holiday bill for Election Day. I file that bill frequently. It 
has a lot of entanglements to it, but I hope that we have 
finally give Americans a day to vote, particularly in Federal 
elections, and I join the Chairman in that.
    And I also want to mention, as I give examples of voter 
suppression, two distinct examples, Prairie View A&M and 
Florida A&M, Florida A&M in particular.
    And, Mr. Chairman, if you had Kareem Brown in this room, I 
don't think we could contain still the kind of degree of 
upsetness, but I recall distinctly suppression of college 
voters. There was a specific desire to suppress that vote in 
Prairie View A&M, legitimately registered student voters who 
have been suppressed. And let me remind you that they were 
suppressed again in 2006 when we marched again.
    And so I hope, as we look at this bill, 1281, that is a 
very fine framework, that there will be some germaneness to 
provide some specific prohibitions against suppressing college 
vote. Now, that would include individuals of all colors and 
creeds who happen to have a jurisdictional right to claim a 
residency and vote in that area, and I am going to pose a 
question.
    The other one was the felon question in Florida--and I am 
going back again to 2000, maybe because the spirit is still in 
my heart--of the thousands, as I understand it, a Texas company 
who had on the list felons who were not felons.
    And I would vote, Mr. Chairman, an amendment might be 
germane in terms of some sort of credentialing of so-called 
voter companies, whatever they may be, whether they be a felon 
list or a purged list. I want some kind of criteria for them to 
exist in this arena.
    Because it is not a business, Mr. Chairman, it is an 
infringement of a constitutional right.
    And let me finish this so I can pose a question. I, 
frankly, think the 13th, 14th and 15th amendment--somebody can 
rise up and challenge me--gave rights to White Americans as 
well and other Americans. Let me just say it gave rights to 
Americans. It had some specific historical criteria, but they 
gave rights. They gave a due process right to Americans, 
equality rights, a non-enslavement right, if you will, so that 
we cannot hold anyone as a slave here in this country and 
deprive them of their rights.
    Might I quickly ask each of the persons, as the light goes, 
to tell me whether suppression is the key element of what we 
are saying here, which wraps in deceptive practices, that we 
want what is provided, the constitutional right or the right to 
vote, and that is what we are trying to get at in this bill and 
that we can, in all manner, deal with fraud if it is 
documented. But it is the question of fraud.
    Why don't I start with you, Mr. Neas, in terms of your 
work.
    Mr. Neas. There is no question that there is extensive 
evidence from the last three elections of voter intimidation 
and deceptive practices. People For the American Way Foundation 
along with the NAACP and the Lawyers Committee for Civil Rights 
has put out three separate studies that go into hundreds of 
incidents in many parts of the country.
    Of course we are against fraud. I think the fraud issue is 
a red herring. There was just a report by Columbia University 
this week, ``Voter fraud of any type is extremely rare with 
only 24 people convicted nationwide between 2002 and 2005.'' 
And I can cite you report after report, statistic after 
statistic. It is a red herring to give justification for some 
of these voter ID bills.
    Where some of these voter ID bills have occurred, like 
Indiana, Missouri and Arizona, in all three States, the 
governor, the secretary of state or the State has testified in 
court there is no voter fraud in these States. There is no 
documentation that would justify these kinds of voter ID bills.
    So we are totally in agreement, and anything that makes it 
easier to vote, that brings down the barriers that prohibit 
people from voting and making sure that votes are counted and 
counted accurately, we are behind. I think this bill will be a 
significant move in that direction.
    Mr. King, by the way, I do applaud you for your work on the 
voting machines thatou demonstrated in the last Congress, and I 
hope you will join Rush Holt and others, if you haven't 
already. I take very seriously a number of things that you said 
about how you want to remedy that situation.
    I think you looked at the machines and the 
disenfranchisement by voting machines, not just the DREs but 
different kinds of voting machines, and the issue of voter 
intimidation and suppression, provisional ballots, the 
equitable distribution of resources, especially machines that 
we heard in the testimony regarding Ohio in 2004. And Mr. 
Chabot is not here to talk about Ken Blackwell, but what he did 
with the paperweight of the voter registrations and the purging 
and the challenges----
    Ms. Jackson Lee. I was there.
    Mr. Neas [continuing]. Was quite reprehensible.
    Ms. Jackson Lee. And I thank you. Mr. King has been 
bipartisan on many issues.
    Can I get the last two witnesses, please, to quickly--
particularly this college suppression that I think you 
experienced, Ms. Brazile, directly in the State of Florida.
    Mr. Neas. We were co-counsel on that issue, by the way, and 
I thank you for all the efforts.
    Ms. Jackson Lee. Thank you.
    Ms. Brazile. Madam Congresswoman, I mentioned in my 
testimony the students at Prairie View and also I know about 
the students at Florida A&M, and I know of many other cases 
where students had particular problems in getting their 
absentee ballots, even voting on campus, so even having the 
facilities available to them.
    At Dartmouth College in New Hampshire, the students there 
wanted to put in a polling site, and they went to the town 
council. New Hampshire is one of the States that has same-day 
registration. The students had problems actually getting the 
polling site closer to campus, because many of them did not 
have access to public transportation that would take them to 
the town hall place.
    So, I think we have to find ways to ensure that our young 
people have opportunities to cast their ballots, and when they 
request their absentee ballots, they get them in a timely 
fashion. Every semester, at Georgetown, after an election, I 
try to get a show of hands of how many students voted, and many 
of them raise their hands. To the two or three that fail to 
raise their hands, I say, ``What is the problem?'' They say, 
``Didn't get the ballot. We requested it in time but it didn't 
come.''
    So this is a problem. We need to focus on students, the 
elderly, the poor, racial minorities, language minorities, 
people with disabilities.
    You know, as these elections become more and more 
polarized, the Nation is divided. We have 29 so-called safe 
States, 21 so-called battleground or swing States. If you look 
at these incidents of voter deception, voter intimidation, 
voter harassment, illegal voter purges, they are taking place 
in these so-called swing States where there has been a 
deliberate attempt to try to suppress the vote.
    Just recently, in Michigan, there was a State 
representative, I believe his name was Mr. Papageorge, who said 
that in order to win in Michigan, we have to suppress the votes 
in Detroit. Now, that is wrong. You should win outright, lose 
outright. I have won many elections, I have lost some, but I 
think for people to put illegal barriers in front of voters, 
that should be outlawed.
    One thing on these robo calls, once upon a time, I thought 
robo calls were the sexiest thing in politics, because you can 
get celebrities and others to tape a 15-second, 20-second 
message and then put it on right before the election, and 
people got really excited and say, I heard from Bill Clinton, I 
heard from Bill Cosby, whoever on the Republican side.
    Now, those calls are placed in the middle of the night, 
they don't identify who the caller is, and it is a form of 
harassment. And many voters called us last year to DNC and 
said, ``Stop the phone calls.'' Well, we were not making phone 
calls at those hours. I am sure you heard in Missouri there 
were even live phone calls, push calls, as they are commonly 
referred to.
    So we need to clean up, and I have committed myself. I have 
talked to Ken Mehlman, the outgoing chairman of RNC, I have 
talked to Ed Gillespie, the former chairman. I have committed 
myself to working across the partisan lines, because I think we 
need to clean up our system. If we want to have the best 
democracy in the world, if we want to march for freedom in Iraq 
and Afghanistan, it should begin here at home.
    Ms. Jackson Lee. Did you want to comment quickly?
    I thank the Chairman for his indulgence.
    Ms. Sandberg. I would comment quickly. And this is where I 
had a good-faith disagreement with the congressman from 
Cincinnati, from Ohio.
    And the reason that I said that it looked like it was an 
organized suppression, not just incompetencies, even there were 
instances of incompetence, was that in addition to the fact 
that there was a double track for poll workers to get to the 
secretary of state, we could not get correct identification 
from the secretary of state in the 2004 election to the point 
that the president of our college, Nancy Dye, had to create a 
task force to figure out how to record and inform students of 
their voting rights so they wouldn't be disenfranchised.
    In 2006, when the League of Women Voters were trying to get 
the rules to publicize them, and one of my students, who was 
writing for one our local newspapers, called the secretary of 
state's office regularly to try to get clarification. No one 
there could give him clarification, which means that if you are 
a student trying to vote and you are trying to find out how you 
can do that and under what conditions and if you are a student 
who moves from dorm to dorm and you don't have an address on 
your photo identification card and that is what they said they 
were going to want, then in the end they didn't, it means that 
you have missed the opportunity to register to vote because you 
don't know the rules and you can't even vote absentee if you 
happen to be from another State.
    So that is why I said there was something going on that 
seemed more than just mild incompetence, and it was in the 
secretary of state's office. And that is my perception. I was 
invited here to talk about my perception from where I was and 
what I viewed, and that is what I saw.
    Ms. Jackson Lee. Thank you, Mr. Chairman. I think what we 
are hearing is that voter fraud is something that we all will 
stand unified against but that the chief culprit of races of 
past and maybe in the future is suppression of voters of all 
kinds, elderly, as well as students, as well as others, and as 
well as legal immigrants who may be categorized as undocumented 
just by the nature of their name. And I hope that we can move 
forward on this legislation.
    I yield back to the gentleman. I thank him very much, and 
thank you.
    Mr. Conyers. And thank you for the interesting questions.
    From Ohio, we have yet another Member of Congress, Mr. 
Jordan. Would you ring in with your perspective on this with 
our three witnesses?
    Mr. Jordan. Thank you, Mr. Chairman. I am going to pick up 
where Congressman Chabot was.
    Professor, in 2006, which party did better in Ohio?
    Ms. Sandberg. In 2006, certainly the Democrats did better.
    Mr. Jordan. Which party controlled the secretary of state's 
office in 2006?
    Ms. Sandberg. The secretary of state's office was 
controlled by Republicans and----
    Mr. Jordan. Who controlled the secretary of state's office 
in 2004?
    Ms. Sandberg. The Republican Party.
    Mr. Jordan. Who controlled it in 2002?
    Ms. Sandberg. Republican Party.
    Mr. Jordan. Who controlled it in 2000?
    Ms. Sandberg. I can't remember that far back, sir.
    Mr. Jordan. The Republican Party. What was the name of Ohio 
secretary of state during those last four elections?
    Ms. Sandberg. It was Ken Blackwell.
    Mr. Jordan. And what office did he run for in 2006?
    Ms. Sandberg. He ran for governor.
    Mr. Jordan. And what was the result?
    Ms. Sandberg. The result was that there were----
    Mr. Jordan. What was the result, who won?
    Ms. Sandberg. The result was he lost, and I think that the 
context as to why is as important as the question----
    Mr. Jordan. Let me ask you this----
    Ms. Sandberg [continuing]. As the answer.
    Mr. Jordan. But your point is, you come with this grand 
conspiracy that is going on in the State of Ohio that you have 
laid out. In fact, you said, over the 6-year timeframe it is 
hard not to conclude that every step of the election process 
was undermined by the Republican secretary of state's office 
and the many in his employ.
    So you have got this grand conspiracy. How in the heck--I 
mean, the secretary of state for 8 years now running for 
governor, still controlling the secretary of state's office, if 
there is some grand conspiracy, helicopterscircling the State 
house, how in the heck could he lose that bad in 2006?
    Ms. Sandberg. No helicopters circling the State house, sir.
    Mr. Jordan. Let me point to one thing in your testimony.
    Ms. Sandberg. Okay. I would love to answer.
    Mr. Jordan. Then I will let you respond.
    Ms. Sandberg. All right.
    Mr. Jordan. You say this: ``A young man''--this is in your 
testimony, page five--``A young man reported that a number of 
Kent State students came to him and claimed that their punch 
cards''--this is in the 2004 election----
    Ms. Sandberg. Right.
    Mr. Jordan [continuing]. ``Their punch cards were pre-
punched for President Bush. I asked the male student if he took 
down the names of any Kent State students with whom he had 
spoken, he said he had not. I told him I was not certain what 
he could do, he should call the secretary of state's office and 
he should call the Democratic Party. Stupidly, I did not take 
down his name. It never occurred to me that I might be sitting 
here today.''
    So you had the foresight to ask him did he take down their 
names, you didn't take down his name, and yet you come in front 
of the Judiciary Committee in Congress, some nameless guy, with 
nameless students who had pre-punched cards for President Bush 
in 2004 and cite that in your testimony, and yet if it is that 
grand a conspiracy, how in the heck did Ken Blackwell lose so 
bad in 2006?
    Ms. Sandberg. There are two answers to that. The first is 
that I was invited here to talk about what it looked like to me 
on the ground, what did I see, what did I hear. I didn't 
conduct an investigation, I wasn't invited to do research as to 
what happened in the election. I am invited here as someone who 
is on the ground and who is able to report what I saw and heard 
so that you folks can do that investigation.
    I put that in there and I put that it was an allegation, 
and I put that it was an allegation because I hadn't 
substantiated it, but it certainly is troubling and somebody 
should be investigating that.
    Mr. Jordan. A nameless guy, with nameless students, in 
front of the Judiciary Committee.
    Ms. Sandberg. I am sorry. If I am oversees and I am an 
election observer and someone wants their election certified, I 
know the people are trained to say, ``If there are reports, 
give us reports, we will look into it, and we will see whether 
or not the election procedures need fixing.'' In that same 
spirit, I come to you today and say, we heard enormously 
disturbing things. And my testimony today, again, is not the 
result of research on my part but to raise as issues that were 
troubling that we heard.
    As far as how the secretary of state do so poorly in this 
election, it was the same question I had previously, is the 
polls overwhelmingly showed that he was going to do poorly, and 
this time the Democrats were a little more prepared. They had 
lawyers all over the State.
    You folks, blessedly, and I have to say from both sides of 
the aisle, and as you know in my testimony, I said I am not 
saying all Republicans, I am talking about particular 
individuals who did your party, I believe, no honor, that there 
were folks all over the State who had shined a light on what 
was going on in Ohio. The difference in the polls was so great 
and people were prepared this time in a way they weren't before 
so they could counter some of the tactics that had been used 
before so that the election went forward in a more accurate 
way.
    Mr. Jordan. It couldn't have been that maybe the people who 
won in 2004 got more votes than the other individual on the 
ballot, and those in 2006 who won got more votes than the 
other. It couldn't have been that simple, could it?
    Ms. Sandberg. It could have been that simple, except that 
there were so many irregularities, and I am someone who was 
invited here to inform you of all those irregularities so that 
if you investigate them and you find this is a pattern in other 
places where there are swing States or where there has been 
closely contested elections, that it is your job to figure out 
a way to prevent those irregularities.
    Mr. Jordan. Thank you.
    Thank you, Mr. Chairman.
    Mr. Conyers. Thank you. We have heard from about three 
Members of Congress from Ohio, so I am so happy that Professor 
Sandberg was here this afternoon.
    Our final but certainly one of our most important 
contributors is the gentleman from Alabama, Mr. Artur Davis, 
who is recognized.
    Mr. Davis. Thank you, Mr. Chairman.
    Before I ask my questions, I just want to respond to my 
friend from Iowa's comments. Earlier, Mr. King made an argument 
that you hear every now and then that we have had 42 years of 
improving conduct under the Voting Rights Act, so perhaps we no 
longer need it.
    A proposition, obviously we are a less racist country than 
we used to be, people don't discriminate as much. Does anyone 
on the panel think that we don't need title 7 because of that?
    Okay. I think that makes my point.
    Let me ask you all several questions regarding the scope of 
this hearing. Voter ID, we have a number of people who believe 
that voter ID is important. I think the Ranking Member of the 
Committee made some observations about the number of 
enforcement actions brought by the Civil Rights Division.
    Let me ask this question: Do any of you on the panel know 
how many prosecutions have been brought anywhere in the 
country, in the last 5 years, based on people walking into a 
polling place, claiming to be someone they are not?
    Ms. Brazile. I believe the Justice Department put out 
figures of 11.
    Mr. Davis. And that would be 11, Ms. Brazile----
    Ms. Brazile. Yes.
    Mr. Davis [continuing]. In a span of 7 years, which is an 
average of a little bit more than one a year. And, of course, 
normally, this institution doesn't try to pass or typically we 
don't try to regulate conduct that yields one known violation a 
year, as I recall. We try to be more conservative than that.
    Let me ask you another set of questions, and maybe I am 
just uninformed about this, so I will just ask the whole panel. 
We know of all of the issues raised around election 
irregularities in Florida in the year 2000, we know of the 
179,855 ballots that weren't validated.
    Looking at established democracies, I don't mean countries 
having their first election, but looking at the countries 
around the world that are established democracies, do we know 
of another country in the last 6 or 7 years where the 
presidency or the leadership of that country has resulted from 
an election with so many questions around contamination of 
ballots?
    Anyone on the panel know of another? Maybe I am just not 
informed.
    Mr. Neas. I certainly cannot recall one, and I think Donna, 
quite eloquently, a few minutes ago was talking about how we 
want to be a model to the rest of the world and we say we are a 
model to the rest of the world, but over the last 25 years, in 
particular, and it is certainly not just Republican versus 
Democrat, because I certainly am old enough to remember what it 
was like in the 1950's and 1960's with voter intimidation in 
the South and suppression, and we still have that in Georgia 
and elsewhere, and that is why we need the Voting Rights Act.
    But when you look at our reports that we did with the 
Lawyers Committee for Civil Rights Under Law and the NAACP and 
People For, they are entitled, the long shadow of Jim Crow or 
the new face of Jim Crow or Shattering the Myth, which is in 
large measure about Ohio in 2004. This is a disgrace----
    Mr. Davis. Well, let me stop you there, because----
    Mr. Neas [continuing]. Mr. Davis, and we should reform it, 
and I hope this Committee will move forward on it.
    Ms. Brazile. But I think Mexico had problems in their last 
presidential election.
    Mr. Davis. And the counter to that, though, I thought 
someone might say Mexico, the only issue is there was an 
independent electoral commission that was appointed in Mexico 
that closely scrutinized the process and issued a finding that 
despite much controversy, there was actually no real evidence 
of contamination. Does anyone on the panel know of an 
independent commission that made that kind of assessment around 
the 2000 election? Because of time, yes or no.
    Okay. You all agree----
    Ms. Sandberg. There are many other countries. If you think 
of the recent Zambian election----
    Mr. Davis. I am talking about established countries, not 
countries where they are just learning this process. I am 
talking about established democracies who have a history of at 
least 25, 30, 50, 70 years. I don't know of another instance 
when the election of the president or the chancellor or the 
prime minister--similar question: Do any of you know of any 
election in an established democracy where a judicial 
determination has been the dispositive factor? Again, major 
established democracy for president, chancellor? I can't recall 
one.
    Let me end on this observation: Normally, what Congress 
tries to do and what public policy aims to do is to try to find 
areas where there are major problems and to step in and address 
those. That is what we try to do with our regulatory reach. It 
seems to me the biggest problem that we have with elections in 
this country is that significant numbers of people who are 
eligible to vote are still not registered to vote.
    In my State of Alabama, in your State, Ms. Brazile, 
Louisiana, your native State, 58 percent of the Blacks who were 
eligible to vote are registered. It is consistent across the 
South. That strikes me as a somewhat important problem from a 
policymaker's standpoint.
    On the flipside of that, I think we have some general 
agreement in this room that we know of scattered instances 
where people walk into polling places claiming to be John Jones 
when they are Mary Smith. We know of scattered instances when 
people are regularly engaging in that kind of fraud that some 
people want to regulate with voter ID.
    Doesn't it make sense to all of you that we should be 
aiming our laws and our policy to what appears to be the bigger 
problem instead of something that appears to be an aberration.
    Mr. Neas. Absolutely.
    Ms. Brazile. Yes, sir.
    Mr. Davis. All right. Thanks.
    Mr. Conyers. I think this brings to a conclusion the 
beginning of a very important inquiry, and it is my hope that 
we will be able to move on this matter and document some of the 
very disparate numbers that have been exchanged here today.
    Wouldn't it be nice to know accurately, to the best of our 
ability, the actual numbers of people who have committed fraud 
or who have been denied to vote or have tried to vote more than 
once or immigrant attempted voting? All these things do have 
some numbers behind them, and I think the Department of Justice 
has a huge responsibility in that area.
    And so to Mr. Neas, to Donna Brazile, to Professor 
Sandberg, we are indebted to you, and all of our witnesses--but 
wait a minute. I haven't recognized Mr. Ellison, and I 
apologize for that.
    Mr. Ellison. Mr. Chair, a lot of the questions that I had 
have already been asked and I have already had a chance to ask 
the first panel some questions. So I just want to say, quite 
clearly, I want to thank all the witnesses who have come 
forward so eloquently, and I want to thank the Chair.
    I think this is one of the most fundamental and rudimentary 
problems in our society, and we have really got to focus our 
attention on getting more people to participate in our 
democracy and not straining at a net on who may or may not have 
voted when they weren't who they said they were. Because I 
think while that may be a problem, it is relatively small in 
the greater scheme of things.
    So, again, thank you, Mr. Chair, and, certainly, I want to 
thank all the panelists.
    Mr. Conyers. Well, thank you very much, Keith Ellison.
    Your participation on the Judiciary Committee has been 
welcomed by many. And I think that, although many of our 
remarks and some of the discussion went beyond the parameters 
of the bill that we have in front of us, unless we look at this 
in a larger scope, we tend to just focus on particular issues, 
singular issues, when I think all of us see that there are a 
great many things that can be done.
    And I intend to maximally involve the Department of Justice 
who I think that a huge responsibility goes on, not just toward 
enforcement and protecting the rights of citizenship, but of 
encouraging and making more simple the balloting process. It 
has been observed here that actually we have hundreds, if not 
thousands, of different systems going on because of the 
Federal-State dichotomy.
    What we want to do now is ponder, and I invite our 
witnesses who are free to continue to contact us, how we 
proceed next and how most effectively.
    This Committee's agenda is so large that being efficient 
really counts for something here, and so we will include 
received statements from the NAACP, the Brennan Center for 
Justice, ACORN, the Project Vote report. And, without 
objection, they will all be included in the record.
    And the record will remain open for 5 legislative days for 
the submission of other materials.
    I thank you all for your devoted commitment to this subject 
matter and to your active substantive contributions made here 
at the hearing today.
    Thank you, and the hearing is adjourned.
    [Whereupon, at 7:04 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
                       Committee on the Judiciary
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Prepared Statement of John Fund, Columnist, The Wall Street Journal
    I want to thank the Commissioners for addressing this important 
issue because we may be only three weeks away from repeating the 2000 
Florida election debacle, although this time not in one but in several 
states with allegations of voter fraud, intimidation, and manipulation 
of voting machines added to the generalized chaos we saw in Florida.
    It's time to acknowledge the U.S. still has in many places a 
haphazard election system that is more befitting an emerging nation 
than the world's leading democracy.
    Walter Dean Burnham has called our system the world's sloppiest 
electoral process. How sloppy? Just ask the residents of Maryland last 
month who saw their primary election thrown into chaos after electronic 
voting machines couldn't be activated. Thousands of voters gave up and 
went home surrendering their right to vote.
    Now we have the prospect of both candidates for governor in 
Maryland, the Republican Governor Bob Ehrlich and the Democratic 
challenger, Mr. O'Malley, calling on voters to cast their ballots by 
absentee. This shows a complete lack of confidence in our election 
system, and this presents us with two possible problems.
    If Donna Brazile and others are legitimately worried about voter 
intimidation, the easiest ballots to intimidate voters over are 
absentee ballots because they're cast outside of the purview and the 
authority of election officials, and we have a long history in this 
country of people being intimidated either by their spouses, their 
relatives, their employers, union officials, or others into casting an 
absentee ballot a certain way. More absentee ballots equals more voter 
intimidation.
    In addition, absentee ballots are the most easy method to commit 
voter fraud, again, because they're cast outside the view and the 
authority of election officials.
    The 2000 Florida recount was more than merely a national 
embarrassment. It left a lasting scar on the American political psyche. 
Indeed, the level of suspicion is such that many Americans are 
convinced that politicians can't be trusted to play by the rules and 
will either commit fraud or intimidate voters at the slightest 
opportunity.
    Now, the 2000 election did result in some modest reforms at the 
federal level, such as the Help America Vote Act of 2002, but the 
implementation has been slow. Although I will say one positive outcome 
of the HAVA Act is that Donna Brazile's sister, if she did not produce 
all of the ID that she thought she needed to produce, would have been 
allowed under HAVA to request a provisional ballot. That provisional 
ballot would have been counted later after she had established her 
eligibility.
    So under the current system if you don't have the ID, you're 
allowed a provisional ballot. That provisional ballot will be counted 
if you are, indeed, an eligible voter.
    America's election problems go beyond the strapped budgets of many 
local election offices. More insidious are flawed voter rolls, voter 
ignorance, lackadaisical law enforcement, and the shortage of trained 
volunteers at the polls.
    Something like 70 percent of our poll workers are going to be 
retiring in the next year. It's an old person's occupation. We need to 
find some way to bring young people, college students, high school 
students into the process.
    All of this adds up to an open invitation for errors, miscount or 
fraud. Reform is easy to talk about, but difficult to bring about. Many 
of the suggested improvements, such as requiring voters to show ID at 
the polls, are bitterly opposed. Others such as improving the security 
of absentee ballots, which Professor Pastor mentioned, are largely 
ignored.
    And of course, the biggest growth sector of our election industry 
has been the turning of election day into election month through a new 
legal quagmire, election by litigation. Every close race now carries 
with it the prospect of demands for recounts, lawsuits, and seating 
challenges in Congress. Some people joke that they're waiting for the 
day that the politicians can just cut out the middle man and settle all 
elections in court.
    That gallows humor may be entirely appropriate given the 
predicament we face. The 2000 election may have marked a permanent 
change in how an election can be decided. We need to restore public 
confidence.
    Ironically, Mexico and many other countries have election systems 
that are more secure than ours. It wouldn't be possible in Mexico to 
have a situation that we have in many of our American cities where the 
voter roles have more names on them than the U.S. Census lists as the 
total number of residents over the age of 18.
    Philadelphia's voter roles, for instance, have jumped 24 percent in 
the last ten years at the same time the city's population has declined 
by 15 percent. Something is going on there, and it probably does not 
lead us to greater accuracy at the polls.
    In the U.S. at a time of heightened security and rules that require 
us to show ID to travel and to enter most federal buildings, only about 
25 states require some form of documentation in order to vote. A recent 
Wall Street Journal-NBC News poll confirms every other poll that I've 
seen on this subject. It found that over 81 percent of those surveyed 
supported the requirement to show photo ID. This included two-thirds 
majorities of African Americans, two-thirds majorities of Democrats, 
two-thirds majorities of Hispanics. In fact, I will make a stipulation 
I normally don't. If you can bring me evidence of a major public policy 
question which has the levels of support that we see on photo ID, 81 
percent and greater, I'll make a donation to your favorite charity. 
There simply, you don't get beyond 81 percent. You simply don't.
    Andrew Young, who is the former U.N. Ambassador and the former 
Mayor of Atlanta, makes a very good point about photo ID. Of course we 
have to make sure this is accessible. Of course we have to make sure 
this is accessible. Of course we have to make sure that it's free to 
anyone who can't afford it. Of course we have to make sure that it's 
not another barrier.
    But there's also an advantage to photo ID. In modern 21st Century 
America if you don't have photo ID, you are cut out of the mainstream 
of American life. You can't really travel. You can't really apply for a 
job. You can't really do a lot of things in life that, frankly, would 
bring you into the mainstream and make your life more rich.
    Andrew Young points out we are helping the poor. We are helping the 
indigent. We are helping many people out of the mainstream of American 
life if we get them a photo ID. They need to have it to be fully 
participatory in America's life.
    Election fraud, whether it's phony voter registrations, illegal 
absentee ballots, shady recounts or old fashioned ballot box stuffing 
can be found in every part of the U.S. Fraud can be found in rural 
areas and in major cities. If you want to find some interesting 
witnesses for voter fraud, I suggest you go to St. Louis and Detroit 
where we've recently had Democratic primaries for mayor.
    In these Democratic primaries, the losing candidates have presented 
some compelling evidence of either massive voter official incompetence 
or outright fraud. Freeman Hendrix, the losing candidate for Mayor of 
Detroit in the Democratic primary in the last election, says that the 
election was conducted under conditions of massive fraud. There's an 
ongoing FBI investigation into that, and he has called for photo ID at 
the polls, and he's a Democrat and a minority.
    Investigations of voter fraud are inherently political because they 
often involve touchy situations which people, frankly, don't want to 
address fully, conditions that harken back to the great debates we had 
over the civil rights struggle in the 1960s.
    And I want to address that because we fought a great civil rights 
hurdle in the 1960s to make sure that poll taxes and other barriers to 
voting would be dropped and would never again stain America's 
conscience. We need to continue that struggle. It's one of the reasons 
we just extended the Voting Rights Act for the next 25 years.
    But I would remind people that there is another civil right at 
stake here. When voters are disenfranchised by the counting of 
improperly cast ballots or outright fraud or, frankly, the incompetence 
of election officials, their civil rights are violated just as surely 
as if they had been prevented from voting. The integrity of the ballot 
box is just as important to the credibility of elections as access to 
the ballot box is.
    Voting irregularities have a long pedigree in America, stretching 
back to the founding of the nation. Many people thought that those bad, 
old days had ended, just as many people think that there no longer is 
any form of voter intimidation.
    That's not the case. Voter intimidation does continue. Voter fraud 
does continue. Let me give you an example of how historical ghosts can 
come back to haunt us.
    In 1948, pistol packing Texas sheriffs helped stuff ballot box 13, 
stealing a United States Senate seat and sending Lyndon Johnson on his 
road to the White House. That's been documented in Robert Caro's 
biography.
    Amazingly, 56 years later came the 2004 primary election in that 
same part of Texas with Representative Sero Rodriguez, a Democrat and 
chairman of the Hispanic Caucus in the U.S. House, charged that during 
the recount a missing ballot box once again appeared in south Texas 
with just enough votes to make his opponent, the Democratic nominee, by 
58 votes.
    Political bosses, such as Richard J. Daley or George Wallace, may 
have died, but they do have successors. Even after Florida 2000, the 
media and others tend to downplay or ignore stories of election 
incompetence, manipulation or theft. Allowing such abuses to vanish 
into an informational black hole in effect legitimizes them.
    The refusal to insist on simple procedural changes, such as 
requiring a photo ID, improving absentee ballot procedures, secure 
technology, and more vigorous oversight, accelerates our drift towards 
more chaotic and contested elections.
    In conclusion, I would remind you that I never expected to live in 
a country where officials in places like Miami and other cities would 
hire the Center for Democracy, which normally oversees voting in places 
such as Guatemala or Albania, to send election monitors to south 
Florida and other places in the 2002 and 2004 elections. Scrutinizing 
our elections the way we have traditionally scrutinized voting in 
developing countries is unfortunately a necessary step in the right 
direction.
    Before we get the clearer laws and better protections, we need to 
deal with fraud and voter mishaps. We need to have a sense of the 
magnitude of the problem we have. I hope and trust that you as 
Commissioners of this body can help in that process.
 Response to Post-Hearing Questions from Ralph G. Neas, President and 
                    CEO, People for the American Way
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


   Response to Post-Hearing Questions from Donna L. Brazile, Chair, 
   Democratic National Committee's Voting Rights Institute, Adjunct 
                    Professor, Georgetown University
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Newspaper Articles, from The Washington Post and The Westside Gazette, 
 submitted by Donna L. Brazile, Chair, Democratic National Committee's 
   Voting Rights Institute, Adjunct Professor, Georgetown University
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          Prepared Statement of Hilary O. Shelton, Director, 
                        NAACP Washington Bureau
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  Prepared Statement of Lillie Coney, Associate Director, Electronic 
 Privacy Information Center (EPIC), Coordinator National Committee for 
                            Voting Integrity
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
